<html>
<title> - NORTH PACIFIC PERSPECTIVES ON MAGNUSON-STEVENS ACT REAUTHORIZATION</title>
<body><pre>[Senate Hearing 113-595]
[From the U.S. Government Publishing Office]



                                           S. Hrg. 113-595

                     NORTH PACIFIC PERSPECTIVES ON 
                  MAGNUSON-STEVENS ACT REAUTHORIZATION

=======================================================================

                                HEARING

                               before the

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 27, 2014

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
                                      ______
 
                        U.S. GOVERNMENT PUBLISHING OFFICE 

93-687 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                          


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
MARK PRYOR, Arkansas                 MARCO RUBIO, Florida
CLAIRE McCASKILL, Missouri           KELLY AYOTTE, New Hampshire
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
MARK BEGICH, Alaska                  DAN COATS, Indiana
RICHARD BLUMENTHAL, Connecticut      TIM SCOTT, South Carolina
BRIAN SCHATZ, Hawaii                 TED CRUZ, Texas
EDWARD MARKEY, Massachusetts         DEB FISCHER, Nebraska
CORY BOOKER, New Jersey              RON JOHNSON, Wisconsin
JOHN E. WALSH, Montana
                    Ellen L. Doneski, Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
                                 ------                                

            SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, 
                            AND COAST GUARD

MARK BEGICH, Alaska, Chairman        MARCO RUBIO, Florida, Ranking 
BILL NELSON, Florida                     Member
MARIA CANTWELL, Washington           ROGER F. WICKER, Mississippi
RICHARD BLUMENTHAL, Connecticut      KELLY AYOTTE, New Hampshire
BRIAN SCHATZ, Hawaii                 DAN COATS, Indiana
EDWARD MARKEY, Massachusetts         TIM SCOTT, South Carolina
CORY BOOKER, New Jersey              TED CRUZ, Texas


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 27, 2014................................     1
Statement of Senator Begich......................................     1
Statement of Senator Rubio.......................................     2
Statement of Senator Cantwell....................................     4

                               Witnesses

Dr. James Balsiger, Alaska Regional Administrator, National 
  Marine Fisheries Service, National Oceanic and Atmospheric 
  Administration, U.S. Department of Commerce....................     4
    Prepared statement...........................................     6
Chris Oliver, Executive Director, North Pacific Fishery 
  Management Council.............................................    12
    Prepared statement...........................................    14
Tim Andrew, Director, Natural Resources, Association of Village 
  Council Presidents.............................................    18
    Prepared statement...........................................    20
Joseph T. Plesha, Chief Legal and Regulatory Officer, Trident 
  Seafoods Corporation...........................................    33
    Prepared statement...........................................    34
Lori Swanson, Executive Director, Groundfish Forum...............    39
    Prepared statement...........................................    40
Linda Behnken, Executive Director, Alaska Longline Fishermen's 
  Association....................................................    42
    Prepared statement...........................................    44
Ricky Gease, Executive Director, Kenai River Sportfishing 
  Association....................................................    48
    Prepared statement...........................................    50
Michael LeVine, Pacific Senior Counsel, Oceana...................    54
    Prepared statement...........................................    56
Julianne Curry, Executive Director, United Fishermen of Alaska...    63
    Prepared statement...........................................    65

                                Appendix

Letter dated March 12, 2014 to Hon. Mark Begich, Chairman, 
  Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard; 
  Commerce, Science, and Transportation Committee from Roy 
  Totemoff, President and CEO, The Tatitlek Corporation..........    77

 
   NORTH PACIFIC PERSPECTIVES ON MAGNUSON-STEVENS ACT REAUTHORIZATION

                              ----------                              


                      THURSDAY, FEBRUARY 27, 2014

                               U.S. Senate,
Subcommittee on Oceans, Atmosphere, Fisheries, and 
                                       Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:40 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Mark Begich, 
Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Welcome. This hearing is called to order 
and we thank you all for being here. Welcome to all our 
witnesses and guests to this hearing of the Senate Commerce 
Subcommittee on Oceans, Atmosphere, Fisheries and Coast Guard.
    This hearing marks the fourth in a series of hearings we 
are holding on the Reauthorization of the Magnuson-Stevens 
Fisheries Conservation and Management Act. Today, we are 
focusing on the perspective of Alaska and the North Pacific.
    The Magnuson-Stevens Act, or MSA, named after two forward-
thinking members of this committee provides the architectural 
framework for the conservation and management of the Nation's 
fisheries. MSA was last authorized in 2006, at which time 
significant improvements were made. Many were based on Alaska's 
long and successful track record in sustainable fisheries 
management. Most notably, the requirement that fisheries 
management plans include annual catch limits and measures to 
ensure accountability if those limits are exceeded. Another 
important improvement is the requirement that catch limits not 
exceed the fishing levels recommended by the councils by their 
scientific and statistical committees. Revisions also provided 
fishermen and the councils with new management tools to 
rationalize fisheries if they wish to do so.
    These reforms combined with rebuilding plan requirements 
added to the Act of 1996 put us on a firm footing for the 
sustainable management of our fishery resources. Many now argue 
that finfish and shellfish caught under a Federal fisheries 
management plan are by definition sustainably caught. That 
said, implementing these reforms has not been easy. This should 
be no surprise because fish issues have never been easy.
    Alaskans have known this for quite a while but we are 
justifiably proud of our record of sustainable management of 
our fisheries. The success of Alaska Fisheries Management shows 
it's hard to know where to start with superlatives. The Alaskan 
Pollock Fishery is the largest by volume in the Nation. And our 
salmon fishery in Bristol Bay is the largest salmon fishery in 
the world. These and others combine to make commercial fishery 
the largest private sector employer in Alaska with nearly $2 
billion in landing supporting more than 70,000 jobs. Nearly 
300,000 recreational anglers spend more than $400 million per 
year in the pursuit of halibut, and salmon, and the sport fish. 
And subsistence fisheries have sustained Alaskan native people 
for thousands of years.
    Managing all these fish and all the users is never easy 
when we put the resource first, follow the science, and try and 
keep politics out of it as much as possible. We've seen one 
recent example how the Magnuson-Stevens Act is working well for 
Alaska. Just yesterday, NOAA announced a $20.8 million disaster 
fund; funding would flow to Alaska to help alleviate the 
economic hardship when the king salmon failed to return to the 
Yukon and Kuskokwim Rivers and Cook Inlet.
    I fought for this appropriation as an appropriator and a 
chair of this committee and am pleased with its allocation. 
I'll be working with the state and the rest of the delegation 
to ensure the funds are quickly distributed to the affected 
communities.
    Today, we will hear testimony from two distinguished panels 
of witnesses regarding MSA Reauthorization from the perspective 
of the North Pacific and Alaska. We hope to learn more about 
the impacts the MSA is having on these nationally important 
fisheries and the individuals, businesses, and communities who 
depend on it, and how it all effects, and how this Act may be 
improved. I look forward to the hearing and our witnesses. And, 
before I start the hearing formally, in the sense of the 
hearing for the witnesses, let me now turn to my Ranking 
Member, Senator Rubio.

                STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Thank you, Mr. Chairman. And thank you all 
for being here today and I want to thank all of you for taking 
the long journey to Washington, D.C. and to testify before us.
    You have great champions in both of your Senators in regard 
to these issues and every other issue that affects the North 
Pacific. And it's relevant, informative, and helpful to hear 
directly from you regarding the unique experiences and fishery 
management practices that occur in the North Pacific.
    As the Chairman indicated, this hearing will round out our 
exploratory hearings that will help inform our policy decisions 
as we work toward reauthorizing the Magnuson-Stevens Act. By 
the way, I want to take a moment--a note was passed to me, and 
I know you may have mentioned this already, or intended to, but 
I know the late Senator Stevens, the namesake of this bill. His 
daughter, Beth, recently passed away. My understanding is she 
was a longtime employee of the Fish and Wildlife Service. And 
of course, our thoughts and prayers are with the family with 
regards to that.
    In this process, and after today, we will have heard from 
representatives from each of the fishery management councils; 
from commercial, recreational, and charter fishermen from every 
coastline of the United States and from various conservation 
organizations. In fact, Mr. Chairman, I believe we hold the 
record for the most witnesses invited to testify before the 
Senate Commerce Committee this Congress. We've heard from over 
35 individuals after today. Again, this process, I believe, has 
been invaluable and we very much appreciate the insight from 
everyone who has taken the time to join us before the 
Subcommittee.
    Let me just add that, as the Chairman indicated last month, 
our end goal here is to use the input that we are getting from 
you and from others that are writing us and are meeting with 
our staffs to draft a bipartisan reauthorization of the 
Magnuson-Stevens Act and we look forward to sharing that final 
draft with you when all of it is complete.
    So again, I want to thank you, Mr. Chairman, for the 
leadership you've shown on this important issue and the 
cooperation of your staff and yourself personally with me and 
mine. And I'm very optimistic about this process moving 
forward. I know you get a lot of bad news about Washington, and 
much of it rightfully so, but I think this is an issue that 
holds real promise in terms of the consensus that is being 
built around it thanks to your leadership and the leadership of 
others on this subcommittee and generally on the Committee.
    And I apologize. I have a second hearing on foreign 
relations scheduled at the exact same time. So my hope is to 
get over there and do similar to what I just did here and then 
maybe come back. I've read the testimony. I did last night. So 
it has been very informative. And I, hopefully, will be able to 
return but thank you all for being a part of this.
    Senator Begich. Thank you, Senator Rubio.
    And let me just say that what--we've had quite a few 
hearings and listening sessions and part of the process has 
been the arrangement that both myself and Senator Rubio have 
set forth when we both became--I became Chair and he became 
Ranking Member, that we were going to work on legislation in a 
bipartisan way and try to move through. But before we started 
laying bills down, we'd actually hear from people and listen to 
what their ideas are and try to then incorporate them into 
legislation. And we're now working on, just for the edification 
of the folks here, working on a draft bill based on some 
additional comments today. And hopefully, maybe toward the end 
of March, we will have a draft of some sort. But we are working 
very aggressively.
    In this time, when there's not a lot of bipartisan stuff 
happening and you kind of grit your teeth at times, this 
committee has been very active and I want to thank Senator 
Rubio for his--he and his staff have done a great job in 
cooperating. So we're looking forward to it. As we would 
probably say, there's no Democrat or Republican fish; there's 
fish that we got to catch. And maybe sports, subsistence or 
commercial and we're looking forward to bringing forward a 
piece of legislation.
    Let me ask, Senator Cantwell, do you have an opening 
statement that you'd like to give? Then we'll go right to the 
witnesses.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Mr. Chairman, I appreciate that.
    I'm going to be quick because I really do want to hear from 
the witnesses. We have a very large crowd and a lot of 
fishermen from the Pacific Northwest. And I want to thank you 
and the Ranking Member for having this hearing.
    I will just say this: This maritime economy from my state 
is a 60, well, it's a $30 billion industry and supports almost 
60,000 jobs. So of that whole maritime industry, about 60 
percent of it is the fishing industry. So these are very 
important issues. I think new Magnuson Reauthorization has the 
opportunity to help us become more efficient to continue to get 
new levels of fishermen into the business. As we've heard from 
our past hearing that we had and to implement, you know, new 
management tools. So we're looking forward to all this 
discussion.
    So, thank you very much and I very much appreciate all the 
Northwest participation here.
    Senator Begich. Thank you very much.
    And we have our first panel. We have three witnesses and 
what I'll do is I'll ask each one, and I'll introduce you, and 
then go ahead and we'll go down the line here. And I'll start 
with Dr. Jim Balsiger. He's the Regional Administrator, Alaska 
Region, National Marine Fisheries Service. Next to him will be 
Chris Oliver, Executive Director, North Pacific Fisheries 
Management Council. And then, Tim Andrew, Director of Natural 
Resources, Association of Village Council Presidents.
    Again, thank you all very much for being here. If I can, 
Dr. Balsiger, we'll start with you. And then, we'll just kind 
of move down and then after your testimony we'll have 
questions, more than likely, for you.

       STATEMENT OF DR. JAMES BALSIGER, ALASKA REGIONAL 
  ADMINISTRATOR, NATIONAL MARINE FISHERIES SERVICE, NATIONAL 
  OCEANIC AND ATMOSPHERIC ADMINISTRATION, U.S. DEPARTMENT OF 
                            COMMERCE

    Dr. Balsiger. Thank you, Mr. Chairman.
    Good afternoon, Chairman Begich, Senator Cantwell. Thank 
you for the opportunity to testify before you today.
    I am Jim Balsiger. I am the Alaska Regional Administrator 
for NOAA fisheries. I live in Juneau, Alaska. NMFS is dedicated 
to the stewardship of living marine resources through science-
based conservation and management. Much of this work occurs 
under the Magnuson-Stevens Fisheries Conservation and 
Management Act which sets forth standards for conservation, 
management and sustainable use of our Nation's resources.
    Since the passage in 1976, the Magnuson-Stevens Act has 
charted a groundbreaking course toward sustainable U.S. 
fisheries. The 2006 reauthorization gave the eight Regional 
Fishery Management Councils and NMFS a clear charge to support 
improved science and management. Key requirements mandated the 
use of science-based annual catch limits and accountability 
measures to better prevent and end overfishing. The 
reauthorization provided more explicitly for market-based 
fishery management through Limited Access Privilege Programs, 
and addressed the need to improve this science used to inform 
fisheries management.
    The Magnuson-Stevens Act created broad goals for U.S. 
Fisheries Management and a highly participatory management 
structure centered on the Fishery Management Councils. This 
structure ensures the decisions about how to manage U.S. 
fisheries are developed through a bottom-up process including 
fishermen, fish stakeholders, affected states, the tribal 
governments and the Federal Government.
    In addition, 10 National Standards included in the 
Magnuson-Stevens Act guides fisheries conservation and 
management. These standards, which have their roots in the 
original 1976 Act, require the conservation and management 
measures prevent overfishing, while achieving the optimum yield 
from the fishery.
    With six of the Nation's top ten fishing ports ranked by 
value of landings, Alaska coastal communities are uniquely 
dependent on living marine resources and healthy marine 
ecosystems. Alaska marine fisheries are vital to the prosperity 
and the cultural heritage of coastal communities. Nationally, 
U.S. fisheries play an enormous role in the U.S. economy. 
Commercial fishing supports fishermen; contributes to coastal 
communities; provides Americans with valuable source of local, 
sustainable healthy food. Recreational fishing provides food 
for many individuals, families and communities, and is a 
critical driver of local and regional economies.
    In my state, subsistence fisheries are also an 
irreplaceable source of protein for much of rural Alaska and 
are interwoven into the cultural identity of Alaskan natives. 
Under the standards set in the Magnuson-Stevens Act and 
together with the councils, states, tribes, territories, and 
fishermen, we have made great strides in Alaska. For example, 
we maintain more stocks of biologically sustainable levels; 
have ended overfishing; rebuilt overfished stocks, built a 
sustainable future for our fishing-dependent communities, and 
provided more domestic options for U.S. seafood consumers in a 
market that is dominated by imports.
    Today, we continue to explore alternative and innovative 
approaches with our partners that will produce the best 
available information to incorporate into management. The 
Magnuson-Stevens Act's call for close collaboration among NMFS, 
the North Pacific Council and our stakeholders is one of its 
greatest strengths and has been essential to the success of 
fisheries in the North Pacific.
    NMFS shares its strong heritage of science-based marine 
stewardship with our Alaska resource management partners. Under 
the Marine Mammal Protection Act, NOAA and Alaskan Native 
Organizations co-manage marine mammals for the conservation 
recovery of species off Alaska. This collaborative relationship 
between NMFS and the Council, along with our early adoption of 
annual catch limits and the use of the precautionary principle, 
all contribute to the North Pacific success and fisheries 
sustainability in ecosystem health. In fact, conservative 
management measures implemented through the Council process 
have paid off.
    Alaska fisheries are known as being among the best managed, 
most sustainable fisheries; producing over 50 percent of all of 
the seafood caught in U.S. waters, worth billions to the U.S. 
economy. Alaska seafood industry is a top private sector 
employer in the State of Alaska. Nationwide U.S. commercial 
fishermen landed nearly 10 billion pounds of seafood valued at 
over $5 billion in 2012. At the same time, recreational catch 
remains stable. Recreational fisheries generate an estimated 
$56 billion in sales supporting 365,000 jobs. U.S. fisheries 
are producing sustainable U.S. seafood. The Federal fishery 
management system is effectively and responsibly managing fish 
stocks at biologically sustainable levels. As of December 31, 
2013, 91 percent of stocks assessed in the country are not 
subject to overfishing, 82 percent are not overfished.
    With some of the largest and most successful fisheries in 
the world, the U.S. has become a global model of responsible 
fisheries management. This is a critical time when we must move 
forward in a thoughtful and disciplined way to ensure our 
Nation's fisheries are able to meet the needs of both current 
and future generations.
    Thank you, again, for this opportunity to testify before 
you today. I'm happy to answer any questions you may have.
    [The prepared statement of Dr. Balsiger follows:]

       Prepared Statement of Dr. James Balsiger, Alaska Regional 
                            Administrator, 
  National Marine Fisheries Service, National Oceanic and Atmospheric 
              Administration, U.S. Department of Commerce
Introduction
    Good morning, Mr. Chairman and Members of the Committee. Thank you 
for the opportunity to testify before you today. I am Jim Balsiger, the 
Alaska Regional Administrator for the National Oceanic and Atmospheric 
Administration's (NOAA) National Marine Fisheries Service (NMFS). NMFS 
is dedicated to the stewardship of living marine resources through 
science-based conservation and management. Much of this work occurs 
under the Magnuson-Stevens Fishery Conservation and Management Act 
(Magnuson-Stevens Act), which sets forth standards for conservation, 
management, and sustainable use of our Nation's fisheries resources.
    Marine fish and fisheries--such as Alaska pollock, Pacific cod, 
Pacific halibut, King crab, and other species found in waters off 
Alaska--are vital to the prosperity and cultural identity of coastal 
communities in the United States. U.S. fisheries play an enormous role 
in the U.S. economy. Commercial fishing supports fishermen, contributes 
to coastal communities and businesses, and provides Americans with a 
valuable source of local, sustainable, and healthy food. Non-commercial 
and recreational fishing provides food for many individuals, families, 
and communities; is an important social activity; and is a critical 
driver of local and regional economies, as well as a major contributor 
to the national economy. Subsistence fishing is an irreplaceable source 
of protein for much of rural Alaska and interwoven into the cultural 
identity of Alaska Natives. Both Alaska's economy and food security are 
uniquely dependent on sustainably managed marine resources primarily 
carried-out under the authority of the Magnuson-Stevens Act. In the 
North Pacific, NOAA Fisheries shares a strong heritage of science-based 
marine stewardship with our Alaska resource management partners, 
including the State of Alaska and Alaska Native Organizations.
    Our most recent estimates show that the landed volume and the value 
of commercial U.S. wild-caught fisheries remained near the high levels 
posted in 2011. U.S. commercial fishermen landed 9.6 billion pounds of 
seafood valued at $5.1 billion in 2012, the second highest landings 
volume and value over the past decade.\1\ The seafood industry--
harvesters, seafood processors and dealers, seafood wholesalers and 
seafood retailers, including imports and multiplier effects--generated 
an estimated $129 billion in sales impacts and $37 billion in income 
impacts, and supported 1.2 million jobs in 2011. Jobs supported by 
commercial businesses held steady from the previous year.\2\
---------------------------------------------------------------------------
    \1\ See NOAA Annual Commercial Fisheries Landings Database, 
available at http://www.st.nmfs.noaa.gov/commercial-fisheries/
commercial-landings/annual-landings/index.
    \2\ See Fisheries Economics of the U.S. 2011. NMFS Office of 
Science & Technology, available at: http://www.st.nmfs.noaa.gov/
economics/publications/feus/fisheries_economics_2011.
---------------------------------------------------------------------------
    At the same time, recreational catch remained stable. Recreational 
fishing generated an estimated $56 billion in sales impacts and $18 
billion in income impacts, and supported 364,000 jobs in 2011.\3\ Jobs 
generated by the recreational fishing industry represented a 12 percent 
increase over 2010.\4\ U.S. fisheries are producing sustainable U.S. 
seafood. The Federal fishery management system is effectively and 
responsibly managing fish stocks at biologically sustainable levels, 
and in cases where some stocks have become overfished, the system has 
been effective at rebuilding populations to healthy target levels. As 
of December 31, 2013, 91 percent of stocks for which we have 
assessments are not subject to overfishing,\5\ and 82 percent are not 
overfished.
---------------------------------------------------------------------------
    \3\ Lovell, Sabrina, Scott Steinback, and James Hilger. 2013. The 
Economic Contribution of Marine Angler Expenditures in the United 
States, 2011. U.S. Dep. Commerce, NOAA Tech. Memo. NMFS-F/SPO-134, 188 
p.
    \4\ See Fisheries Economics of the U.S. 2011. NMFS Office of 
Science & Technology, available at: http://www.st.nmfs.noaa.gov/
economics/publications/feus/fisheries_economics_2011.
    \5\ Status of U.S. Fisheries, FSSI & Summary Status Changes, 4th 
Quarter. NMFS Office of Sustainable Fisheries, available at: http://
www.nmfs.noaa.gov/sfa/statusoffisheries/2013/fourth/
Q4_2013_StockStatusSummaryChanges.pdf.
---------------------------------------------------------------------------
    The advancement of our science and management tools has resulted in 
improved sustainability of fisheries and greater stability for 
industry. Since passage in 1976, the Magnuson-Stevens Act has charted a 
groundbreaking course toward sustainable U.S. fisheries. The 2007 
reauthorization gave the eight Regional Fishery Management Councils 
(Councils) and NMFS a very clear charge and new tools to support 
improved science and management. Key requirements mandated the use of 
science-based annual catch limits and accountability measures to better 
prevent and end overfishing. The reauthorization provided more 
explicitly for market-based fishery management through Limited Access 
Privilege Programs, and addressed the need to improve the science used 
to inform fisheries management.
    The U.S. has many effective tools to apply in marine fisheries 
management. Yet, as we look to the future, we must continue looking for 
opportunities to further improve our management system. While 
significant progress has been made since the 2007 reauthorization, 
progress has not come without a cost to some. Challenges remain. 
Fishermen, fishing communities, and the Councils have had to make 
difficult decisions and absorb the near-term cost of conservation and 
investment in long-term economic and biological sustainability. For 
example, the North Pacific Fishery Management Council and NOAA 
Fisheries have worked collaboratively to introduce several measures in 
recent years to further minimize the bycatch of salmon and Pacific 
halibut in the groundfish fishery. These measures demonstrate our 
continuing commitment to working with the Council, industry, the State 
of Alaska, and Alaska Native Organizations to conserve fishery 
resources. We need to continue to address management challenges and 
explore new opportunities in a holistic, deliberative, and thoughtful 
way that includes input from the wide range of stakeholders who care 
deeply about these issues.
    Modern fishery management in the North Pacific coincided with the 
Americanization of fishing fleets under the original Magnuson-Stevens 
Act. The collaborative relationship between NMFS and the North Pacific 
Fishery Management Council along with early adoption of annual catch 
limits and the use of the precautionary principal all contribute to the 
North Pacific's longstanding success in fisheries sustainability and 
ecosystem health. In the North Pacific, conservative management 
measures implemented through the Council process have paid off in a big 
way. Today, Alaska fisheries are known as being among the best-managed, 
most sustainable fisheries on the planet, producing over 50-percent of 
all seafood caught in U.S. waters, and worth billions to the U.S. 
economy. Alaska's seafood industry is the top private sector employer 
in the State of Alaska. The important role of fisheries in Alaska's 
economy and the persistent achievements in sustainability lead us to 
conclude that the Magnuson-Stevens Act's call for close collaboration 
among NMFS, the North Pacific Council, and our stakeholders is one of 
its greatest strengths and has been essential to the success of 
fisheries in the North Pacific.
    Our testimony today will focus on NMFS' progress in implementing 
the Magnuson-Stevens Act's key domestic provisions, and some thoughts 
about the future and the next reauthorization.
Implementing the Magnuson-Stevens Act
    The Magnuson-Stevens Act created broad goals for U.S. fisheries 
management and a unique, highly participatory management structure 
centered on the Councils. This structure ensures that input and 
decisions about how to manage U.S. fisheries develop through a ``bottom 
up'' process that includes fishermen, other fishery stakeholders, 
affected states, tribal governments, and the Federal Government.
    The Magnuson-Stevens Act guides fisheries conservation and 
management through 10 National Standards. These standards, which have 
their roots in the original 1976 Act, provide a yardstick against which 
all fishery management plans and actions developed by the Councils are 
measured. National Standard 1 requires that conservation and management 
measures prevent overfishing while achieving, on a continuing basis, 
the optimum yield from each fishery. Optimum yield is the average 
amount of harvest that will provide the greatest overall ecological, 
economic, and social benefits to the Nation, particularly by providing 
seafood and recreational opportunities while affording protection to 
marine ecosystems.
    The Councils can choose from a variety of approaches and tools to 
manage fish stocks to meet this mandate--e.g., catch shares, area 
closures, and gear restrictions--and, when necessary, also determine 
how to allocate fish among user groups. These measures are submitted to 
the U.S. Secretary of Commerce for approval and are implemented by 
NMFS. Thus, the Councils, in developing their plans, must carefully 
balance the need for stable fishing jobs, ecological conservation, and 
societal interests to create holistically sustainable fisheries. A key 
aspect of this effort is to ensure that overfishing is prevented, and 
if it occurs, to end it quickly and rebuild any stock that becomes 
overfished. Other National Standards mandate that conservation and 
management measures be based upon the best scientific information 
available, not discriminate between residents of different states, take 
into account variations in fisheries and catches, minimize bycatch, and 
promote the safety of human life at sea.
    Fishing communities are central to many Council decisions. Fishing 
communities rely on fishing-related jobs, as well as the non-commercial 
and cultural benefits derived from these resources. With six of the 
Nation's top ten fishing ports ranked by value of landings, \6\ 
Alaska's coastal communities are uniquely dependent on living marine 
resources and healthy marine ecosystems. Communities, fishermen, and 
fishing industries rely not only on today's catch, but also on the 
predictability of future catches. The need to provide stable domestic 
fishing and processing jobs is paramount to fulfilling one of the 
Magnuson-Stevens Act's goals--to provide the Nation with sources of 
domestic seafood. This objective has even greater purpose now than when 
the Act was passed, as today U.S. consumers are seeking--more than 
ever--options for healthy, safe, sustainable, and local seafood. Under 
the standards set in the Magnuson-Stevens Act--and together with the 
Councils, states, tribes, territories, and fishermen--we have made 
great strides in maintaining more stocks at biologically sustainable 
levels, ending overfishing, rebuilding overfished stocks, building a 
sustainable future for our fishing-dependent communities, and providing 
more domestic options for U.S. seafood consumers in a market dominated 
by imports. Thanks in large part to the strengthened Magnuson-Stevens 
Act and the sacrifices and investment in conservation by fishing 
communities across the country, the condition of many of our most 
economically important fish stocks has improved steadily over the past 
decade.
---------------------------------------------------------------------------
    \6\ See Fisheries of the United States, 2012, NMFS Office of 
Science & Technology, available at: http://www.st.nmfs.noaa.gov/
commercial-fisheries/fus/fus12/index
---------------------------------------------------------------------------
    Without high-quality fishery science, we cannot be confident the 
Nation is attaining optimum yield from its fisheries, or that we're 
preventing overfishing and harm to ecosystems and fishing communities. 
Attaining optimum yield requires investing in information about fish 
stocks, marine habitats, and ecosystems and the individuals and groups 
that rely upon fishing. NMFS is committed to generating the best 
fishery science--biological, ecological, and socioeconomic--to support 
the goals of the Magnuson-Stevens Act. To achieve the goals of the Act, 
we must conduct the research and analyses necessary to understand the 
environmental and habitat factors affecting the sustainability of fish 
populations.
    Fisheries science also relies on data collected by fisheries 
observers as well as collaborative research with non-government 
partners. Adequate observer coverage is also critical for improving our 
bycatch data, and the biological samples collected by observers are 
used in stock assessments and life history studies. National Standard 9 
requires fishery management plans to minimize bycatch. In the North 
Pacific, NMFS continues to work with the Councils, industry, academia, 
and other partners to conduct research and test new methods and gear 
that will make our U.S. fisheries in the North Pacific even cleaner, 
more selective, and able to avoid interactions with marine mammals. 
Much of this is done through the Magnuson-Stevens Act's Cooperative 
Research Program, Bycatch Reduction Engineering Program, and the 
experimental fishing permits process. Further, it should be recognized 
that 100 percent of the Bering Sea and Aleutian Island groundfish 
observer costs are paid for by the industry. This partnership in 
providing for observer coverage has proven to be a key component of 
successful fisheries management of groundfish and shellfish in Alaska.
    Other examples of scientific collaboration in the North Pacific 
include NOAA Fisheries scientists partnering with industry to modify 
flatfish trawl gear to reduce the impact to important bottom habitat. 
This collaborative work consisted of modifying trawl gear by raising 
the sweeps off the seafloor at various spacings--2 to 4 inches--and 
studied the impact this had on catch rates and seafloor habitat. The 
new gear reduced seafloor contact by nearly 90 percent, further 
protecting important habitat for fish and crabs while maintaining 
flatfish catch rates and reducing crab mortality rates. Since 2011, 
fishermen for all Bering Sea flatfish vessels must use the modified 
Bering Sea flatfish trawl gear. The trawl gear leaves less of an 
environmental imprint while improving catch of marketable fish. These 
strong results led the North Pacific Council to recommend requiring 
modified sweeps with the same disc height and spacing parameters for 
the Central Gulf of Alaska flatfish fishery.
    We all share the common goal of healthy fisheries that can be 
sustained for future generations. Without clear rules based on science, 
fair enforcement, and a shared commitment to sustainable management, 
short-term pressures can easily undermine the social, economic, and 
environmental benefits that come from sustainably and responsibly 
managed fisheries. Though overfished stocks remain a challenge in some 
fisheries, as their populations grow and catch limits increase, we are 
beginning to see benefits to those resources, the industries they 
support, and the economy.
Progress in Implementation
    Working together, NMFS, the Councils, coastal states and 
territories, treaty fishing tribes, and a wide range of industry groups 
and other stakeholders have made significant progress in implementing 
key provisions of this legislation.
Ending Overfishing, Implementing Annual Catch Limits, and Rebuilding
    One of the most significant management provisions of the 2007 
reauthorization of the Magnuson-Stevens Act was the mandate to 
implement annual catch limits, including measures to ensure 
accountability and to end and prevent overfishing in federally managed 
fisheries by 2011 (an annual catch limit is an amount of fish that can 
be caught in a year such that overfishing does not occur; 
accountability measures are management controls to prevent annual catch 
limits from being exceeded, and to correct or mitigate overages of the 
limits if they occur). Now, when developing a fishery management plan 
or amendment, the Councils must consider the actions that will occur if 
a fishery does not meet its performance objectives. As of December 31, 
2013, assessments demonstrated that overfishing ended for 71 percent of 
the 38 domestic U.S. stocks that were subject to overfishing in 2007 
when the Magnuson-Stevens Act was reauthorized.\7\ Annual catch limits 
designed to prevent overfishing are in place for all stocks, and we 
expect additional stocks to come off the overfishing list as stock 
assessments are updated in the coming years. The Magnuson-Stevens Act 
also includes requirements to rebuild any overfished fishery to the 
level that can support the maximum sustainable yield, and we have 
rebuilt 34 stocks nationally since 2000.\8\ Currently, only one fishery 
stock of the dozens of stocks managed in the North Pacific--Pribilof 
Islands blue king crab--is overfished.
---------------------------------------------------------------------------
    \7\ See Fish Stock Sustainability Index. This report was the source 
for the underlying data, but the numbers presented here were compiled 
specifically for this hearing. The report is available at: http://
www.nmfs.noaa.gov/sfa/statusoffisheries/2012/fourth/
Q4%202012%20FSSI%20Sum
mary%20Changes.pdf
    \8\ See Fish Stock Sustainability Index. Available at: http://
www.nmfs.noaa.gov/sfa/statusoffisheries/2012/fourth/
MapRebuiltStocksCY_Q4_2012.pdf
---------------------------------------------------------------------------
    The agency has begun the process of reviewing the National Standard 
1 guidelines, which were modified in 2009 to focus on implementing the 
requirement for annual catch limits. This was a major change in how 
many fisheries were managed, and we want to ensure the guidance we have 
in place reflects current thinking on the most effective way to meet 
the objectives of National Standard 1, building on what we and the 
Councils have learned. A May 2012 Advance Notice of Proposed Rulemaking 
was followed by an almost 6-month public comment period where we asked 
for input on 11 topics addressed in the guidelines. We received a 
significant amount of input, and are in the process of working through 
the comments and developing options for moving forward, be it through 
additional technical guidelines, regulatory changes, and/or identifying 
issues for discussion as part of a reauthorization of the Magnuson-
Stevens Act.
Limited Access Privilege Programs (LAPPs)
    The Magnuson-Stevens Act authorizes the use of LAPPs, which 
dedicate a secure share of fish to fishermen for their exclusive use 
via a Federal permit. NMFS has implemented LAPPs in multiple fisheries 
nationwide and additional programs are under development.
    While limited access privilege programs are just one of many 
management options the Councils can consider, they have proven to be 
effective in meeting a number of management objectives when they have 
broad stakeholder support. Both in the United States and abroad, such 
programs are helping to achieve annual catch limits, reduce the cost of 
producing seafood, extend fishing seasons, increase revenues, and 
improve fishermen's safety.
    Predating the 2006 reauthorization of the Magnuson-Stevens Act 
which established LAPPs, the North Pacific fishing industry pioneered 
individual and cooperative quota-based management. Today, approximately 
85 percent of the harvests occurring in federally managed fisheries in 
waters off Alaska occur in LAPP-managed fisheries. Examples include 
Pacific Halibut and Sablefish, the Western Alaska Community Development 
Quota Program, Bering Sea Pollock (American Fisheries Act) 
Cooperatives, Bering Sea King and Tanner Crab (Crab Rationalization), 
Central Gulf of Alaska Rockfish, and Bering Sea Groundfish (non-
Pollock) Cooperatives (Amendment 80). These LAPPs were established 
through a long and deliberative process with the North Pacific Council 
that resulted in enhancing the value of Alaska's fisheries, reducing 
waste, and minimizing the need for fishing in dangerous conditions that 
can often occur in a ``race for fish'' without LAPP management.
    One example of the benefits of LAPPs is the Central Gulf of Alaska 
Rockfish catch share program. Most notably, following the 
implementation of the Rockfish program, both halibut bycatch and 
discards have been reduced substantially. Participants report that 
cooperative management has allowed them to adopt conservation-minded 
practices without sacrificing their overall opportunity in the fishery. 
A longer fishing season also allows fishermen to time their harvest, 
improving safety on the water; create opportunities for a higher valued 
product; and stage delivery to fisheries processors and markets at 
times that do not conflict with other fisheries.
Looking to the Future
Remaining Challenges
    Although the North Pacific has made great strides in creating 
biologically and ecologically sustainable fisheries, there are 
challenges with the economic sustainability of the fisheries. Many 
involve significant policy considerations about the future of coastal 
communities, international conservation commitments and trade, and, of 
course, budgets--not just federal, but state and tribal as well.
    It is critical that we maintain progress toward meeting the mandate 
of the Magnuson-Stevens Act to end overfishing and rebuild overfished 
stocks. Annual catch limits have been an effective tool in improving 
the sustainability of fisheries around the Nation, but managing 
fisheries using annual catch limits and accountability measures was a 
major change for some fisheries, and the initial implementation has 
identified some areas where we can improve that process. We will 
continue to work with the Councils to achieve the best possible 
alignment of science and management for each fishery to attain the 
goals of the Magnuson-Stevens Act. We will continue to develop our 
science and management tools, improve our stock assessments and 
monitoring efforts, and create more effective annual catch limits and 
accountability measures. In doing so, we must continue to ensure solid, 
science-based determinations of stock status and better linkages to 
biological, socioeconomic, and ecosystem conditions.
    A primary goal in the Alaska Region is to maintain healthy and 
sustainable fisheries. Given the vast size and value of fishery 
resources off Alaska, effective fishery management requires regular 
fishery surveys and stock assessments, and the use of new and 
innovative technologies to gather data from the fishery while reducing 
the costs and burdens. The Alaska Region and North Pacific Council 
currently use, and are exploring the expanded use of a wide range of 
electronic monitoring tools to compliment on-going observer programs. 
Looking ahead, we must continue to improve the quality and quantity of 
scientific data, continue progress made on stock assessment improvement 
plans, and continue to explore new and innovative management tools to 
achieve more biologically and economically sustainable fishery 
resources.
    We value the important partnerships we have formed with the states, 
tribes, fishermen, and other interest groups in helping address these 
challenges. These partnerships are critical to developing successful 
management strategies. Together with our partners, we continue to 
explore alternative and innovative approaches that will produce the 
best available information to incorporate into management. NMFS has 
established an effective working relationship with the State of Alaska 
that has allowed for successful co-management of salmon, scallop, and 
Bering Sea crab resources off Alaska. This co-management arrangement is 
provided for in the Magnuson-Stevens Act, and has been effective in 
leveraging the expertise of State and Federal managers to provide for 
effective and responsible management. In addition to fisheries, the 
Alaska Region partners with numerous Alaska Native Organizations for 
the co-management of marine mammal species under the Marine Mammal 
Protection Act.
    It is also increasingly important that we better understand 
ecosystem and habitat factors, such as the effects of climate change, 
interannual and interdecadal climate shifts, ocean acidification, and 
other environmental regime shifts and natural disasters, and 
incorporate this information into our stock assessments and management 
decisions. Resilient ecosystems and habitat form the foundation for 
robust fisheries and fishing jobs. The Magnuson-Stevens Act currently 
provides flexibility for bringing ecosystem considerations into 
fisheries management. NOAA Fisheries and the North Pacific Council have 
developed and implemented fishery ecosystem plans for the Arctic and 
the Aleutian Islands. The North Pacific Council is currently developing 
a fishery ecosystem plan for the Bering Sea. These initiatives improve 
our ability to consider and focus attention on a broad range of factors 
affecting marine ecosystems. The alignment of measures to conserve 
habitat and protected species with measures to end overfishing and 
rebuild and manage fish stocks will be a key component of NOAA's 
success in implementing ecosystem-based fisheries management.
    NOAA supports the collaborative and transparent process embodied in 
the Councils, as authorized in the Magnuson-Stevens Act, and strongly 
believes that all viable management tools should continue to be 
available as options for the Councils to consider when developing 
management programs.
The Next Reauthorization of the Magnuson-Stevens Act
    With some of the largest and most successful fisheries in the 
world, the United States has become a global model of responsible 
fisheries management. This success is due to strong partnerships among 
the commercial and recreational fishing, conservation, and science and 
management communities. Continued collaboration is necessary to address 
the ongoing challenges of maintaining productive and sustainable 
fisheries.
    The Managing Our Nation's Fisheries 3 conference--co-sponsored by 
the eight Councils and NMFS--brought together a broad spectrum of 
partners and interests to discuss current and developing concepts 
addressing the sustainability of U.S. marine fisheries and their 
management. The conference was developed around three themes: (1) 
improving fishery management essentials, (2) advancing ecosystem-based 
decision-making, and (3) providing for fishing community 
sustainability.
    We were excited to see a wide range of stakeholders represent many 
points of view, from commercial and recreational fishermen, to 
conservation and science and management organizations, to indigenous 
communities. Before the last reauthorization, we co-sponsored two of 
these conferences, and they played an important role in bringing people 
together and creating an opportunity to present ideas and understand 
different perspectives. We expect the ideas that emerged from this 
event to inform potential legislative changes to the Magnuson-Stevens 
Act, but the benefits are much greater than that. The communication 
across regions and Councils provided an opportunity to share best 
practices and lessons learned, and could also inform changes to current 
policy or regulations that can be accomplished without statutory 
changes.
Conclusion
    Because of the Magnuson-Stevens Act, the United States has made 
great progress toward sustainably and responsibly managing U.S. 
fisheries, to ensure that stocks are maintained at healthy levels, 
fishing is conducted in a way that minimizes impacts on the marine 
ecosystem, and fishing communities' needs are considered in management 
decisions. Fisheries harvested in the United States are scientifically 
monitored, regionally managed, and consistent with 10 National 
Standards for fishery conservation and management. But we did not get 
here overnight. Our Nation's journey toward sustainable fisheries has 
evolved over the course of 38 years. In 2007, Congress gave NOAA and 
the Councils a clear mandate, new authority, and new tools to achieve 
the goal of sustainable fisheries within measurable timeframes. Notable 
among these were the requirements for annual catch limits and 
accountability measures to prevent, respond to, and end overfishing--
real game changers in our national journey toward sustainable fisheries 
that are rapidly delivering results.
    This progress has been made possible by the collaborative 
involvement of our U.S. commercial and recreational fishing fleets and 
their commitment to science-based management, improving gear-
technologies, and application of best stewardship practices. We have 
established strong partnerships with states, tribes, Councils, and 
fishing industries. By working together through the highly 
participatory process established in the Magnuson-Stevens Act, we will 
continue to address management challenges in a changing environment.
    To understand where we are, it is important to reflect on where 
we've been. We have made great progress but our achievements have not 
come easily, nor will they be sustained without continued attention. 
This is a critical time in the history of Federal fisheries management, 
and we must move forward in a thoughtful and disciplined way to ensure 
our Nation's fisheries are able to meet the needs of both current and 
future generations. We will take the recommendations from the Managing 
Our Nation's Fisheries 3 conference, and look to the future in a 
holistic, comprehensive way that considers the needs of the fish, 
fishermen, ecosystems and communities.
    Thank you again for the opportunity to discuss implementation 
progress of the Magnuson-Stevens Act. We are available to answer any 
questions you may have.

    Senator Begich. Thank you very much.
    Mr. Oliver, good to see you, Chris.

 STATEMENT OF CHRIS OLIVER, EXECUTIVE DIRECTOR, NORTH PACIFIC 
                   FISHERY MANAGEMENT COUNCIL

    Mr. Oliver. You too, Senator.
    And thank you and Senators, for the opportunity to testify 
today regarding reauthorization of the Magnuson-Stevens Act.
    I'm the Executive Director of the North Pacific Fishery 
Management Council where I've worked for 24 years. I want to 
speak first to the 2006 amendments to the Magnuson Act which 
comprised a very ambitious, comprehensive and powerful set of 
new requirements for fishery management, primarily aimed at 
rebuilding and conserving fisheries to the mandate of annual 
catch limits. Many of those requirements were patterned, as you 
noted, Mr. Chairman, after practices which have been in place 
for over 30 years in the North Pacific region. And we believe 
these requirements have generally been a great success. 
However, those amendments were not without pain and cost to the 
fishing industry as is evidenced by the current suite of issues 
being discussed and the introduction of various bills over the 
past several months aimed at modifying some of those provisions 
primarily through flexibility in the ACL, annual catch limit, 
requirements and stock rebuilding requirements.
    The North Pacific Council believes that the current 
Magnuson Act provides a very successful framework for 
sustainable fisheries management and major changes are frankly 
not necessary at this time. However, we also recognize the need 
for increased flexibility in some circumstances and we're not 
opposed to amending the Act to provide for such flexibility 
with some important cautionary notes.
    Annual catch limits have been used in the North Pacific for 
over 30 years and we believe that those limits are the 
cornerstone of sustainable fisheries management. We also 
believe there are situations where some flexibility is 
warranted particularly with regard to data poor stocks. We also 
recognize the need to explicitly consider economic needs of 
fishing communities in that process. Regarding increased 
flexibility for stock rebuilding plans, our council supports 
such flexibility particularly in cases where the ten year does 
make sense due to the particular aspects of the stock in 
question.
    With regard to the definition of overfished, we believe 
there is the need to differentiate stocks for which an 
overfished data status has no relation to fishing activities. 
We have an example in the North Pacific. The only overfished 
stock that we have is Pribilof blue king crab which hasn't been 
fished on for decades. Overall, largely because of the benefit 
of healthy stocks and robust stock assessments in our region, 
we've not experienced the type of negative impacts that other 
regions appear to be having. In that they and we understand the 
need for flexibility in the application of ACLs, but we believe 
it's imperative to consider such changes cautiously to not 
dilute the basic intent or benefit of ACLs. For example, the 
idea of allowing ACLs to be set at the overfishing level is 
probably not a good idea from a public policy perspective.
    With regard to limited access privilege programs, there are 
also numerous requirements put in place in 2006 and we believe 
that we do not want to lose catch shares or LAPPs as a 
management option in our toolbox and believe that we need to 
maintain maximum flexibility in program design to allow us to 
tailor these programs to the specific characteristics of 
various fisheries.
    With regard to statutory reconciliation, the Magnuson Act 
juxtaposes with several other acts including the Endangered 
Species Act, the National Marine Sanctuary Act, the Regulatory 
Flexibility Act, and the National Environmental Policy Act. 
With regard to NEPA, Mr. Chairman, the councils have a long 
history of advocating for reconciliation of this Act with the 
MSA. The Magnuson Act, the MSA is arguably the most transparent 
participatory regulatory process in existence. And, while that 
is essentially the guiding act for fisheries management, it has 
become NEPA which is the vehicle for development of our fishery 
management plans and regulations.
    We believe that we can be better served by incorporating 
key provisions of NEPA within the Magnuson-Stevens Act. For 
example, a more explicit requirement for environmental impact 
analysis and requirements for consideration of a reasonable 
range of alternatives and, once again, allow the Magnuson Act 
to be the central guiding act for fisheries management in the 
U.S.
    Mr. Chairman, I have some comments with regards to data 
confidentiality, as well as electronic monitoring, but in 
interest of time, and I hope you're able to read those, I want 
to close with some general summary thoughts regarding 
reauthorization and the process. And these, I believe, 
represents some general tenets that the North Pacific Council 
believes should be considered relative to any change in the 
Act. And that would be to avoid across-the-board mandates which 
can negatively affect one region in order to address problems 
in another. In other words, make provisions region-specific 
where necessary or count them as option of tools in our 
management toolbox rather than mandates. Legislation should 
allow for flexibility in achieving conservation objectives but 
be specific enough to avoid lengthy complex implementing 
regulations or guidelines.
    And finally, Mr. Chairman, we believe legislation should, 
where possible, be in the form of intended outcomes rather than 
prescriptive management or scientific parameters.
    And with that, I close and thank you again for the 
opportunity to be here.
    [The prepared statement of Mr. Oliver follows:]

        Prepared Statement of Chris Oliver, Executive Director, 
                North Pacific Fishery Management Council
    Good morning Chairman Begich and members of the Subcommittee, and 
thank you for the opportunity to testify regarding reauthorization of 
the Magnuson-Stevens Fishery Conservation and Management Act (Magnuson-
Stevens Act, or MSA). I am the Executive Director of the North Pacific 
Fishery Management Council, where I have worked for 24 years, and I am 
honored to participate in this hearing and offer our perspectives on 
this important legislation. Beginning last year with the Managing Our 
Nation's Fisheries 3 national conference, and throughout the last few 
months, our Council has been engaged in the national dialogue 
surrounding reauthorization of the Act, and has developed a number of 
overarching perspectives relative to the pending reauthorization. These 
perspectives are based on our experiences stemming from the 2006 
reauthorization, as well as the ongoing national dialogue, including 
our discussions with the other regional fishery management Councils 
through the Council Coordination Committee (CCC).
    The 2006 amendments to the MSA comprised a very ambitious, 
comprehensive, and powerful set of new requirements for fisheries 
management, primarily aimed at rebuilding and conserving fisheries 
through the mandate of Annual Catch Limits (ACLs) and the reliance on 
best scientific information in that pursuit. Many of the requirements 
of the 2006 reauthorization were patterned after practices which have 
been in place for over 30 years in the North Pacific region, and we 
believe that these requirements have generally been a great success, as 
evidenced by significant reductions in the number of overfished stocks 
across the Nation. However, the 2006 amendments were not without pain 
and costs to the fishing industry, as is evidenced by the current suite 
of issues being discussed, and the introduction of various draft Bills 
over the past several months aimed at modifying some of those 
provisions. A primary focus for pending reauthorization appears to be 
flexibility in the ACL and stock rebuilding requirements implemented 
through the 2006 reauthorization.
    The North Pacific Council believes that the current MSA provides a 
very successful framework for sustainable fisheries management, and 
major changes are not necessary at this time. However, we also 
recognize the need for increased flexibility in some circumstances and 
we do not oppose amending the Act to provide for such flexibility, with 
some important cautionary notes. Following are some suggestions 
relative to primary issues being discussed in this reauthorization 
process:
Flexibility in Annual Catch Limits and Stock Rebuilding
    Annual catch limits have been used in the North Pacific for over 30 
years, and we believe that such limits are a cornerstone of sustainable 
fisheries management. We also believe there are situations where some 
flexibility in the establishment of ACLs is warranted, particularly in 
the case of data poor stocks. I can cite the North Pacific example two 
years ago where we were compelled to set an artificially low ACL for 
Pacific octopus based upon very limited historical information, rather 
than a robust stock assessment, and this artificially low ACL resulted 
in closures of fisheries which take octopus incidentally. This example 
underscores the need for robust stock surveys and assessments, which we 
believe should be a priority focus of any MSA reauthorization.
    Consideration of the economic needs of fishing communities is 
critical in the ACL setting process, and while the current MSA allows 
for such consideration, we recognize the desire for a more explicit 
allowance for these considerations. We must be careful however, not to 
jeopardize long term fisheries sustainability, and associated community 
vitality, for the sake of short term job creation. Accounting for 
uncertainty, articulating policies for acceptable risk, and 
establishing the necessary precautionary buffers, is an explicit 
outcome of the ACL process, and we believe that the Councils' 
Scientific and Statistical Committees (SSCs) are the appropriate 
gatekeepers to establish the upper limits of ``safe'' fishing 
mortality. In that regard, from a perspective of national public 
policy, we are concerned with a potential relaxation of the ACL 
requirements which would allow Councils to set ACLs at the overfishing 
level (rather than the Acceptable Biological Catch, or ABC, level). 
Setting ACLs at the overfishing level in essence assumes zero 
uncertainty, and harvesting at the overfishing level will, on average, 
result in actual overfishing about half of the time. While such a 
change in the Act would likely not affect how we do business in the 
North Pacific, where ABC has always represented the upper limit of 
fishing mortality, we do not believe such a relaxation would be 
responsible public policy.
    We would also like to note the potential for unintended 
consequences when making changes to any of the key provisions of the 
MSA. Measures intended to address a problem in one area of the country 
can result in unnecessary, unintended consequences to other regions. An 
example of general provisions resulting in substantial revisions to 
North Pacific fishery management (and nationwide), is in fact the 
implementation of ACLs required under the 2006 MSA reauthorization. 
Recall that the 2006 additions to the MSA which implemented the ACL 
requirements were but a few sentences of statutory text (largely 
patterned after long-standing North Pacific practices), but that the 
implementation of the ACL requirements resulted in 36 pages of 
``guidelines'', or regulatory text, from the National Marine Fisheries 
Service. In the case of the North Pacific, we had to undergo 
significant amendments to our Fishery Management Plans (FMPs) to comply 
with the letter of the ACL regulations, even though we have been 
successfully managing fisheries with strict annual catch limits for 30 
years. The guidelines as written also require us to develop additional 
amendments to our FMPs to more explicitly address uncertainty in stock 
status, even though we have robust stock assessments for most species, 
and uncertainty levels are incorporated in our stock assessments and 
setting of ACLs. Finally, despite the lengthy and detailed guidelines 
which were developed, there is still debate over how to account for 
fish taken in research, stock assessment, and cooperative research 
under exempted fishing permits (EFPs).
    Many of these issues, as well as issues associated with stock 
rebuilding requirements, have the potential to be addressed to some 
extent through the current initiative by NMFS to revise the guidelines 
implementing National Standard 1 (i.e., revisions to the ACL and stock 
rebuilding requirements). While the final rule for these revisions is 
not scheduled to be complete until late in 2014, it is important that 
reauthorization language is reflective and responsive to this important 
effort.
    Regarding potential changes and increased flexibility for stock 
rebuilding plans, our Council supports further flexibility, 
particularly in cases where the 10 year rule does not make sense due to 
the particular aspects of the stock in question. In some cases the 
somewhat arbitrary 10 year requirement can result in overly restrictive 
management measures, with unnecessary, negative economic impacts, with 
little or no conservation gain. Allowing for rebuilding to occur in as 
short a time as ``practicable'', as opposed to as short a time as 
``possible'', may be an appropriate mechanism for additional 
flexibility.
    Associated with the rebuilding issue is the definition of 
``overfished''. In the North Pacific we have no overfished stocks, with 
the exception of Pribilof Island Blue King Crab, a fishery for which 
there has been no allowable fishing for decades, and the species is 
only occasionally taken as bycatch in other fisheries. Our Council has 
been faced with development of a rebuilding plan for this species, and 
the prospect of curtailing certain groundfish fisheries because this is 
the only source of mortality we can affect, even though our analyses 
and stock assessment models indicate that the expected bycatch savings 
will not increase rebuilding success. This example highlights the need 
to differentiate stocks for which an ``overfished'' status has no 
relation to fishing activities. Replacing the term ``overfished'' with 
the term ``depleted'' or another term which denotes that stock status 
is not necessarily related to fishing activities may be an effective 
way to address this problem, noting however that the term 
``overfished'' has definitive metrics associated with it. While more 
appropriate, any new term will need to be explicitly defined in order 
to be a measurable metric, and in order to avoid diluting the 
conservation goals associated with stock rebuilding.
    Overall, largely because we have the benefit of healthy stocks and 
robust stock assessments for most species, we have not experienced the 
types of negative impacts that other regions appear to be having in 
complying with ACLs and rebuilding schedules. In that vein, while we 
understand the need for some flexibility in the application of ACLs and 
rebuilding requirements, we believe it will be imperative to consider 
such changes cautiously, to not dilute the basic intent and benefit of 
ACLs, and to not lose ground in our success at rebuilding overfished 
stocks where rebuilding is feasible and affected by fisheries 
management actions.
Limited Access Privilege Programs (LAPPs)
    The 2006 amendments to the MSA also put in place numerous 
requirements for the development of Limited Access Privilege Programs 
(LAPPs), requirements which apply to many of the ``catch share'' 
programs being considered, or being developed, by Regional Fishery 
Management Councils around the U.S. Catch share type programs, 
including sector allocations, license limitation programs, and 
individual transferrable quotas (ITQs), while not appropriate for all 
fisheries, represent a critically important tool for fisheries 
management and have been used extensively in North Pacific fisheries to 
reduce bycatch and increase target species landings and value. Most of 
the fisheries in the Bering Sea operate under some form of ``catch 
share'' or LAPP management, and all of these programs have been 
developed through an extensive, and inclusive, transparent public 
process. We do not want to lose catch shares as a management option in 
our tool box, and we believe that maximum flexibility in program design 
is essential to tailor these programs to the specific characteristics 
of various fisheries.
    The current MSA contains extensive provisions for the design and 
analysis of LAPP programs, and we do not support additional 
requirements for referendums in the North Pacific, nor do we support 
automatic sunset dates as these can be counter to the basic premise of 
these programs, can be disruptive to both the design and implementation 
of such programs, and may weaken the achievement of long-term 
conservation benefits.
Reconciling Statutes
    The MSA juxtaposes with several other important Acts, including the 
Endangered Species Act (ESA), the National Marine Sanctuaries Act 
(NMSA), the Regulatory Flexibility Act (RFA), and the National 
Environmental Policy Act (NEPA). Additional clarity and regulatory 
streamlining can be accomplished through further clarification of the 
applicability and overlap of these various statutes. In the case of the 
ESA, the eight regional Councils (through the Council Coordinating 
Committee), endorsed the report recently developed by the Marine 
Fisheries Advisory Committee (in consultation with members of the CCC) 
which contained numerous recommendations to NOAA Fisheries regarding 
better coordination of that statute with the MSA, and a more robust 
participatory role for the Councils in the ESA consultation process and 
development of Biological Opinions affecting fisheries management.
    Regarding NEPA, the Councils have a long history of advocating for 
reconciliation of this Act with the MSA. The MSA is arguably the most 
transparent, participatory regulatory process in existence, and while 
the MSA is ostensibly the guiding Act for fisheries management actions 
in the U.S., in fact it is NEPA which has become the vehicle for 
development of fishery management plans and associated regulations. The 
current application of NEPA results in an unnecessarily burdensome, 
overly expensive, and somewhat redundant, regulatory process. The NEPA 
process was never intended, and will never fit well, with the unique 
and dynamic nature of the fisheries management process. While the 
Councils are generally doing a very good job complying with this 
process and the requirements of NEPA, and that process is being 
memorialized within a Policy Directive currently being developed by 
NMFS, there remain opportunities for streamlining and reconciling the 
Acts as was envisioned in the 2006 reauthorization process. We are not 
seeking to ``exempt'' the fisheries management process from the 
underlying conservation intent of NEPA, but we believe that the process 
can be much better served by incorporating a few key provisions of NEPA 
within the MSA (for example, a more explicit requirement for 
environmental impact analysis, and an explicit requirement for the 
consideration of a reasonable range of (reasonable) alternatives). This 
would allow the MSA to once again be the central, guiding Act for 
fisheries management in the U.S., without sacrificing the underlying 
environmental protections intended by NEPA, and without sacrificing the 
opportunity for public input which is already amply provided for in the 
MSA and the Administrative Procedure Act.
    The starkest specific example of the general over-application of 
NEPA probably remains that of the Council's programmatic supplemental 
environmental impact statement (PSEIS), the 7,000 page document 
underpinning our Bering Sea and Aleutian Islands and Gulf of Alaska 
fishery management plans. Based on agency guidance for NEPA compliance, 
we were compelled to analyze and consider a NO FISHING alternative--for 
a fishery which supplies over half the Nation's seafood harvest, which 
for 30 years has been considered a model of sustainable management, and 
where ABCs have totaled over 4 million metric tons for three decades. 
Regardless of the stated purpose of the Council to conserve and manage 
fisheries we were forced to spend considerable Council time and 
resources to analyze an unreasonable, and misleading to the public, no 
fishing alternative.
Transparency and Public Process
    As noted above, the MSA provides for a very transparent and 
participatory regulatory process. With the current state of technology 
this is now true more than ever, as evidenced by the following: all 
North Pacific Council meetings are Webcast in real time; all of its 
meeting materials are posted and publicly available; full, easily 
accessible, searchable audio transcripts are maintained and available 
to the public for all North Pacific Council meetings; summary minutes 
are developed for each Council meeting which include key discussion 
points and all motions adopted by the Council; and, newsletters are 
developed and publicly available immediately following each Council 
meeting which provide detailed summaries of all actions taken by the 
Council. For SSC meetings in the North Pacific, detailed minutes of 
each meeting are developed and available to the public by the end of 
the meeting.
    Proposed requirements for videotaping all Council and SSC meetings, 
and for full written transcripts of all Council and SSC meetings (and 
potentially Advisory Panel meetings as well) are an unnecessary burden 
with little or no marginal benefit in terms of public access, 
transparency, or administrative record. In the case of the North 
Pacific, with five to six meetings per year at seven days each (along 
with SSC and AP meetings, which expands it to 15 overall meeting days) 
such a requirement would cost into the hundreds of thousands of 
dollars, which does not make sense at a time of shrinking Council 
budgets and overall fiscal constraint. The current practice of 
Webcasting and full, searchable audio transcripts provides the public 
with a much more useful avenue of access, and it is likely that stacks 
upon stacks of written transcripts would go unused and provide very 
little additional value to the public. In addition, a requirement for 
videotaping may require the Council to no longer meet in remote fishing 
communities where there may be limited bandwidth available, and thus 
may be counter to the intent of a videotaping requirement.
Data Collection and Confidentiality
    Numerous changes to the data collection and confidentiality 
provisions to MSA have recently been part of the national 
reauthorization dialogue. While I will not attempt to address these 
proposals specifically, I can comment generally that the current data 
confidentiality provisions are generally working quite well. The North 
Pacific Council has numerous data collection initiatives (in addition 
to observer information or other routinely collected fisheries 
information) associated primarily with the implementation of catch 
share programs in our fisheries. Information from these data collection 
programs is essential to program reviews and to our ongoing management, 
but it also contains sensitive cost and other operational information 
from the fleet, much of which must be aggregated (up to three entities) 
before public release. NMFS is also currently in the process of final 
rulemaking (pending publication) related to currently existing 
confidentiality provisions. In a recent letter to the NMFS Assistant 
Administrator, our Council stressed the importance of maintaining these 
provisions in order to prevent the erosion of the cooperation and 
goodwill of the fishing industry and to ensure we can continue to use 
the North Pacific data collection system developed and maintained with 
the State of Alaska, which requires similar aggregation rules to 
maintain confidentiality. In summary, we stressed the need to maintain 
appropriate confidentiality measures, except where Congress has 
expressly intended otherwise.
    Conversely, there are provisions specific to the North Pacific in 
the current MSA which do allow otherwise confidential observer 
information to be made public. For example, section 402(b)(2)(A) 
specifically allows the Council to disclose weekly summary bycatch 
information identified by vessel, or haul-specific information without 
vessel identification. Such information allows us to identify ``poor 
performers'' related to salmon bycatch in Bering Sea trawl fisheries, 
for example, and to remove this allowance for disclosure would be 
counter to the Council's policy intent and goals with regard to 
transparency, accountability, and minimizing bycatch to the extent 
practicable.
Electronic Monitoring
    The use of Electronic Monitoring (EM), particularly the use of 
video cameras in lieu of human observers, continues to be a high 
priority for the North Pacific Council and the North Pacific fishing 
industry, and an EM strategic plan was developed in the past year to 
guide those efforts. This is especially true for the small boat, fixed 
gear fleet, many of whom are now subject to partial observer coverage 
requirements under the Council's restructured groundfish and halibut 
observer program. The North Pacific Council is working diligently with 
the Alaska Region of NMFS, the Alaska Fisheries Science Center, and the 
small boat fishing sector to expedite the implementation of EM in our 
fisheries. In addition to a number of EM pilot projects and 
collaborative research ongoing in 2014 (some of which are funded 
through grants from the National Fish and Wildlife Foundation), the 
Council is forming an EM Workgroup to provide a forum for the 
development of performance standards, and for the design and testing of 
alternative EM systems for various applications. While EM will never be 
a full substitute for human observers, there are numerous potential 
applications, including discard monitoring as a primary first goal, and 
ultimately as an integral part of the overall catch accounting system.
    EM development is also a high priority at the National level, with 
NOAA Fisheries in the midst of developing both a National EM policy as 
well as regional implementation plans. With the collective, ongoing 
efforts relative to EM, it is unclear that additional statutory 
provisions are necessary at this time to move forward. However, the 
North Pacific Council does not oppose provisions that would enhance EM 
development and implementation, if such provisions are posed as 
optional tools, with realistic timelines, as opposed to specific 
mandates with unrealistic timelines. Finally, our Council would be 
opposed to any statutory requirements which prohibit the use of EM for 
law enforcement or compliance purposes (which could, for example, 
preclude compliance monitoring for retention/discard requirements, one 
of the current uses of EM in the North Pacific on large trawl vessels 
and likely a more cost-effective means of monitoring for other 
fisheries in the future, particularly the small boat, fixed gear 
fleet).
North Pacific Management Clarification
    Section 306(a)(3)(C) contains provisions related to State 
jurisdiction to manage fishing activity in the absence of a Federal 
fishery management plan. Removal of the August 1, 1996 date in this 
paragraph would close a potential loophole which could theoretically 
allow unrestricted fishing for salmon in EEZ areas off Alaska by 
vessels not registered with the State of Alaska, due to the removal of 
these areas from the Council's overarching salmon fishery management 
plan. The Council supports this change, thereby allowing regulation of 
fishing in these areas by the State of Alaska, as intended.
General Comments
    I would like to close by providing the Committee with some summary 
thoughts regarding the reauthorization process. These represent some 
general tenets which we believe should be considered relative to any 
change in the MSA:

  <bullet> Avoid across the board mandates which could negatively 
        affect one region in order to address a problem in another 
        region. Make provisions region-specific where necessary, or 
        couch them as optional tools in the management toolbox rather 
        than mandates.

  <bullet> Legislation should allow for flexibility in achieving 
        conservation objectives, but be specific enough to avoid 
        lengthy, complex implementing regulations or ``guidelines''.

  <bullet> Legislation should be in the form of intended outcomes, 
        rather than prescriptive management or scientific parameters.

  <bullet> Legislation should avoid unrealistic/expensive analytical 
        mandates relative to implementing fishery closures or other 
        management actions.

  <bullet> Legislation should avoid constraints that limit the 
        flexibility of Councils and NMFS to respond to changing 
        climates and shifting ecosystems.

  <bullet> Avoid unfunded mandates, and/or ensure that Councils and 
        NMFS have the resources to respond to provisions of 
        legislation.

  <bullet> Preservation and enhancement of stock assessments and 
        surveys should be among the highest priorities when considering 
        any changes to the Act.

    Once again, thank you for the opportunity to provide these comments 
to you on behalf of the North Pacific Fishery Management Council, and I 
look forward to our continued dialogue on these critically important 
issues.

    Senator Begich. Thank you very much.
    Mr. Andrew, thank you.

               STATEMENT OF TIM ANDREW, DIRECTOR,

                       NATURAL RESOURCES,

           ASSOCIATION OF VILLAGE COUNCIL PRESIDENTS

    Mr. Andrew. Thank you, Mr. Chairman.
    Senator Begich. Is your microphone on there?
    There we go.
    Mr. Andrew. Better?
    Senator Begich. Yes.
    Mr. Andrew. Thank you, Mr. Chairman.
    Chairman Begich, Ranking Member Rubio, and members of the 
Subcommittee, my name is Timothy Andrew. I currently serve as 
the Director of Natural Resources for the Association of 
Village Council Presidents based in Bethel. And I've been a 
subsistent and commercial fisherman on the Yukon River since I 
was 11 years old.
    But today, I am here to provide testimony on the impacts of 
the prosecution of the Bering Sea Tribal Fishery right in our 
backdoor. And I'm also sitting here on behalf of, not only our 
56 tribes but also 42 tribes of the Tanana Chiefs region and a 
total of almost a hundred tribes that are fishery-dependent on 
Chinook salmon resources. And I characterize this area as an 
area that we have our backs against a wall, Mr. Chairman and 
members of the Committee. And the reason I say that is because 
we have been dependent on this fishery for commercial purposes 
and also for our subsistence fishery. And our Chinook salmon 
resources have dwindled down to almost nothing on the Yukon 
River. And it's starting to happen on the Kuskokwin River and 
it's starting to happen in other various parts of Alaska, too. 
It's very alarming because it is the root of our culture, root 
of our tradition, and very much a root of our economies in 
Western Alaska.
    And much of our subsistence fishermen have cut their 
harvests down to zero. And we also endure 10-day closures right 
in the beginning of the season. Our subsistence fishery, our 
commercial fisheries cannot start until much of the king salmon 
have passed on in order to try and meet escapement past Canada. 
There is no retention. There is absolutely no commercial sale 
of Chinook salmon; something that's been extremely important 
for the people in my area for many, many years.
    But, you know, despite these measures, we have not been 
able to make our escapement goal into Canada and it's very, 
very alarming to us. So that's why we come to you, come before 
you today, Mr. Chairman, also members of the Subcommittee, so 
that we can possibly work toward some critical and essential 
changes to the Magnuson-Stevens Act. To try and make it 
possible for us to, for people in our villages, to effectively 
rebuild some of the salmon fisheries that we've seen dwindle 
down to nothing in the more recent years.
    So, I'm going to be talking about three different areas 
that we would like to see changes in the Magnuson-Stevens Act. 
Number one is the tribal seat on the North Pacific Management 
Council. Number two, we would like to include the subsistence 
language all across the Magnuson-Stevens Act as far as the 
North Pacific Fishery Management Council is concerned. And 
number three, we would like to see further bycatch reductions.
    But as far as the tribal seats issue: If you look at the 
composition of the North Pacific Fishery Management Council, 
the Advisory Panel, and the Statistical Committee, there is no 
Alaskan native or tribal interest in those panels. There's 
absolutely none. There's nobody there that is able to 
understand our way of life to really relate.
    We would also like to see the inclusion of subsistence all 
throughout the MSA to further provide protections for 
subsistence uses for both the salmon and also for the fishery 
resources of the Bering Sea. And we feel that this is extremely 
important. The State of Alaska definitely sees it as important; 
also the Federal system through rural priority.
    We would like to see removal of the $25,000 bycatch fine 
limit that the MSA has authorized. It is meaningless, as far as 
we're concerned, to the fishery fleet. It's an extremely small 
amount in relation to the large amount that is being made in 
the Bering Sea fishery.
    We would also like to see the language where it reflects 
bycatch, minimize bycatch, where practical. That language is 
extremely weak and it needs to be further strengthened to make 
the Magnuson-Stevens Act more effective in the enforcement of 
the bycatch provisions.
    And that concludes my testimony, Mr. Chair. And I'd be 
happy to answer any questions.
    [The prepared statement of Mr. Andrew follows:]

    Prepared Statement of Tim Andrew, Director, Natural Resources, 
               Association of Village Council Presidents
    Good morning Chairman Begich, Ranking Member Rubio and Members of 
the Subcommittee. My name is Tim Andrew. I serve as Director of Natural 
Resources for the Association of Village Council Presidents, a regional 
tribal non-profit which provides critical services to the 56 federally 
recognized tribes of the Yukon-Kuskokwim Delta.
    Marine fishery resources and habitat represent an essential part of 
the culture, diet and economy for Alaska's Tribes. Marine fish, 
shellfish and plants are a critical resource for subsistence harvests 
and marine habitats support a broad variety of species which are 
essential to subsistence. In our region, salmon in particular are a 
central component of the subsistence way of life and Alaska Native 
culture, and these fish spend a majority of their lifecycle in the 
marine environment. In recent years Chinook salmon have declined 
dramatically on both the Yukon and Kuskokwim Rivers, with year after 
year of Federal disaster declarations and dramatic impacts to our food 
supply, our economies and our culture.
    While in Alaska salmon fisheries are not managed directly by the 
North Pacific Fishery Management Council, there are many impacts from 
the fisheries managed by the Council on salmon as they're caught as 
bycatch by the groundfish trawl fisheries, and via overall impacts to 
the ecosystem. The same is true for halibut and marine mammals on which 
our people depend for subsistence--while not managed directly by the 
Council there are numerous impacts from Council-managed fisheries.
    Sound, science-based management of our Nation's fisheries is 
critical. We believe the current model under Magnuson sets a minimum 
for sustainable management. By no means should the current science-
based approach for setting catch limits and rebuilding plans be 
weakened. While we do not support rollbacks to the Act, we do see 
changes which can be made to move forward and improve our management 
system. Specifically, this reauthorization should build a fisheries 
management structure that increases participation and recognition of 
tribes and subsistence fisheries, moves towards management at the 
ecosystem level and further reduces bycatch.
Participation and Recognition of Tribes in the MSA
    Tribes in Alaska have a profound dependence on marine resources. 
Alaska's Native villages are primarily in rural parts of the state, and 
many are inaccessible by roads. With access only by plane and boat, 
food is prohibitively expensive in Alaska Native villages. Subsistence 
harvests are thus a critical source of food. Subsistence harvest of 
fish and marine resources is also a central component of Alaska Native 
culture, with significant cultural and spiritual importance. Small 
scale commercial fisheries also provide a critical--and sometimes 
only--source of cash income in many of these isolated villages and 
income from commercial fishing is often what enables people to purchase 
gear, gas and necessary supplies to go subsistence fishing. Tribes in 
the Pacific Northwest have a designated seat on the Pacific Council. 
Tribes in Alaska do not have a designated seat on the Council and, 
rather, must rely on the Governor of Alaska to appoint representatives 
to the NPFMC that will represent tribal and subsistence interests. In 
addition, while the current law requires that commercial and 
recreational fishing interests must be represented on the Councils, 
there is no such requirement for tribal subsistence users. We recommend 
the MSA be amended to provide an additional seat on the NPFMC to be 
appointed directly by the tribes, paralleling the language currently 
included for the Pacific Council.
    In addition, we recommend that the MSA be amended to include 
subsistence throughout. Currently the Act includes the word 
``subsistence'' only once, in reference to the Western Pacific. 
Everywhere in the Act in which commercial and recreational fishing 
interests are specifically mentioned, subsistence should be included 
too.
    Subsistence fisheries are also excluded from the disaster 
declaration language in the current Act which applies specifically to 
``commercial fishery failures.'' We recommend that the Act also be 
amended to provide specifically for disaster relief for subsistence 
fishery failures.
Ecosystem-Based Management and Bycatch Reduction
    The current fisheries management system is a single-species 
management system. Looking at our fisheries management in an ecosystem 
approach is critical, particularly as we face the unknown and impending 
impacts of climate change. To face the challenges we face today and the 
upcoming changes we anticipate, we need to adopt an approach that looks 
at fisheries management in a broader, ecosystem context.
    In terms of ecosystem effects, this round of reauthorization should 
continue to work towards reduction and eventual elimination of bycatch. 
For AVCP, bycatch of salmon and halibut are of particular concern. 
Management of this bycatch, designated a prohibited species which 
cannot be sold, is compounded by the multiple management agencies which 
govern these species. Directed salmon fisheries in our region are 
managed by the State of Alaska and U.S. Fish and Wildlife Service. 
Halibut fisheries are managed by the International Pacific Halibut 
Commission. Bycatch of these species in the groundfish fisheries, 
however, is managed by the NPFMC and NMFS.
    Chinook salmon and halibut stocks, and the directed fishery catch 
limits for these fish, have been declining dramatically in recent 
years. At this point in time there is no directed commercial fishery 
for Chinook salmon on the Yukon and Kuskokwim Rivers, and subsistence 
is severely limited. Halibut catch limits in the Bering Sea have also 
been reduced drastically in recent years. While stocks and catch limits 
decline, there is no set link to reduce bycatch in the groundfish 
fisheries.
    To their credit, the NPFMC is beginning the process of looking at 
bycatch in these fisheries, but this process is lengthy and to date 
changes in the cap limits are not even under consideration. Under the 
MSA, bycatch reduction is required only ``to the extent practicable'' 
under National Standard 9. In our experience, this serves as a 
limitation on the amount of bycatch reduction required, and makes this 
National Standard a second tier consideration to the other standards. 
We recommend that this reauthorization should strengthen the 
requirement to reduce bycatch in all fisheries.
    In terms of reducing bycatch, we specifically recommend that the 
provision that limits bycatch fines in the North Pacific to $25,000/
vessel/year be removed (16 USC Sec. 1862(g)). Bycatch fines should be a 
tool in the Council's toolbox for mandating bycatch reduction. The 
current maximum of $25,000 is extremely low in comparison to the 
average revenue of a vessel in the Bering Sea pollock fishery, and a 
fine limited to this amount is unlikely to provide a real incentive for 
bycatch reduction. We therefore urge that this limitation be removed.
    Public and Council access to data is also a critical component of 
bycatch management--and fisheries management in general. Recent 
proposals in the House MSA discussion draft would effectively gut 
public access to data. Under the current law, access to data is already 
limited to protect trade secrets. Additional limitations would further 
erode the ability of the public and the Councils to monitor bycatch and 
fisheries performance in a public resource. In the North Pacific the 
Council is moving increasingly towards industry-driven incentive 
programs. Access to data both provides an incentive for industry 
participants to keep their fishing ``clean'' and allows the public and 
Council the ability to assess the efficacy of the industry programs. We 
strongly oppose any proposal that would make it more difficult for the 
public to access fisheries data. We specifically do not support the 
removal of section 402(b)(2)(A) that provides for the disclosure of 
vessel specific bycatch information in the North Pacific. As detailed 
above availability of this data is a foundational element of our 
bycatch management in the North Pacific and access for the Council and 
public must be maintained.
    I am attaching a copy of a briefing paper from the Tanana Chiefs 
Conference, representing 42 federally recognized tribes, that is joined 
by AVCP, which provides greater detail about the MSA amendments we 
believe are necessary.
    In closing, we see the basic tenets of the current Magnuson-Stevens 
Act, including science-based catch limits, eliminating overfishing, and 
reducing bycatch, as a good start. This reauthorization offers an 
opportunity to take our fisheries management to the next level. 
Including tribal and subsistence interests in management and in the Act 
is a critical component to this. Shifting management to an ecosystem 
approach and focusing on reducing bycatch will support our long-term 
goal of sustainable fisheries for the benefit of our fisheries and 
fishing communities.
                               Attachment
      Magnuson-Stevens Fisheries Conservation Act Reauthorization
    Originally enacted in 1976, and reauthorized in 1996 and 2006, the 
Magnuson-Stevens Fisheries Conservation Act (MSFCA) governs fisheries 
management in Federal waters of the United States. The statute 
authorizes the regional councils to manage fisheries resources which 
Tribal citizens and communities are hugely dependent.
    The eight (8) regional councils manage a geographic region larger 
than the continental United States and are responsible for the health 
of a $25 billion commercial fishing industry while at the same time 
entrusted with conservation of hundreds of species of marine fish. The 
pressure to avoid tough, often politically charged allocation choices 
encourages councils to shortchange conservation. Conservation is 
further relegated because of the laws failure to prevent frequent 
conflict of interest issues where individuals serving on the regional 
councils often financially benefit from fish allocations. This paired 
with a flawed single-species based management system which does not 
consider the food web dynamics, fishing gear impacts, and non-target 
species taken as bycatch has resulted in the overfishing of a third of 
the Nation's fish stocks.
    In Alaska, the failure to separate conservation and allocation and 
the use of single-species management has resulted in significant 
negative impacts to Alaska Natives. Alaska Native hunting and fishing 
practices are profoundly connected to long standing cultural and 
spiritual beliefs and rural economies. The current management of the 
North Pacific Fishery Management Council fails to consider the needs of 
the Alaska Native people and the structure of the Council prevents 
tribes from participating in decisionmaking. The council continues to 
allow the one billion dollar a year Pollock fishery to waste over 
60,000 Chinook salmon as bycatch yet salmon runs in western Alaska have 
experienced failures since 2000. The salmon, had they returned to their 
natal rivers, could have fulfilled vital needs for the Alaska Native 
people and other rural residents throughout Alaska.
    Without appropriate reform of the Magnuson-Stevens Fisheries 
Conservation Act, Alaska Native well-being will continue to be at risk.

  <bullet> The subsistence fishermen who bear the burden of the Chinook 
        Salmon decline are quite evidently not the cause, making 
        allocation of the Chinook Salmon catch a grave injustice and 
        moral dilemma within our state and nation.

    The 37 federally recognized Tribes of Interior Alaska request the 
following changes:

   (1)  Separate conservation and allocation decisions, leaving 
        allocation decisions to the councils, but giving responsibility 
        of conservation decisions to a separate governmental entity 
        subject to the standard rules of good governance and composed 
        of an interagency scientific panel.

   (2)  Utilize ecosystem based management rather than species specific 
        management.

   (3)  Tribes and/or subsistence users be represented on the North 
        Pacific Fishery Management Council.

   (4)  The purpose of the Act include promotion of Alaska Native 
        subsistence. The policy of the Act include a mandate to be 
        responsive to the needs of federally recognized tribes.

   (5)  The national standards for fishery conservation and management 
        take into account the importance of fishery resources of 
        subsistence based communities.

   (6)  Conservation and management measures shall require bycatch 
        reduction under specific circumstances.

   (7)  The Secretary of Commerce shall consider experience in tribal 
        subsistence harvests as qualification to serve on a management 
        council.

   (8)  Remove the limit of $25,000 per year on bycatch fines in the 
        North Pacific and direct funds to the Arctic-Yukon-Kuskokwim 
        Sustainable Salmon Initiative and the Yukon and Kuskokwim 
        Inter-tribal Fish Commissions.

   (9)  Include relief for subsistence disasters and allow tribes to 
        request relief.

  (10)  Require management councils to consult and consider input from 
        tribal governments.

  (11)  Require management councils be subject to conflict of interests 
        standards.
      Proposed Language to Promote Alaska Native Tribal Interests
16 USC Sec. 1801(b)(3) Purposes

    Insert language:

        To promote domestic commercial, Alaska Native subsistence, and 
        recreational fishing under sound conservation and management 
        principles, including the promotion of catch and release 
        programs in recreational fishing.

16 USC Sec. 1801(c)(3) Policy

    Insert language:

        To assure that the national fishery conservation and management 
        program utilizes, and is based upon, the best scientific 
        information available; involves, and is responsive to the needs 
        of, interested and affected States, tribes, and respective 
        citizens;

16 USC Sec. 1851(3) National Standards for Fishery Conservation and 
        Management

    Current language:

        To the extent practicable, an individual stock of fish shall be 
        managed as a unit throughout its range, and interrelated stocks 
        of fish shall be managed as a unit or in close coordination.

    Consideration:

        Single-species stock assessment models oversimplify population 
        dynamics of wild, free-ranging fish and they tell us nothing 
        about the larger uncertainties associated with: climate 
        variability, food web dynamics in the ecosystem, the impacts of 
        fishing gear on the habitats of fish and other wildlife, the 
        spatial and temporal effects of concentrated fishing in 
        localized areas and the effects on hundreds of poorly 
        understood non-target species taken as bycatch.\1\
---------------------------------------------------------------------------
    \1\ Stump, K., J. Hocevar, B. Baumann, and S. Marz. 2006. 
Rethinking sustainability: a new paradigm for fisheries management. 
Alaska Oceans Program, Center for Biological Diversity, Greenpeace, 
Trustees for Alaska. Alaska Oceans Program, Anchorage. Available: 
http://www.greenpeace.org/usa/assets/binaries/rethinking-sustainability 
(June 2008).

---------------------------------------------------------------------------
    Proposed language:

        To the extent practicable, fishery ecosystem plans should be 
        adopted for each major ecosystem, incorporating explicit 
        principles, policies, guidelines and regulations for ecosystem 
        based management into fishery management plans.

16 USC Sec. 1851(8) National Standards for Fishery Conservation and 
        Management
    Insert language:

        Take into account the importance of fishery resources to 
        fishing communities and subsistence communities by utilizing 
        economic and social data that meet the requirements of 
        paragraph 2.

16 USC Sec. 1851(9) National Standards for Fishery Conservation and 
        Management

    Delete language:

        ``to the extent practicable''

16 USC Sec. 1852(a)(G) Regional Fishery Management Council

    Proposed language:

    The North Pacific Fishery Management Council shall consist of the 
States of Alaska, Washington, and Oregon and shall have authority over 
the fisheries in the Arctic Ocean, Bering Sea, and Pacific Ocean 
seaward of Alaska. The North Pacific Council shall have 11 12 voting 
members, including 7 appointed by the Secretary in accordance with 
subsection (b)(2) (5 of whom shall be appointed from the State of 
Alaska and 2 of whom shall be appointed from the State of Washington 
and including one nominated by an Alaska Native tribe in accordance 
with subsection (b)(7) of this section).
16 USC Sec. 1852(b) Voting Members of the Management Councils

    Insert language:

        (2)(A) The members of each Council required to be appointed by 
        the Secretary must be individuals who, by reason of their 
        occupational or other experience, scientific expertise, or 
        training, are knowledgeable regarding the conservation and 
        management, or the commercial or recreational or tribal harvest 
        for subsistence uses, of the fishery resources of the 
        geographical area concerned. Within nine months after the date 
        of enactment of the Fishery Conservation Amendments of 1990, 
        the Secretary shall, by regulation, prescribe criteria for 
        determining whether an individual satisfies the requirements of 
        this subparagraph.

        (B) The Secretary, in making appointments under this section, 
        shall, to the extent practicable, ensure a fair and balanced 
        apportionment, on a rotating or other basis, of the active 
        participants (or their representatives) in the commercial and, 
        recreational and tribal subsistence fisheries under the 
        jurisdiction of the Council . . .

        (C) The Secretary shall appoint the members of each Council 
        from a list of individuals submitted by the Governor of each 
        applicable constituent State. A Governor may not submit the 
        names of individuals to the Secretary for appointment unless 
        the Governor has determined that each such individual is 
        qualified under the requirements of subparagraph (A) and unless 
        the Governor has, to the extent practicable, first consulted 
        with representatives of the commercial and recreational and 
        tribal subsistence fishing interests of the State regarding 
        those individuals. Each such list shall include the names and 
        pertinent biological data of not less than three individuals 
        for each applicable vacancy and shall be accompanied by a 
        statement by the Governor explaining how each such individual 
        meets the requirements of subparagraph (A). The Secretary shall 
        review each list submitted by a Governor to ascertain if the 
        individuals on the list are qualified for the vacancy on the 
        basis of such requirements. If the Secretary determines that 
        any individual is not qualified, the Secretary shall notify the 
        appropriate Governor of that determination. The Governor shall 
        then submit a revised list or resubmit the original list with 
        an additional explanation of the qualifications of the 
        individual in question. An individual is not eligible for 
        appointment by the Secretary until that individual complies 
        with the applicable financial disclosure requirements under 
        subsection (k).

        7(A) The Secretary shall appoint to the North Pacific Council 
        one representative of Alaska Native tribes from a list 
        submitted by the tribal governments, including inter-tribal 
        fish commissions and regional tribal organizations with 
        delegated authority from tribal governments to submit 
        nominates. The Secretary, in consultation with the Secretary of 
        Interior and tribal governments, shall establish by regulation 
        the procedure for submitting a list under this paragraph.

        (i) the qualifications of individuals on the list referred to 
        in subparagraph (A),

        (ii) the degree to which the tribes in a region are dependent 
        on anadromous fish and marine resource in the area managed by 
        the Council and the impact of Council actions on these 
        resources, and

        (iii) the extent of support expressed for nominee by tribes in 
        Alaska and the number of tribes joining in the nomination

        (C) A vacancy occurring prior to the expiration of any term 
        shall be filled in the same manner as set out in subparagraphs 
        (A) and (B), except that the Secretary may use the list from 
        which the vacating representative was chosen.

        (D) The tribal representative appointed under subparagraph (A) 
        may designate as an alternate, during the period of the 
        representative's term, an individual knowledgeable concerning 
        tribal rights and fishing practices, tribal law, and the 
        fishery resources of the geographical area concerned.

16 USC Sec. 1862(g) Bycatch Reduction Incentives

    Proposed language:

        (1) Notwithstanding section 304(d), the North Pacific Council 
        may submit, and the Secretary may approve, consistent with the 
        provisions of this Act, a system of fines in a fishery to 
        provide incentives to reduce bycatch and bycatch rates; except 
        that such fines shall not exceed $25,000 per vessel per season. 
        Any fines collected shall be deposited in the North Pacific 
        Fishery Observer Fund, and may will be made available by the 
        Secretary to offset costs related to the reduction of bycatch 
        in the fishery from which such fines were derived, including 
        conservation and management measures and research, and to the 
        State of Alaska to offset costs incurred by the State in the 
        fishery from which such penalties were derived or in fisheries 
        in which the State is directly involved in management or 
        enforcement and which are directly affected by the fishery from 
        which such penalties were derived and to the Arctic-Yukon-
        Kuskokwim Sustainable Salmon Initiative and the Yukon and 
        Kuskokwim Inter-tribal Fish Commissions and other inter-tribal 
        groups dedicated to sustainable fisheries.

16 USC Sec. 1861(a) Fisheries Disaster Relief

    Proposed language:

        (1) At the discretion of the Secretary or at the request of the 
        Governor of an affected State or the tribal council of an 
        affected Tribe or a fishing community, the Secretary shall 
        determine whether there is a commercial or subsistence fishery 
        failure due to a fishery resource disaster as a result of----

                (A) natural causes;

                (B) man-made causes beyond the control of fishery 
                managers to mitigate through conservation and 
                management measures, including regulatory restrictions 
                (including those imposed as a result of judicial 
                action) imposed to protect human health or the marine 
                environment; or

                (C) undetermined causes.

        (2) Upon the determination under paragraph (1) that there is a 
        commercial or subsistence fishery failure, the Secretary is 
        authorized to make sums available to be used by the affected 
        State, Tribe, fishing community, or by the Secretary in 
        cooperation with the affected State or fishing community for 
        assessing the economic and social effects of the commercial or 
        subsistence fishery failure, or any activity that the Secretary 
        determines is appropriate to restore the fishery or prevent a 
        similar failure in the future and to assist a fishing community 
        affected by such failure. Before making funds available for an 
        activity authorized under this section, the Secretary shall 
        make a determination that such activity will not expand the 
        size or scope of the commercial or subsistence fishery failure 
        in that fishery or into other fisheries or other geographic 
        regions.

16 USC Sec. 1864 Regional Coastal Disaster Assistance, Transition & 
        Recovery Program

        (a) IN GENERAL.--When there is a catastrophic regional fishery 
        disaster the Secretary may, upon the request of, and in 
        consultation with, the Governors of affected States or Tribes, 
        establish a regional economic transition program to provide 
        immediate disaster relief assistance to the subsistence 
        fishermen, fishermen, charter fishing operators, United States 
        fish processors, and owners of related fishery infrastructure 
        affected by the disaster . . .

        (d) CATASTROPHIC REGIONAL FISHERY DISASTER DEFINED.--In this 
        section the term `catastrophic regional fishery disaster' means 
        a natural disaster, including a hurricane or tsunami, or a 
        regulatory closure (including regulatory closures resulting 
        from judicial action) to protect human health or the marine 
        environment, that----

                (1) results in economic losses to coastal or fishing 
                communities;

                (2) affects more than 1 State or a major fishery 
                managed by a Council or interstate fishery commission; 
                and

                (3) is determined by the Secretary to be a commercial 
                or subsistence fishery failure under section 312(a) of 
                this Act or a fishery resource disaster or section 
                308(d) of the Interjurisdictional Fisheries Act of 1986 
                (16 U.S.C. 4107(d)). 16 U.S.C. 1864 note 143

    Senator Begich. Well, thank you all very much. Thank you 
for your testimony.
    I'll start off, with just a few minutes, and then I'll 
shift right over to Senator Cantwell and she'll have some 
questions. Then we'll probably never get to all our questions, 
but we will also submit questions for the record that we'll 
want you to answer.
    If I can just first start with Dr.--if I can ask you--
Balsiger a question regarding, first this very Alaskan issue, 
Steller sea lion issue. And I know we thought there was going 
to be a publication in the EIS, but now it has been asked for a 
delay in the final publication.
    Can you help me understand the timetable? What's going to 
happen here? You might not be able to tell me what's going to 
happen with EIS but, I mean, when will we see this in final?
    Dr. Balsiger. Thank you, Mr. Chairman.
    So we have, working through the court system, arranged for 
an extension for the date by which the EIS is due. Originally, 
it was on March 2. In order to work more hand-in-hand with the 
council, as we finish that up, we arranged to have that 
deadline set for August 15. However, we don't think we need all 
of that time. I actually spent time with our NOAA people 
downtown yesterday working on this timeline. We're putting 
together a new timeline which, as soon as they have that, I'm 
happy to share that with you but it will be before August 15. 
If there is no jeopardy or adverse modification found in our 
simultaneously developing biological opinion, we will be in 
shape to have new rules in place by January 1, 2015 and----
    Senator Begich. Assuming that timelines are met. So on the 
issue then, I appreciate that, if you could get me then, as 
soon as you think you have the more refined timeline, if you 
could submit it to the Committee I'd greatly appreciate that.
    Dr. Balsiger. We'll do that.
    Senator Begich. I appreciate it.
    Let me ask you another, and this is more on a broader 
issue, kind of cooperative management. I know, for example, the 
Pollock, the Bering Sea Pollock fishermen, constantly and 
voluntarily kind of share data back and forth so they make sure 
they know where the hotspots are but also the bycatch issues. 
Trying to eliminate or reduce bycatch issues.
    One, do you think these cooperative strategies are 
positive? I think that should be an easy answer but, and at 
least to my second question of how is the agency going to 
embrace these more aggressively in not only Alaska but the 
Northwest region, these cooperative opportunities for 
management? So we kind of go to Mr. Andrew's question, which 
was a concern, which is on bycatch is--this is one piece of the 
puzzle.
    Give me your thoughts on that. First, do you think the 
cooperative management--I give a lot of credit to the Pollock 
fishermen that they're doing this on a voluntary basis, but is 
there something we can do more aggressively from an agency 
perspective?
    Dr. Balsiger. Yes.
    These are great programs and we have a quite a long history 
of working cooperatively with the industry. And, as you point 
out, much of this industry cooperation has been at their own 
expense; their own dollars. We do have some funds for 
cooperative research. We've had good experience of bycatch with 
lots of kind of experience in developing different trawls.
    Right now, our main emphasis, as you probably know, is on 
furthering electronic monitoring which is something that we're 
looking forward to.
    Senator Begich. You are very good by getting to that answer 
before the question was asked.
    [Laughter.]
    Senator Begich. So you were very good. So answer that; go.
    [Laughter.]
    Dr. Balsiger. So we've actually struggled a little with 
electronic monitoring----
    Senator Begich. Yes.
    Dr. Balsiger.--and coming together with common objectives 
by the fleet, and by the agency, and by the council. But last 
week, maybe it was 2 weeks ago, February 17 and 18, we had an 
industry work group in Juneau, where I believe that we have 
identified cooperative research to be done in 2014, which we 
will have Federal funds to support and an approach to setting 
up the most possible useful cooperative research in 2015 with 
an eye to furthering electronic monitoring where we can as soon 
as we can. We're looking forward to that.
    Senator Begich. This is great.
    I will put an underline under that. And as you know, I've 
been very active with robust discussions with NOAA and other 
agencies to get on this issue of electronic monitoring. We 
think it's an opportunity. It's sitting in front of us. Canada 
uses it; other folks have been testing it. So I'm glad to hear 
this. This will be something we'll want to follow up with. 
Also, within the Magnuson-Stevens Act, we'll probably be 
addressing this issue to some extent. So I really appreciate 
hearing about that.
    Let me go quickly to the next two real quick.
    Mr. Oliver, the Council has had about a 14, 15 percent 
reduction over time over your budget which, of course as 
complicated as fishery issues are, give me a sense of how that 
has impacted you in the sense of being able to do your work 
and, now, some of the expanded roles and responsibilities 
because it leads to my thought of, as we move forward on MSA 
reauthorization, we have to also be aware that there is funding 
needs that go with the Council on other efforts to make sure 
what we ask you to do by law there's funding to go along with 
it.
    Tell me what the impacts have been for you so I understand 
that.
    Mr. Oliver. Thank you, Mr. Chairman.
    I recognize that funding and budgetary considerations are 
dealt with independently outside of Magnuson, but I appreciate 
your comments that things that you do within the Magnuson Act 
certainly affect our resource needs.
    Senator Begich. And just so you know, because I'm taking 
advantage of not only being Chair but on Appropriations 
Committee in this moment here. So----
    [Laughter.]
    Mr. Oliver. Yes, sir. I appreciate it.
    And the councils did, collectively, the eight regional 
councils took, I believe, an 11 percent reduction in our budget 
last year relative to 2012 levels which have been static for a 
number of years. And it looks like an additional 4 percent 
reduction that we're going to take this year which is a 
disproportionately large reduction relative to reductions in 
the overall NOAA fisheries, National Marine Fisheries budget, 
for example. So the councils aren't really comfortable with 
that.
    As we look to the future and, even with existing management 
requirements and management initiatives at the Council level, 
those type of reductions are quite significant. And while we're 
able to withstand them in the current fiscal year, having that 
baseline reestablished at that much of a significantly lower 
level really gives us some discomfort as we go into the future 
with potentially new mandates, as well as existing mandates.
    We, I know in the case of the North Pacific, we have 
positions that have remained unfilled last year and this year 
that we desperately need; the analytical and staff resources to 
keep up with the initiatives of the Council and any future 
requirements. So that overall budget situation for the councils 
is a bit troubling for us right now.
    Senator Begich. I appreciate it.
    I have further, but I'm going to hold on this one. I want 
to ask Mr. Andrew a real quick question. But one issue I want 
to come back to is the flexibility, because we've heard it in 
several of our hearings, this issue of flexibility, and I've 
noted your comments of how to narrow focus it. But let me just 
hold, if I can, for a second.
    Mr. Andrew, real quick on--you had mentioned the tribal 
representative or subsistence representative. And let me, 
first, kind of a two-part here.
    One, do you see tribal and subsistence different in the 
representation? And two, do you see this, in the mind of some 
of the discussions you've all had, as a designated seat or 
recognizing that when there are nominations, this is a criteria 
that should be considered?
    Those are kind of the two questions, if you wouldn't mind.
    Mr. Andrew. Thank you, Mr. Chairman.
    We are looking for a tribal seat and very much a tribal 
seat that understands our subsistence way of life. You know we 
have been stewards of the resources of the Bering Sea and our 
close proximity of resources for, you know, a good ten, 15,000 
years, long before the creation of the United States of 
America, and also the State of Alaska.
    And we serve as good stewards. We think we are good 
stewards. We ethically and morally have harvested and 
spiritually harvested our resources for a number of years both 
in the Bering Sea and also within our river systems. We are 
also a federally recognized tribe; there are 229 of us. And, 
much of the Americanized fisheries occur right in our back door 
in the Bering Sea and also the Gulf of Alaska. We also have a 
special relationship with the United States of America that is 
definitely outlined in the United States Constitution under the 
Commerce Clause and also our government-to-government 
relationship that we maintain.
    We are also extremely dependent on the resource. We believe 
it's a human rights issue, that our resources be managed with 
consultation with people that utilize the resource for food. So 
that tribal subsistence seat, it has to be designated a tribal 
seat.
    Senator Begich. I understand.
    Mr. Andrew. If you take a look at the historical 
composition of the council, and the Advisory Panel, and the 
Scientific Statistic--excuse me----
    Senator Begich. Statistical.
    Mr. Andrew.--Statistical Committee of the North Pacific 
Fishery Management Council, there is no tribal representation, 
tribal participation, in either one of the three forums. Yet 
the Bering Sea and the Gulf of Alaska, has an incredible impact 
on the very lives of people that depend on the resources.
    Senator Begich. Very good. Thank you very much. I 
appreciate it.
    Let me ask Senator Cantwell for her questions and if she 
needs additional time, feel free.
    Senator Cantwell. Well, thank you, Mr. Chairman. And thank 
you for that. I think you and I, as you said, could probably be 
here all day with a whole variety of questions because this is 
important to both of our states and the interconnectedness of 
it all is practically obvious to us every day.
    But one thing I wanted to bring up and ask you, Dr. 
Balsiger, is this issue of climate change and ocean 
acidification. Because, we are seeing unbelievable impacts on 
this with our shellfish industry right now. Our oceans take up 
to 25 percent of our CO<INF>2</INF> and this has changed the 
acidity by 30 percent over the last 250 years. So our oceans 
are on track to be 150 percent more acidic by the end of this 
century. So we have a couple of posters here that are, one, 
something that we had to work with the shellfish industry which 
actually shows the signs of impaired shellfish growth for our 
oyster shells and crab shells are made of the same material.
    So we have obviously implemented this new buoy system and 
everything to measure this so that we can get the proper time 
for seeding. But another chart--oh, that's a nice stand there. 
Thank you.
    [Laughter.]
    Senator Cantwell. Our second graph is the NOAA Ocean 
Fishery Science Center which shows the potential impact on the 
ocean acidification on Alaska Bering Sea red king crab catch. 
So you can see that basically it is saying that we could have a 
significant reduction in crab available because of the same 
attack on the shells of this particular species.
    So my question is, you know, does NOAA have what it needs 
to understand the impacts to the seafood industry of ocean 
acidification? What data do we have now on ocean acidification 
and how it can impact fish stocks? What do we need to get to 
make sure that we are addressing this issue?
    Dr. Balsiger. Thank you very much for that question. And 
you have our data. I can see the charts. I'm familiar with 
those.
    At this point, fortunately, it's largely in the ocean. It's 
largely a theoretical possibility, but if you look at the 
declining trend and our projections of what happens to all of 
the carbon that's already in the atmosphere over the next few 
years, I think it is a cause for concern. We need to study 
this. We do have some programs in Kodiak looking at this. And 
of course, we also have a part of the Alaska Fishery Science 
Centers in Newport, Oregon and I believe you have some material 
from there.
    So we're watching this closely. We'll be happy to keep you 
informed of where that goes.
    Senator Cantwell. Well, let me ask Mr. Oliver. How many 
vessels and jobs rely on the red king crab industry?
    Mr. Oliver. Let's see. The red king crab industry is 
something over--I don't know the exact number, Senator, off the 
top of my head, but over a hundred vessels. And, you know, 
literally, probably into the thousands of jobs if you look at 
not just the vessels themselves but the secondary processing 
and associated industries, you're talking thousands of jobs, of 
course, in both Alaska and the Pacific Northwest.
    Senator Cantwell. Well, Mr. Chairman, on this issue I think 
we definitely need a study to understand these impacts. We have 
obviously established a buoy system, an information system as 
it related to the shellfish industry to give us important data 
that was critical. But I think these are valuable jobs in our 
region and, you know, these risks are high. If this chart, I 
know, is any indication of the drop-off that could potentially 
happen. So I definitely want to make sure that NOAA and the 
IOOS buoy program that we've developed might be expanded to 
look at this and to make sure that crab fisheries are, you 
know, that we're assessing these impacts.
    Second, I wanted to bring up about stock assessments. And 
you know, I keep hearing from fishermen that the Magnuson-
Stevens Act is working and that data supports the current 
framework. But when we don't do the stock assessments, or we 
don't do enough of them, or we shift them around as people are 
purposing, I just wonder, can we get from NOAA an actual cost 
of what it would take to do the fish stock assessments so that 
we're not shifting resources between regions of the country?
    Dr. Balsiger. Thank you for the question.
    I don't have that cost of an annual stock assessment in 
every region at my fingertips. We certainly can get that to 
you. We have developed and have been working on a stock 
prioritization scheme to discover where in the days of 
competing resources those assessments be done. We shared that 
with the Council Coordinating Committee just last week here in 
this town. We're taking comments on that. We'd be pleased to 
provide that document to you as well.
    Thank you for the question.
    Senator Cantwell. But doesn't stock assessment equal jobs?
    So to me, when I think about how we're managing these 
fisheries, if you don't do the stock assessments then you can't 
come up with a management plan. And if you don't come up with a 
management plan then people can't, you know, harvest this 
resource. So it all begins with stock assessment.
    And so, I guess what I'm trying to get at is we don't want 
to see a very limited pool of stock assessment dollars or 
tradeoffs between region. We want what is the amount of money 
that is needed for stock assessment, and what level can we 
fund, and what are the economic impacts of that.
    Senator Begich. Yes.
    Can I add one piece to this before you answer that because 
I think this question is, the hearings we've had here in the 
Northeast, for example on the Northeast fisheries, you know, 
their stock assessments are spaced much further apart, and how 
you can even do the correct determination of what those limits 
will be based on a three-year stock assessment makes no sense.
    But so, can you also add to this request kind of a chart 
that shows for the regions and the species how often you're 
doing stock assessments for the last, and I'll just choose a 
number here and you can modify this, but I'll say for the last 
5 years, what has happened so we get a good picture.
    And then, I think what Senator Cantwell has asked for is a 
very good question. So if we see the history and then you whip 
on top of that here's what it would cost to get to what 
scientists would say is the right kind of assessments we need, 
what does that mean. But this history, I think, would be also 
important.
    I didn't mean to interrupt your question; I just wanted to 
add to it before he answered. But, please, back to you.
    Senator Cantwell. Thank you.
    Dr. Balsiger. Yes, thank you. We can provide that.
    And although not exactly to the question in the North 
Pacific Council, Alaska Fisheries Science Center has looked at 
the cost in terms of reduced harvest because of uncertainty 
when you don't do annual stock assessments. If you do stock 
assessments every 3 years, you have to be more careful.
    And so, because of the long history of annual stock 
assessments and production by species in the Bering Sea and 
Gulf of Alaska, we can show approximately what it would cost if 
you have to deal with larger levels of uncertainty. So, that 
may be of interest as well.
    Senator Cantwell. Do you know what stock assessment is in 
general? Like a basic cost.
    Dr. Balsiger. Well the stock assessment, of course, is many 
pieces. Starting, most typically, with a survey in the ocean, a 
survey vessel, either one of NOAA vessels or a chartered 
commercial fishing vessel. And so that starts for a particular 
stock at a couple hundred thousand dollars, but by the time you 
do the modeling and all of the people that are involved in 
those, that's a more involved question. I'd be happy to get 
back with better estimates of those.
    It's fairly easy to say what the survey charter vessel 
actually costs, but by the time you include the rest of the 
assessment, probably even including the time that the SSC looks 
at it to make sure it's correct in peer review, it's a more 
complicated question and I'd be pleased to find more details 
for that.
    Senator Cantwell. Well, I'm just looking at my own math in 
our region, but those numbers I gave you on this maritime 
analysis, and the chairman actually came to the Pacific 
Northwest, we had a hearing on some of these issues or, I 
should say, a listening session on some of these issues. But, 
you know, we're saying that, you know, the fishing impact is 
probably somewhere between, you know $15 billion to $20 
billion. So if you think on that and the tens of thousands of 
jobs that are related to this sector, coming up and telling our 
colleagues, ``Hey, we need to make these stock assessment 
investments so that this economic activity can exist in our 
country,'' seems to be a pretty basic formula that most of our 
colleagues would get and I think would be supported by the 
industries.
    So I don't know of a lot of times when we can say, ``You 
know, if we fund these things here's the economic activity 
that's going to happen.'' But we know this: It won't happen 
without the stock assessment because we obviously won't be 
giving the green light to the level of catch and everything 
else.
    So anyway, if you could get us those numbers, I think that 
would be very helpful for us in this larger question of how to 
move forward with good science and good fisheries. And to say 
nothing, I know there are a lot of people in the audience here 
today of, you know, this vessel upgrade issue, Mr. Chairman, 
because as we get more efficient, you know, there are all sorts 
of efficiencies that are going to be in place. So all of this 
goes hand-in-hand into more efficiently and effectively 
catching the resource, and more efficiencies in the system but 
got to have the stock assessment to go along.
    So I'll give it back to you, Mr. Chairman.
    Senator Begich. All righty. Thank you very much.
    Let me do this. I do have questions that I'll submit for 
the record. I do want to follow up, Mr. Oliver. Chris, with 
you, in regards to how you define--because I know this 
flexibility issue is becoming an issue, especially in the 
Northeast region. And I'd be interested in your comments. You 
don't have to do it now. We'll send you a question on this and 
I'd be very anxious to get your response on that.
    To this first panel, thank you very much. Thank you for 
being here. Thank you for the very good testimony. If we can 
now swap out to the next panel and we appreciate all your time.
    The next panel, as they're coming up, let me just read who 
they are and their titles and then we'll go right into it. Joe 
Plesha is the Chief Legal Officer for Trident Seafoods; Lori 
Swanson, Executive Director of the Groundfish Forum; Linda 
Behnken, Executive Director, Alaska Longliner Fishermen 
Association; Ricky Gease, Executive Director, Kenai River 
Sportsmen Association; Michael LeVine, Pacific Senior Counsel, 
Oceana; and Julianne Curry, Executive Director of United 
Fishermen of Alaska.
    For all of you that are coming to the table, thank you very 
much for your attendance. Thank you for traveling. As we would 
say, anybody coming from the West Coast and Alaska travels a 
great distance to be here. So we appreciate your time and your 
willingness.
    There's good and bad news. The good news is we don't have 
votes interrupting this--which usually happens. The bad news is 
we're not voting yet. So that is coming later, I hope.
    And what I'll do is the same thing I did last time. I'll 
just kind of move down the line here. And as they get your 
water and everything, we'll just give a moment, we again thank 
you.
    As the Ranking Member said earlier, we've had pretty 
extensive hearings and listening sessions because we do want to 
get input, but we are moving forward on preparing a draft and 
we're anxious to move forward on the reauthorization.
    The staff, I think they're getting pretty close to getting 
all the microphones. You might--everyone will have one. Is that 
what I see there, or share it on the backend?
    Julianne, are you going to be sharing one, I think?
    Oh, maybe not. Look at that.
    Mr. LeVine. We can share. We're good.
    Senator Begich. No, look at that.
    We are efficient here. Thank you, to the staff.
    Joe, we're going to start with you, if that's okay. And 
again, we appreciate you being here and thank you for 
representing the company. We know it's both, especially in the 
Seattle, Washington State region, a pretty important part of 
the economy there and, of course, for Alaska, pretty important. 
So we appreciate you being here.

   STATEMENT OF JOSEPH T. PLESHA, CHIEF LEGAL AND REGULATORY 
             OFFICER, TRIDENT SEAFOODS CORPORATION

    Mr. Plesha. Thank you, Mr. Chairman.
    I also appreciate you holding this hearing and inviting us 
to participate.
    I'm Joe Plesha, I work for Trident Seafoods. Trident was 
founded in 1973 by a gentleman named Chuck Bundrant and was a 
leader in developing the groundfish fisheries off of the newly 
created 200-mile zone.
    Currently, the company operates ten shore-based processing 
plants in Alaska. We have a fleet of catcher vessels that fish 
groundfish. We also have three Pollock catcher processor 
vessels and two floating processing ships. I should add, in 
addition, we have four value-added processing plants in 
Washington State. We currently employ over 6,000 people during 
peek production in Alaska and exactly 2,220 people in jobs in 
Washington State. Trident markets and sells seafood from Alaska 
domestically, of course, and in over 45 foreign countries.
    I want to start by saying the Magnuson-Stevens Act has been 
incredibly successful in providing the framework to sustainably 
manage the fishery resources off Alaska and promote development 
of the U.S. industry. The cornerstone of this success is the 
regional council system and, specifically, the North Pacific 
Fishery and Management Council.
    I want to applaud Chris Oliver and his staff and Dr. 
Balsiger who serves on the council. They've always been 
incredibly open to industry participants who want to actively 
affect fishery policy.
    So the theme of my testimony today is that any changes to 
the law should focus on giving the councils the tools they need 
to accomplish the purposes of the legislation. And there's one 
issue I want to specifically mention. There is a question 
whether the Magnuson-Stevens Act allows for the development of 
harvester/processor cooperatives in rationalized fisheries. And 
these harvester/processor cooperatives were first used when 
Congress passed the American Fisheries Act in 1998. They proved 
to be very effective in protecting the interest of both 
harvesters and Alaska shore-based processors in the newly 
rationalized Bering Sea Pollock fishery.
    Then, in 2003, Congress passed a one paragraph provision 
directing the Council to rationalize the relatively small Gulf 
of Alaska rockfish fishery. And it didn't indicate in any way 
that that should be rationalized; it just said that it should 
be done in a way that protected both harvesters and processors. 
The council chose to use these harvester/processor 
cooperatives, but the pilot rockfish program was a pilot 
program and it sunset in 2012. So the Council was tasked with 
renewing the program and, in doing that, they analyzed simply 
extending the existing harvester/processor cooperatives 
structure. But as the process was being analyzed, they received 
a legal opinion from NOAA General Council that the Magnuson Act 
did not authorize that harvester/processor cooperative to be 
used.
    NOAA seemed to be ignoring the fact that the pilot rockfish 
program was developed under the Magnuson Act to begin with and 
the 2006 amendments to the Magnuson-Stevens Act specifically 
required that when the councils developed any rationalized 
fishery, they look at employment in both harvesting and 
processing sectors and investments and in dependence upon the 
fishery.
    NOAA's opinion, regarding this rockfish plan, spawns from 
an earlier 1978 NOAA General Council opinion. They claim that 
the law did not allow for the Secretary of Commerce to deny 
foreign processing ships the right to operate in U.S. waters 
simply because domestic processors had the capacity to utilize 
those fish. And their rationale was that the Act, at the time, 
did not authorize the secretary to regulate shore-based 
processing.
    Congress quickly provided clarification saying that the 
United States processing industry had preference to U.S. 
harvested fish. And during passage of that amendment, the 
Chairman of the Merchant Marine and Fisheries Committee spoke 
on the House floor and said that it was the Committee's 
understanding that fishing in the Act does include processing 
and the Act was intended for the benefit of the entire 
industry, not just one sector.
    Nevertheless, NOAA has stood firm on this view: That the 
harvester/processor cooperatives are not authorized under the 
Act because it does not provide the authority to regulate 
shore-based processing. This issue actually is important, 
because the North Pacific Fishery and Management Council has 
begun considering rationalizing the trawl, Pollock and Pacific 
cod fisheries in the Gulf of Alaska. These are extremely large, 
very valuable, fisheries. And currently, the council's option 
for rationalizing these fisheries includes harvester/processor 
cooperatives.
    We hope NOAA will reconsider its position on this issue 
but, if it does not, we would ask that Congress again clarify 
that shore-based processing is part of the fishery and the 
North Pacific Council has the authority to develop these type 
of programs.
    Thank you very much.
    [The prepared statement of Mr. Plesha follows:]

  Prepared Statement of Joseph T. Plesha, Chief Legal and Regulatory 
                 Officer, Trident Seafoods Corporation
    Thank you Mr. Chairman, members of the Committee, for the 
opportunity to testify on the reauthorization of the Magnuson-Stevens 
Fishery Conservation and Management Act (Magnuson-Stevens Act). I am 
testifying on behalf of Trident Seafoods Corporation, a seafood 
harvesting, processing and marketing company with operations throughout 
Alaska, and in the states of Washington, Oregon, Minnesota and soon 
Georgia.
    When the so called ``200-mile bill'' was first enacted in 1976, 
Congress was concerned about foreign fishing fleets operating without 
restriction off our coasts, depleting fishery resources, preventing 
development of the American seafood industry and harming traditional 
inshore fisheries because of the unregulated bycatch of species like 
salmon, crab and halibut. The Magnuson-Stevens Act has been remarkably 
successful in addressing the concerns raised by Congress since its 
passage.
    One of the innovative provisions of the Magnuson-Stevens Act is the 
eight regional fishery management councils which recommend fishery 
management measures to the Secretary of Commerce. The regional council 
system allows stakeholders, along with State and Federal fishery 
managers, and non-governmental council members who are knowledgeable 
about the fisheries, to actively participate in a highly public process 
which shapes national fishery policy. The regional council system has 
proven effective in promoting the development of management measures 
tailored to the unique characteristics of vastly diverse fisheries 
across the United States.
    The theme of my testimony is that the Magnuson-Stevens Act is 
working well, and any changes to the law should focus on giving 
regional councils the tools necessary to better accomplish the purposes 
of the legislation.
Rationalization Programs With Harvester-Processor Cooperatives
    In an effort to provide greater incentives to achieve bycatch 
avoidance for trawl vessels operating in the Gulf of Alaska, the North 
Pacific Fishery Management Council has begun consideration of a 
rationalization program for the pollock and Pacific cod fisheries. The 
rationalization options being analyzed by the Council \1\ include 
harvester-processor cooperatives similar in many respects to the 
extremely successful American Fisheries Act, which rationalized the 
Bering Sea pollock fishery. Unfortunately, it is not certain that 
rationalization programs with harvester-processor cooperatives are 
authorized under the Magnuson-Stevens Act because of past NOAA legal 
opinions. Understanding why this issue is important requires an 
explanation of the impacts of rationalization on the highly industrial 
fisheries found in Alaska.
---------------------------------------------------------------------------
    \1\ http://www.npfmc.org/wp-content/PDFdocuments/bycatch/
GOAtrawlDesignMotion1013
.pdf.
---------------------------------------------------------------------------
    Rationalized fisheries out perform open-access managed fisheries in 
every relevant criterion by which performance can be measured. These 
include: conservation of the resource, efficient bycatch avoidance, 
safety at sea, gross value of products produced from the resource, and 
reducing the cost of harvesting and processing the resource.
    The benefits attributed to rationalized fisheries, however, occur 
regardless of who receives allocations of the privilege to utilize the 
fish.\2\ From the standpoint of efficient utilization of the resource, 
it is unimportant who receives allocations of quota. No matter whether 
initial allocations are granted exclusively to the owners of harvesting 
vessels, the owners of processing plants, fishermen (i.e., ``crew''), 
processor workers, or taxi cab drivers in Anchorage, Alaska, the 
rationalized fisheries will eventually come to be utilized by the most 
efficient industry participants.
---------------------------------------------------------------------------
    \2\ Coase, Ronald, The Problem of Social Cost, Journal of Law and 
Economics, 3 (Oct. 1960) 1-44.
---------------------------------------------------------------------------
    As an example, the pollock Community Development Quota (CDQ) 
program allocates ten percent of the Bering Sea pollock TAC to villages 
in Western Alaska. Because the fishery was rationalized--albeit into 
the hands of entities that were complete outsiders to the fishery at 
the inception of the program--the harvesting and processing of CDQ 
pollock became as efficient as if the a pollock company itself was 
allocated the quota.
    Given that the resource will be utilized efficiently regardless of 
who is allocated quota in a rationalized fishery, at first glance there 
may appear to be good reasons to auction the privilege to use fishery 
resources. After all, fishery resources managed under the Magnuson-
Stevens Act belong to the government \3\ and the Federal treasury can 
certainly use the revenue.
---------------------------------------------------------------------------
    \3\ The United States claims sovereign rights over all fish within 
the United States Exclusive Economic Zone. 16 U.S.C. Sec. 1853a.
---------------------------------------------------------------------------
    Looked at another way, let's say a large un-exploited stock of cod 
were suddenly discovered off a remote U.S.-owned island in the Pacific 
ocean and fishery managers wanted to rationalize it prior to the 
resource being exploited. The Federal Government would likely auction 
the privileges to utilize this undeveloped resource rather than 
allocating them to processing plant owners or fishing vessel owners 
based in Alaska, Washington State or Oregon.
    Fishery managers, unfortunately, seldom have this opportunity. They 
typically wait until a fishery is overcapitalized through the 
uncontrolled entry process inherent in an open access fishery before 
attempting to rationalize the fishery. The fact that we wait until a 
fishery is overcapitalized complicates the initial allocation process 
of rationalization.
    In a fully capitalized, open-access fishery where the harvest is 
limited by a Total Allowable Catch that the participants race to 
exploit, the value of investments in fishing vessels and processing 
plants will be lost as a result of rationalization. This lost 
investment value reappears in the value of the quota to utilize the 
resource. Wealth is unavoidably transferred from the fixed capital of 
processing plants and fishing vessels to the holders of quota. When 
such fisheries are rationalized, owners of fishing vessels and 
processing plants can suffer enormous financial losses. This is 
especially true in the capital-intensive fisheries of Alaska, where the 
plants and boats are both durable and have few, if any, alternative 
uses.
    The mechanism at work that causes owners of fishing and processing 
capacity to lose the value of their capital investments is that, by 
definition, the overcapitalized fishery has much more capital, and 
hence daily harvesting and processing capacity, than is necessary to 
prosecute the fishery once it has been rationalized. A quota holder 
would not need to own a boat or a processing plant in order to 
participate in a fishery. When a quota holder decides to participate in 
the fishery, he or she could simply conduct a reverse auction \4\ among 
fishing vessel owners. The vessel owners would bid down to the point 
where the winning boat, now desperate for quota in order to operate, 
just covered its variable costs. The quota holders would then proceed 
to secure processing services with the same result. The winning bid for 
processing services would cover only the variable costs \5\ of 
production.
---------------------------------------------------------------------------
    \4\ In a reverse auction, the sellers compete to obtain business 
from the buyer and prices will typically decrease as the sellers 
undercut each other.
    \5\ Variable costs are those expenses that increase with 
production. For processors, variable costs would include things like 
direct processing labor, packaging, and increased utility charges. For 
vessel owners, variable costs would include things like fuel.
---------------------------------------------------------------------------
    Why would any rational businessman invest tens or hundreds of 
millions of dollars into an industry and later allow others to use that 
investment for free? When an overcapitalized, open-access fishery is 
rationalized, instead of the fishery lasting, for example, one month in 
an open access race, under rationalization it may be far more 
efficiently utilized over a six month period. This means there is six 
times more existing harvesting and processing capacity than necessary 
when the fishery is rationalized. Not all of this physical capital can 
remain busy during the new six-month fishery, but its owners will all 
have an incentive to keep the physical capital operating throughout 
this period. If these millions of dollars of excess physical capital 
earn just one penny above the variable costs of its operation, its 
owner is better off than under the alternative of earning nothing. 
Thus, starved for raw material to run through their facilities, vessel 
and plant owners bid for product until the price reaches a level at 
which they no longer can cover their variable cost.
    Immediately upon beginning operations under a rationalized fishery, 
therefore, owners of fishery-related capital will see the return on 
their investment fall to zero. This cannot be avoided and is, in fact, 
necessary in order to de-capitalize an overcapitalized industry. The 
owners of this physical capital cannot expect to realize any return on 
their investment until excess capital stock leaves the industry. If the 
owners of that physical capital do not receive rights in the 
rationalized fishery to compensate them for the loss, in essence they 
have had the value of their investments expropriated. As an example, 
when the individual quota system was implemented in the Alaska halibut 
fishery in the mid-1990s, over seventy percent of existing halibut 
processors were driven from the fishery without compensation.
    The allocation of quota to vessel and plant owners in industrial 
open access fisheries is essential if they are to be compensated for 
the losses they suffer due to the devaluation of their vessels and 
plants as a result of rationalization. (Some vessel owners may lament 
the fact that processing plant owners seek to be part of rationalized 
fisheries, but the reason for including processing plant owners in the 
allocation of quota is the same reason for including vessel owners in 
the allocation of quota. If a corporation that owns a fishing vessel 
does not suffer losses in the value of its boat as a result of 
rationalization, then there is no basis upon which it should be 
allocated quota.)
    One of the potentially effective ways to rationalize a fishery that 
includes both vessel and plant owners is through fishery cooperatives. 
Under this cooperative approach both vessel and processing plant 
historical participation in the fisheries is preserved. Harvester-
processor cooperatives were first used in the North Pacific under the 
American Fisheries Act. That legislation proved extremely successful in 
rationalizing the Bering Sea inshore pollock fishery.
    The success of the American Fisheries Act did not go un-noticed. By 
the early 2000s rockfish in the Gulf of Alaska were being harvested by 
the trawl fleet in a two-week race-for-fish. There was a statutory 
moratorium in place at that time which prevented the Secretary from 
approving any new Individual Fishing Quota programs. Representatives of 
the trawl vessel owners and processing plants that utilized Gulf of 
Alaska rockfish urged Congress to legislatively authorize 
rationalization of rockfish.
    In 2003 Congress passed a short, one-paragraph, provision directing 
the Secretary of Commerce, in consultation with the North Pacific 
Fishery Management Council, to rationalize the rockfish fisheries in 
the Central Gulf of Alaska. Congress required the Secretary to develop 
a program that protected both the harvesting and processing histories 
of the existing participants. The legislation, however, did not direct 
the Council or the Secretary how to protect each sector.
    In June of 2005 the Council developed the Rockfish Pilot Program 
which utilized harvester-processor cooperatives similar to the American 
Fisheries Act's inshore cooperative structure. A vessel was eligible to 
join a cooperative only in association with the processing facility to 
which that harvester historically delivered the most pounds of rockfish 
during the qualifying years. The associated processor was expected to 
negotiate an agreement with vessel owners that contractually limited 
the vessels from delivering to any other processor.\6\ Thus, a vessel 
was allocated its historical market share and the processing plant was 
assured of its historical market share.
---------------------------------------------------------------------------
    \6\ Final Review Draft, RIR, EA and IRFA for the proposed Amendment 
68 to the Gulf of Alaska Fishery Management Plan, June 2005. p. 69.
---------------------------------------------------------------------------
    The Rockfish Pilot Program expired after 2011 and the Council was 
required to take action to renew the program. Stakeholders in the 
program supported rolling-over the existing program and the Council 
chose to initiate an analysis of only one primary option: extension of 
the existing harvester-processor cooperatives beyond the sunset 
date.\7\
---------------------------------------------------------------------------
    \7\ CGOA Rockfish Program Motion, NPFMC February 9, 2009.
---------------------------------------------------------------------------
    At the Council's October 2009 meeting, however, the alternative of 
extending the existing Rockfish Pilot Program was removed from 
consideration because of a legal opinion from NOAA General Counsel for 
the Alaska Region. NOAA's 2009 legal opinion concluded that the 
Magnuson-Stevens Act does not authorize harvester-processor 
cooperatives.
    NOAA's 2009 legal opinion is wrong. The Rockfish Pilot Program 
legislation itself did not provide statutory authority beyond that 
which already existed in the Magnuson-Stevens Act and the Rockfish 
Pilot Program's cooperative structure was developed by the Council and 
approved by the Secretary under the Magnuson-Stevens Act. NOAA's 2009 
opinion ignored (and did not even reference) the 2006 amendments to the 
Magnuson-Stevens Act requiring consideration of ``employment in the 
harvesting and processing sectors,'' and ``investments in, and 
dependence upon, the fishery.'' Certainly the 2009 Opinion 
unnecessarily removes a potentially useful tool from the toolbox of 
potential management measures for council consideration.
    NOAA's legal position on this issue results from a 1978 NOAA 
General Counsel memo that concluded the Magnuson-Stevens Act did not 
authorize the Secretary to disapprove foreign processing vessel 
applications to operate in U.S. waters just because domestic shore-
based processors had the capacity and intent to utilize the same U.S. 
fishery resources. Taken on its face, the 1978 legal opinion means that 
shore-based processors cannot be regulated under the Magnuson-Stevens 
Act. As a result of this 1978 opinion, Congress quickly passed the so-
called ``processor preference'' amendment giving statutory preference 
to U.S. processors over foreign operations.\8\ In doing so, Congress 
believed it clarified the fact that domestic processors are part of the 
fisheries. As the Chairman of the House Merchant Marine and Fisheries 
Committee, Congressman John Murphy, explained during consideration of 
the amendment by the House of Representatives:
---------------------------------------------------------------------------
    \8\ P.L. 95-354 (1978).

        In the course of our discussions of the bill, some question was 
        raised about whether the definition of ``fishing'' under 
        section 3 of the [Magnuson-Stevens Act] includes 
        ``processing.'' This question is important because the 
        [Magnuson-Stevens Act] uses the term ``fishing'' so that the 
        statute applies to the processing industry in the same 
        situations only if ``fishing'' includes processing. . . . In 
        the end, we decided to leave the [Magnuson-Stevens Act's] 
        definitions unchanged on this point while, at the same time, 
        making clear the Act was intended to benefit the entire fishing 
        industry . . . [I]t is the understanding of the House that 
        ``fishing'' in section 3 of the [Magnuson-Stevens Act] does 
        include ``processing'' and that, for that reason, the proposed 
        clarification is unnecessary.'' \9\
---------------------------------------------------------------------------
    \9\ Statement of Congressman John Murphy, 124 Cong. Rec. H8266, 
Aug. 10, 1978.

    Because of NOAA's 2009 Opinion, however, the option of continuing 
harvester-processor cooperatives in the rockfish program was removed 
from potential consideration.
    The North Pacific Fishery Management Council is now exploring 
whether to rationalize the pollock and Pacific cod trawl fisheries in 
the Gulf of Alaska. The Council's current option for analysis again has 
elements of a harvester-processor cooperative. It is not certain 
whether NOAA will allow the Council's current rationalization plan to 
be implemented. In the view of Alaskan processors, NOAA should 
reconsider its position, but if the agency continues its rather 
tortured legal position on this issue, Congress should again clarify 
that shore-based processing is part of the fishery and thereby allow 
the North Pacific Council the option of using harvester-processor 
cooperatives in future rationalization plans.
The Overfishing Definition and Rebuilding Requirements
    We strongly support managing our Nation's fishery resources on a 
sustainable basis, and depleted stocks (whether caused by overfishing 
or other environmental factors) should be managed in a manner that 
allows them to recover. We do not want to see amendments to the 
Magnuson-Stevens Act that would result in stocks of fish to be managed 
in a non-sustainable manner. Our experience is that the current 
mandates of the Magnuson-Stevens Act on this issue can be overly 
prescriptive.
    An almost humorous example has occurred in Alaska. The North 
Pacific Council has no overfished groundfish stocks, but one species of 
crab, the Pribilof Island Blue King crab, is considered overfished and 
in need of a rebuilding plan, even though no directed fisheries have 
occurred for nearly two decades and the species is rarely taken as 
bycatch in other fisheries. The North Pacific Council curtailed certain 
groundfish fishing because that was the only source of possible crab 
mortality it could affect, even though the analysis shows that this 
action will not impact rebuilding success.
    In summary, Congress should consider amendments to the Magnuson-
Stevens Act that allow some flexibility in its rebuilding requirements 
when a stock is considered ``overfished,'' while still assuring all 
U.S. fisheries are managed sustainably.
Data Collection and Confidentiality
    There are two provisions in the Magnuson-Stevens Act 
reauthorization draft circulating by the other body upon which I would 
like to comment. That draft would not allow electronic monitoring 
devices to be used for fishery enforcement and also requires that 
virtually all data provided to NOAA under the Magnuson-Stevens Act be 
confidential and not subject to disclosure.
    Human observers are used in most every fishery off Alaska in which 
Trident participates. Typically there is one observer on the harvesting 
vessel and another at the processing plant. Electronic monitoring--the 
use of video cameras--is a relatively new concept. It may provide a 
more cost efficient way to accurately monitor the harvest of fish. We 
can see no good reason, however, why electronic monitoring cannot be 
used in fishery enforcement. Certainly human observers can be, and have 
been, involved in helping document fishery violations. If a council 
chooses to allow electronic monitoring in its fisheries, we believe 
that the observations made under such a program should be allowed in 
enforcement actions just as the observations of human observers can be 
so used.
    In the North Pacific the harvest data of vessels in rationalized 
fisheries is currently public knowledge. For each Bering Sea pollock 
trawl vessel, for example, its harvest of pollock and bycatch is 
provided to the Council. The fact that a vessel's bycatch data is 
public information adds pressure for vessels to avoid that harvest of 
non-target species and is useful in shaping bycatch avoidance policies. 
We support the concept that financial information that is provided to 
the NOAA be confidential, however, the harvest data of at least 
rationalized fisheries, should be available to the public.
    Thank you very much for your consideration of these comments.

    Senator Begich. Thank you very much.
    Ms. Swanson.

STATEMENT OF LORI SWANSON, EXECUTIVE DIRECTOR, GROUNDFISH FORUM

    Ms. Swanson. Good morning, Chairman Begich, Senator 
Cantwell----
    Senator Begich. The microphone. There we go.
    Ms. Swanson. Good morning, Chairman Begich, Senator 
Cantwell, and members of the Committee. I'm Lori Swanson. I'm 
the Executive Director of Groundfish Forum and the Co-Vice 
Chair of the Advisory Panel for the North Pacific Fishery 
Management Council.
    I am here today representing the members of Groundfish 
Forum, which is a Seattle-based industry association comprised 
of five companies operating 16 trawl catcher processor vessels 
and multi-species groundfish fisheries off the coast of Alaska.
    Thank you for the opportunity to offer comments. My 
comments will focus on the North Pacific groundfish fisheries 
in general with some specific points about the sector I 
represent.
    Groundfish Forum supports the MSA as written for the North 
Pacific. It has proven to be a strong yet flexible guide to the 
Americanization of our fisheries and has provided the 
management structure that maintains consistently strong and 
resilient fisheries with protections for the environment and 
for healthy ecosystems.
    One of the key strengths of the MSA is that it allows 
regional councils the flexibility to address issues in ways 
that respond to the needs of the stakeholders in the region. As 
members of the only North Pacific catch share program created 
from start to finish through the Council process, groundfish 
forum is perhaps the best example of how this system works.
    Most of our vessels were not purpose built for the 
fisheries in which they operate. They're mixed fisheries for 
any single haul contains a number of different species. Our 
vessels cannot legally do more than primary processes on board; 
hence the original name ``head and gut'' vessels. Because of 
the limited processing capabilities, any unmarketable fish are 
discarded at sea.
    Until 2008, these vessels operated in a race for fish. But 
the one who caught the most fish, the fastest, did the best and 
anyone who fished slower, or more carefully, would simply lose 
fish to those who did not and any one vessel could shut down 
the fishery.
    Over the course of 10 years, the Council developed a catch 
share program for our sector which was implemented in 2008 as 
Amendment 80. There were many controversial decisions required 
to get to the final program. The council had to decide what 
species; how much of those species to allocate to the sector; 
how to allocate at the vessel level; requirements for co-op 
formation, bycatch limits; protection for other sectors; 
compliance monitoring; and what information co-ops should be 
required to provide to the public. Each of these decisions was 
vigorously debated through the public council process with 
input from scientists, economists, fishermen, environmental 
organizations, community and tribal entities, the U.S. Coast 
Guard and others.
    Under Amendment 80, our vessels are allocated specific 
amounts of five target species, as well as strict limits on 
non-target species which may be combined into one or more 
fishery cooperatives or fished in a limited access. There are 
two NOAA observers on each vessel to monitor compliance and 
reporting. The result is a true success story for both the MSA 
and the Council process.
    Since ending the race for fish, our fishery runs year-round 
and fishermen can target their operations when and where it 
makes sense. The Amendment 80 sector now retains over 90 
percent of the catch and new products and markets are being 
developed. Our fishermen have been able to experiment with 
modifications to their gear reducing bottom contact in the 
flatfish fishery by 90 percent. Further, the sector's been able 
to engage in discussions with some tribal and community 
entities to voluntarily restrict fishing in areas of particular 
sensitivity.
    And finally, for the first time in decades, companies are 
beginning to build new fisheries. Excuse me, new vessels. 
Groundfish fisheries in the North Pacific have their 
challenges. The Bering Sea and Aleutian Islands are unique in 
that there's an absolute cap of 2 million tons on the amount of 
groundfish that may be harvested in a given year even though 
the health of the stocks would allow much higher harvests; 50 
percent more in some years. Fisheries are healthy and the 
demand for quota exceeds what can be accommodated under the 
cap. The council has to decide who gets what after extensive 
scientific input and public testimony, which usually includes 
extensive debates and negotiations.
    Further, as fisheries mature, some prior management actions 
have become obsolete. For example, there are a number of fixed 
and seasonal closures that were originally enacted to minimize 
bycatch of particular species. Since fishermen are individually 
limited on bycatch, the closures may no longer be necessary or 
even helpful.
    I believe the Council has the ability under the MSA and the 
track record to address most of these concerns. The key for our 
region is maintaining high-quality scientific information, 
including regularly scheduled stock surveys, and thank you for 
your comments, Senator Cantwell, on that, and management 
flexibility. The more the management process can conform to the 
best use of the resources, the better. This includes mandatory 
actions, such as area closures to protect specific species and 
ecosystems, as well as mandates to individual sectors and 
cooperatives to work together to achieve particular goals 
without specific regulations.
    Thank you, again, for the opportunity to provide comments 
and I'll be happy to answer any questions.
    [The prepared statement of Ms. Swanson follows:]

        Prepared Statement of Lori Swanson, Executive Director, 
                            Groundfish Forum
    Good morning Chairman Begich, Ranking Member Rubio, and members of 
the Committee. I am Lori Swanson, the Executive Director of Groundfish 
Forum and co-vice chair of the Advisory Panel for the North Pacific 
Fishery Management Council.
    I am here today representing the members of Groundfish Forum, a 
Seattle-based industry association comprised of five companies 
currently operating 16 trawl catcher-processor vessels in the non-
pollock multispecies groundfish fisheries off the coast of Alaska. 
Thank you for the opportunity to offer comments to the Committee on the 
reauthorization of the Magnuson Stevens Fishery Conservation and 
Management Act (MSA). My comments will focus on North Pacific 
groundfish fisheries in general, with some specific points about the 
sector I represent.
    In the North Pacific, we are particularly blessed with a very 
productive ecosystem, which stays that way thanks to the work of the 
North Pacific Fishery Management Council (NPFMC). In the nearly 40 
years since enactment of the MSA, American harvesting and processing 
capacity has gone from almost nothing to the complete Americanization 
of our fisheries. We have transitioned from foreign fishing, to joint 
ventures (where U.S. vessels delivered to foreign processors), to full 
Americanization. Through the entire process, the NPFMC has addressed 
harvest levels, conservation concerns, habitat protection, marine 
mammal protection, and community and tribal concerns. As a result of 
the NPFMC's efforts, the ecosystem and the fisheries it supports are 
strong and healthy, and there no overfished groundfish species.
    Groundfish fisheries consistently harvest and process almost 2.0 
million tons (4.4 billion pounds), of fish every year, which account 
for nearly 47 percent of the Nation's total groundfish harvest. These 
fisheries are worth over $2 billion, and employ thousands of people in 
jobs that pay well and support families. Some of the product is 
exported and some is consumed in the United States.
    One of the key strengths of the MSA is that it allows regional 
councils the flexibility to address issues in ways that respond to the 
needs of stakeholders in that region. I would like to briefly explain 
how this process worked for our sector.
    Groundfish Forum vessels are part of the so-called ``Amendment 80'' 
sector, named after the NPFMC action that created the catch share 
program under which we now operate. As the only North Pacific catch 
share program created from start to finish through the Council process, 
we are perhaps the best example of how the system works.
    Most of our vessels, which range in length from 105, to nearly 300, 
in length, were not purpose-built for the fisheries in which they 
operate. They cannot legally do more than primary processing on board; 
hence the original name ``head and gut'' vessels. Our vessels target 
flatfish, rockfish, Atka mackerel, and Pacific cod in the Bering Sea, 
Aleutian Islands, and Gulf of Alaska. These are mixed fisheries, and a 
single haul contains a number of different species. Because the vessels 
have limited processing capabilities and no fishmeal plants, any 
unmarketable fish are discarded at sea. Until 2008, these vessels 
operated in a race for fish where the one who caught the most fish the 
fastest did the best. No fisherman likes to throw away fish, but it was 
the only way to maintain a viable operation under those circumstances. 
Anyone who fished slower or more carefully would simply lose fish to 
those who did not, and any one vessel could shutdown the entire fishery 
if it reached strict limits on bycatch or hit the overall total 
allowable catch established annually by the Council for our sector.
    Over the course of ten years--with input from scientists, 
economists, fishermen, environmental organizations, community and 
tribal entities--the Council developed a catch share program which was 
implemented in 2008 (Amendment 80). Under this program, our vessels are 
allocated specific amounts of five target species, as well as strict 
limitations on non-target species that are significantly lower than our 
historic catch levels. These vessel allocations may be combined into 
one or more fishery cooperatives or fished in a limited access fishery 
within the sector.
    As you can imagine, there were many controversial decisions 
required to get to the final program. But those decisions were left to 
the Council who determined what species, and how much of those species, 
to allocate to the sector; how to allocate at the vessel level; 
requirements for cooperative formation; bycatch limits; protections for 
other sectors; how to monitor compliance with various regulations and 
limits; and what information cooperatives should be required to provide 
to the public. Each of these decisions was vigorously debated through 
the public Council process, with input from the Scientific and 
Statistical Committee, the Alaska Fisheries Science Center, the NOAA 
Fisheries, the U.S. Coast Guard, and various stakeholders, including 
environmental and tribal organizations.
    The result is a true success story for both the MSA and Council 
process. Since ending the race for fish, the Amendment 80 sector now 
retains over 90 percent of their catch while operating under the same 
processing limits. Today, the fishing season runs from January 20, the 
start of the fishing year, to December 31 without closures. As a 
result, fishermen can target their operations to when and where it 
makes sense; businesses can more accurately plan for their annual 
shipyard maintenance; and new products and markets are being developed 
for previously unmarketable species. In addition, there are two NOAA 
observers on each vessel, strict monitoring and reporting requirements, 
and annual reports to the Council on cooperative performance.
    With stable and more predictable operations, Amendment 80 fishermen 
have been able to experiment with modifications to their gear, reducing 
bottom contact in the flatfish fishery by 90 percent. Further, the 
sector has been able to engage in discussions with some tribal and 
community entities to restrict fishing in areas of particular 
sensitivity. Finally, for the first time in decades, companies are 
beginning to build new vessels. These vessels will be world-class, 
environmentally sensitive, safe, and more efficient.
    Groundfish fisheries in the North Pacific have their challenges, of 
course. The Bering Sea and Aleutian Islands are unique in that there is 
an absolute cap of 2.0 million tons on the amount of groundfish that 
may be harvested in a given year. While this is admittedly a lot of 
fish, the health of the stocks would allow much higher harvests--fifty 
percent more in some years. Because the fisheries are healthy, the 
demand for quota exceeds what can be accommodated. Working under this 
cap, the Council has to decide who gets what after extensive scientific 
input and public testimony, usually including extensive debate and 
negotiations.
    Further, as fisheries mature, some prior management actions have 
become obsolete. For example, there are a number of fixed and seasonal 
closures that were originally enacted to minimize bycatch of particular 
species. Since fishermen are individually limited on bycatch, the 
closures may no longer be necessary or even helpful.
    I believe the Council has the ability under the MSA--and the track 
record--to address most of these concerns. The key for our region is 
maintaining high-quality scientific information, including regularly 
scheduled stock surveys, and management flexibility. The more the 
management process can conform to the best use of the resources, the 
better. This includes mandatory actions, such as area closures to 
protect specific species and ecosystems, as well as mandates to 
individual sectors and cooperatives to work together to achieve 
particular goals without specific regulations.
    We support the MSA as written for the North Pacific. It has proven 
to be a strong yet flexible guide to the Americanization of our 
fisheries and has provided the management structure that maintains 
consistently strong and resilient fisheries with protections for the 
environment and all of us who depend on healthy ecosystems.
    Thank you again for the opportunity to provide these comments. I 
will be happy to answer any questions from the Committee.

    Senator Begich. Thank you very much.
    Next, I have Linda Behnken.
    Thank you very much, Linda. Good to see you again.

STATEMENT OF LINDA BEHNKEN, EXECUTIVE DIRECTOR, ALASKA LONGLINE 
                    FISHERMEN'S ASSOCIATION

    Ms. Behnken. Thanks, Mr. Chairman.
    Linda Behnken. I served 9 years on the North Pacific 
Fishery Management Council. I'm currently Executive Director of 
the Alaska Longline Fishermen's Association and offer these 
comments on ALFA's behalf.
    North Pacific fish stocks have thrived under science-based 
management, annual catch limits, and innovative approaches to 
fisheries management. The North Pacific Council frequently sets 
the standard and did so again recently with a catch sharing 
plan that establishes percentage-based allocations for 
commercial and guided sport halibut fisheries. The catch 
sharing plan ensures that both commercial and guided sport 
sectors share in conserving fish stocks. It also creates a 
market-based mechanism for quota transfer between sectors. This 
mechanism establishes a responsive solution to a 20-year 
allocation conflict and allows harvesting opportunities to 
respond to client demand. These are important success stories 
to share with other regions.
    Even as we recognize the success of MSA in recovering fish 
stocks, we must recognize the primary challenge coastal 
fishermen now face as the unintended consequences of that 
success. Limited access programs have dramatically downsized 
fishing fleets to address overcapitalization. The result is 
substantial reduction in fishing jobs and escalating cost of 
entry.
    Limited access programs have achieved important 
conservation and safety objectives but most fisheries are now 
prosecuted by a small fraction of the fleet that once filled 
community harbors. In Alaska, these privileges cost far in 
excess of the boats and fishing gear required to harvest the 
fish. The capital cost to enter a fishery can be a significant 
barrier, particularly to residents in remote areas who have 
historically depended on participation of multiple fisheries to 
reduce risk. Taken together, fleet consolidation escalating 
entry costs are limiting opportunities for coast residents.
    In Alaska's remote and often isolated communities, few 
alternative employment opportunities exist. Once fishing jobs 
are lost, families must relocate. I see similar trends around 
our coasts. Losing access means losing a way of life and 
ultimately losing community. Our nation cannot afford to lose 
these jobs, small businesses, or coastal communities.
    Congress has recognized the importance of community-based 
fishing fleets and fishery-dependent communities in National 
Standard 8, in the Limited Access Provisions, and in section 
303(a)(9). We applaud these past efforts. We suggest 
reauthorization needs to tip the balance more towards these 
standards to provide for the sustained participation of small 
boats and fishery-dependent communities. I've included more 
specific recommendations in my written testimony.
    The second issue I want to address is catch monitoring. 
Accurate monitoring of catch is important and a goal ALFA 
embraces. In Alaska, 90 percent of the vessels recently added 
to the North Pacific's restructured Observer Program are small 
boats. Placing observers on these small vessels presents 
problems. Living in deck space is cramped at best. Fishing 
families spend months living in a space the size of a station 
wagon. Fishermen have to buy insurance and safety equipment to 
accommodate observers. In short, observers impose cost, safety 
issues, and disruptions on small boats.
    In contrast, electronic monitoring, which is used to 
monitor the same fisheries in neighboring British Columbia, 
collects necessary data without these issues. Recognizing the 
importance of EM for small boats, ALFA ran a 2-year pilot 
program that proved EM works. In the pilot, 94 percent of the 
fish were identified by species with the remainder identified 
to species grouping. Significantly, at $200 to $330 per day, EM 
monitoring was one third of the current $980 per day cost of 
observers in Alaska. This experience is consistent with other 
U.S. EM pilot programs and with the British Columbia EM system. 
In short, EM promises significant cost savings to the fishing 
industry and NMFS. EM also provides reliable and needed data.
    Unfortunately, EM is not yet available as an alternative to 
observers in any U.S. fishery. The absence of this monitoring 
alternative in the U.S. is inflating observer cost and 
contributing to fleet consolidation and job loss, particularly 
in small boat fisheries. To advance EM in Alaska and on a 
national scale, long-term funding, open collaboration with 
stakeholders, and a congressionally mandated commitment to EM 
integration are necessary.
    Again, I've included more specific suggestions in my 
written testimony.
    Thank you. Thank you for the opportunity to testify.
    [The prepared statement of Ms. Behnken follows:]

       Prepared Statement of Linda Behnken, Executive Director, 
                Alaska Longline Fishermen's Association
    Thank you for this opportunity to testify on reauthorization of the 
Magnuson-Stevens Fishery Conservation and Management Act.
    I am a commercial fisherman and have been for 30 years. I served on 
the North Pacific Fishery Management Council from 1992-2001 and 
continue to actively participate in the Council process. I serve as the 
Executive Director of the Alaska Longline Fishermen's Association 
(ALFA), based in Sitka, Alaska, and I am representing ALFA's over 100 
members and their families with this testimony.
    ALFA members participate in the halibut/sablefish catch share 
fisheries, which are hook and line fisheries managed with Individual 
Fishing Quotas (IFQ). Our members are deckhands or owner/operators of 
vessels that range in size from 16 foot skiffs to 72 foot halibut 
schooners, with the majority of the vessels being less than 60 feet in 
length. ALFA is a community-based organization with a firm commitment 
to sustainable fisheries and healthy fishing communities. We strongly 
support the fishery management system created by the Magnuson-Stevens 
Act (MSA) and respectfully offer the following comments on 
reauthorization.
Sustainable Fisheries
    Important progress has been made since the Sustainable Fisheries 
Act strengthened MSA conservation objectives. Many depleted fish stocks 
have been rebuilt and struggling fisheries revived as a result. Healthy 
marine ecosystems are essential to healthy fisheries, healthy fisheries 
are essential to profitable fishing communities, and profitable fishing 
communities are important to this country.
    North Pacific fish stocks have thrived under science-based 
management, annual catch limits, and innovative approaches to resource 
issues. The North Pacific Council frequently sets the standard for 
fisheries management, and did so again recently with a catch sharing 
plan that establishes percentage based allocations for commercial and 
guided sport halibut sectors. This catch sharing plan ensures that both 
commercial and guided sport sectors share in conserving fish stocks; it 
also creates a market-based mechanism for limited quota transfer 
between sectors. This market-based mechanism establishes a responsive 
solution to a long-term allocation conflict and allows harvesting 
opportunities to respond to client demand. These are important success 
stories to share with other regions.
    Even as we recognize these successes and recommit to healthy 
fisheries, we must do more to address the challenges faced by 
independent fishermen and coastal fishing communities. Strong, 
resilient and profitable fisheries and fishing communities must be a 
goal of this reauthorization. I will highlight three objectives 
critical to achieving this goal. First, maintain productive fisheries 
that are accessible to coastal fishing fleets. Second, provide a 
regulatory environment that respects and supports fleet diversity and 
fleet diversification. Third, develop cost effective and fleet 
compatible catch monitoring programs that integrate existing tools to 
meet management needs. Congress has established National Standards and 
guidelines that highlight the importance of small fishing businesses 
and coastal communities, but we need to do more through reauthorization 
and implementation to realize their promise. With the rest of my 
testimony, I will describe the challenges coastal fishermen and fishing 
communities face and suggest solutions.
Healthy Fishing Communities
    The primary challenge coastal fishermen face is the unintended 
consequence of success--success at addressing overcapitalization in 
U.S. fisheries. The Fisheries Conservation and Management Act of 1976 
promoted the U.S. fishing industry's capitalization and exploitation of 
coastal fisheries by ``consolidating control over territorial waters'' 
and, eventually, eliminating the foreign fleets that were fishing close 
to our shores. We were so successful in capitalizing the Nation's 
fisheries that the 1996 and 2006 amendments focused on controlling 
overcapitalization in U.S. fisheries and preventing overfishing. With 
the rallying cry of ``too many fishermen chasing too few fish,'' 
management downsized fishing fleets and rebuilt fish stocks. Limited 
access programs focused on consolidation, and fishing fleets were 
reduced by half, and then halved again in some regions.
    The unintended consequences of limited access and fleet 
consolidation have been two-fold: first, a dramatic reduction in 
fishing jobs, both at-sea and shore-side, and second, escalating cost 
of entry to limited access fisheries. Limited access programs have 
achieved the intended conservation and safety objectives, but in some 
cases have overshot consolidation objectives to the detriment of small 
fishing businesses and fishery dependent communities. I would call to 
Congress' attention that the new threat to fishing communities is too 
few fishermen, not too many. Our fisheries are fully prosecuted but by 
a fragment of the fleet that once filled the harbors, and empty harbors 
hurt coastal economies.
    In Alaska, limited access privileges cost far in excess of the 
boats and fishing gear required for harvesting the associated quota. 
The capital costs to enter a fishery have become a significant barrier 
for independent fishermen in many coastal communities, particularly to 
residents of remote and, in Alaska's case, primarily native 
communities. Taken together, these unintended consequences are eroding 
coastal economies.
    Historically, community-based small boat fishermen have prospered 
through diversification, engaging in multiple fisheries on an annual or 
periodic basis. Fishing is a risky business in every dimension--fish 
stocks fluctuate, markets fluctuate, and the weather changes by the 
minute. To address risk, fishermen have weathered the low in one 
fishery by shifting to another. The importance of this diversification 
was recently documented in a paper entitled: Income diversification and 
risk for fishermen, by Kasperki and Holland, along with a disconcerting 
evaluation of recent trends. Conclusions from the study, which was 
published in the 2012 Proceedings of the National Academy of Science 
(PNAS 2012) included:

  <bullet> Diversification can substantially reduce the variability of 
        income and therefore risk from commercial fishing.

  <bullet> The current fleet of vessels on the U.S. West Coast and in 
        Alaska is less diverse than at any point in the past 30 
        years.\1\
---------------------------------------------------------------------------
    \1\ http://www.pnas.org/content/early/2013/01/16/1212278110

    In fisheries, less diversification means more risk, but in many 
fisheries diversification now demands large investments in access 
privileges. Consolidation of access privileges further escalates costs, 
making diversification challenging if not impossible for many small 
operations. Dependent on one or two fisheries, these small businesses 
are now economically vulnerable to cyclical downturns in fish stocks or 
prices.
    In Alaska, commercial fishing is the largest private sector 
employer. In our remote and often isolated communities, few if any 
alternative employment opportunities exist. Once fishing jobs are lost, 
families must relocate to seek employment elsewhere with devastating 
impacts on community stability. I see the same dependence and community 
impacts occurring in Maine, Oregon, and North Carolina--in fact, all 
around our country. Losing access means losing a way of life and, 
ultimately, losing community. Our nation cannot afford to lose these 
jobs, these small businesses, or these coastal communities.
    Congress has recognized the importance of community-based fishing 
fleets and fishery dependent communities in National Standard 8, in the 
Limited Access Privilege Provisions, and in Section 303(a)(9). We 
applaud these past efforts, but would suggest reauthorization needs to 
tip the balance more towards these standards and do more to provide for 
the sustained participation of small boats and fishery dependent 
communities. Experience has established that the conservation and 
management benefits associated with limited access can be achieved with 
limited consolidation of the fleet and limited consolidation of access 
privileges. With a rational framework for fishing that eliminates the 
race for fish, a healthy resource can support a relatively large fleet, 
which in turn supports harvesting and support sector jobs and coastal 
economies. On a national level, more emphasis needs to be placed on the 
fishery management goal of healthy fishing fleets supporting thriving 
fishing communities.
    Congress can tip the balance toward healthy fishing communities by 
strengthening National Standard 8(B), removing ``To the extent 
practicable,'' or with a change to Section 303(a)(9). This section 
currently requires a fishery impact statement; we suggest Congress 
consider requiring a fishing community plan that details how small 
fishing businesses will be accommodated and what strategy will be 
implemented to provide for the sustained participation of fishing 
communities. These plans could include any number of approaches, such 
as caps on quota and fleet consolidation, area and quota set asides for 
community-based boats, permit banks, or fishery trusts. The plans would 
be designed by regional councils with the engagement of stakeholders to 
promote viable community-based fishing operations and healthy fishing 
communities for specific regions and fisheries under their 
jurisdiction.
    Certainly other aspects of the MSA could be amended to focus on the 
needs of small, independent fishing businesses and fishery dependent 
communities. We suggest these two areas as starting points and would be 
happy to work with the Committee and Congress to further develop these 
ideas.
Regulatory Flexibility: Observers and Electronic Monitoring
    Commercial fishermen operate in an increasingly regulated 
environment, and one that seems increasingly challenging to small 
businesses. This regulatory inflexibility is the second major challenge 
community-based fishing fleets face. To explain this challenge, I would 
focus the Committee's attention on catch monitoring as a prime example 
and one that we ask be addressed through reauthorization.
    Accurate monitoring of catch is important, and a goal ALFA embraces 
for all fisheries. The North Pacific has an industry funded observer 
program that was restructured in 2013. Among other changes, the 
restructured observer program expanded coverage to include the halibut 
fleet and sablefish vessels under 60 feet in length. The National 
Marine Fisheries Service (NMFS) clarified that the agency's ``primary 
monitoring need'' for the halibut/sablefish fleet was ``total catch 
composition and species discards, to complement the existing 
[International Pacific Halibut Commission] dockside monitoring 
program.'' \2\
---------------------------------------------------------------------------
    \2\ http://alaskafisheries.noaa.gov/npfmc/PDFdocuments/
conservation_issues/Observer/311
_OACreport.pdf
---------------------------------------------------------------------------
    Small boats represent 90 percent of the vessels directly regulated 
under the restructured observer program, and placing human observers on 
these vessels presents special problems. Living space on small boats is 
cramped at best. Fishermen, fisher women, and fishing families spend 
months living in a space that is roughly equivalent in size to a 
station wagon. Fishing time is weather-dependent, and boats can wait in 
town for weeks for fishable weather. Few boats have an extra bunk to 
offer an observer, and almost none can provide privacy. Observers must 
be fed and housed during and between fishing trips and vessel owners 
must purchase personal indemnity insurance and add safety equipment to 
accommodate observers. Observers need space for their sampling 
equipment and room to work both on deck and in cramped living quarters. 
In sum, human observers impose costs, safety issues, intrusions, and 
disruptions for small fishing boats and their crews.
    In contrast, electronic monitoring (EM), which is used to 
monitoring the same fisheries in neighboring British Columbia, collects 
necessary data without any of these issues. An EM unit sits idle while 
the boat waits for safe fishing weather, requiring neither a hotel nor 
food. EM units do not need bunk space to sleep. EM units do not get 
seasick, nor are they precluded from working on deck by safety concerns 
during particularly rough weather.\3\ Vessel owners do not have to buy 
additional safety equipment or purchase liability insurance for EM 
units. EM automatically turns on when a boat sets or hauls gear, 
providing an accurate and re-creatable record of catch. And EM is 
accurate. To quote a 2009 article that evaluated EM monitoring of 
yelloweye rockfish:
---------------------------------------------------------------------------
    \3\ http://www.afsc.noaa.gov/Publications/AFSC-TM/NOAA-TM-AFSC-
213.pdf. See page 54.

        Since these data come from video footage collected at the 
        moment of capture, the video estimate cannot be corrupted by 
        misreporting of discards or by dumping fish after being 
        retained. Thus, the video data provide an unbiased and 
        virtually independent catch estimate--rare in fisheries 
        monitoring--that captures the extent to which the official 
        catch accounting systems might be biased.\4\
---------------------------------------------------------------------------
    \4\ http://dx.doi.org/10.1577/C09-005.1.

    Alaska's halibut/sablefish fleet uses hook and line gear to harvest 
fish. Fish are hauled aboard one at a time, which makes this fleet 
particularly well suited to EM. As each fish is brought aboard, it can 
be recorded on video. Likewise the gear, a single line with hooks 
attached, is deployed from one point on the boat and can easily be 
video monitored. In short, EM can be used to secure the catch and 
bycatch data NMFS identified as its objective for this fleet.
    During the two years leading to implementation of the restructured 
observer program, ALFA and other fixed gear organizations highlighted 
the importance of providing an integrated catch monitoring system that 
included EM to be compatible with small boats. To ensure EM was ready 
for implementation concurrent with the 2013 launch of the restructured 
observer program, ALFA initiated an EM Pilot Program 2011. Likewise, 
the Council signaled its intent that EM be used as an alternative to 
human observer coverage. The Council stated:

        ``The Council also approved a motion to task the Observer 
        Advisory Committee, Council staff, and NMFS staff to develop 
        electronic monitoring as an alternative tool for fulfilling 
        observer coverage requirements with the intent that it be in 
        place at the same time as the restructured observer program.'' 
        \5\
---------------------------------------------------------------------------
    \5\ http://alaskafisheries.noaa.gov/npfmc/PDFdocuments/
conservation_issues/Observer/Obser
verMotion610.pdf

    In the pilot program, ALFA's responsibility was to refine EM 
deployment and operation, capturing costs and equipment effectiveness. 
NMFS' role was to identify the performance standards and regulatory 
structure necessary to integrate EM with the restructured observer 
program. As the Council noted, the pilot program was ``intended to 
provide operational experience and thus a basis for adding any 
necessary specificity to the regulations.'' \6\
---------------------------------------------------------------------------
    \6\ http://alaskafisheries.noaa.gov/npfmc/PDFdocuments/
conservation_issues/Observer/Coun
cil_EMLtr051412.pdf.
---------------------------------------------------------------------------
    EM lived up to the fleet's expectation regarding performance, 
dependability and costs. Over two years, EM systems were deployed on 41 
fishing trips and monitored 215 longline hauls. The EM systems captured 
a complete video record of 95.3 percent of the hauls. Notably, 94 
percent of captured fish on sets reviewed were identified by species, 
with the remainder identified to a species grouping (e.g., rougheye/
shortraker rockfish). It is also significant that at $200-$330 per day, 
EM monitoring costs were less than observer costs under Alaska's 
previous ``pay as you go'' observer program and \1/3\ of the $980 per 
day observer costs under the 2013 restructured observer program. This 
finding is consistent with data from EM pilot programs in the U.S. and 
with the British Columbia EM program, which have daily costs that range 
from $194 per day to $580 per day, with the upper end cost in a 
Canadian trawl fishery.\7\ In short, EM promises significant cost 
savings to the fishing industry, where observer programs are industry 
funded, and savings to NMFS where the Federal Government is footing the 
bill. EM has also proved reliable and fully capable of providing the 
assessment of catch and catch composition that NMFS identified as the 
primary monitoring objective for the North Pacific halibut/sablefish 
fisheries.
---------------------------------------------------------------------------
    \7\ http://www.pcouncil.org/wp-content/uploads/EM_AttB2b-
Att1_FG_MorroBayPilot.pdf, p. 31.
---------------------------------------------------------------------------
    Despite these promising results, EM was dropped from the 
restructured observer program months before implementation. In its 
place, NMFS provided a voluntary EM pilot program in 2013 that did not 
provide an alternative to observer coverage. NMFS' current focus is on 
testing new EM technology that automates review but requires stereo 
cameras in a controlled environment. This technology may prove reliable 
at some future point and may be compatible with small boats, although 
the former is uncertain and the later appears unlikely given costs and 
deck space requirements associated with this new system. Please 
remember that cost effective, reliable, and fleet compatible EM systems 
are available and in use now in other countries to gather at sea data. 
The absence of this monitoring alternative in the U.S. is inflating 
observer costs and contributing to fleet consolidation and job loss, 
particularly in small boat fisheries.
    ALFA supports the collection of at-sea fisheries data to support 
sustainable management of our marine resources. We also support ongoing 
technology development. That said, an open ended pursuit of the perfect 
should not be the enemy of the good. We continue to work toward EM 
integration in Alaska and, with the support of our Congressional 
delegation, recently engaged NMFS in an Alaska EM fixed gear workshop 
to develop EM cooperative research strategies for 2014. This 
cooperative research will continue to pilot test the new stereo EM 
systems but will also deploy proven EM technology with pre-
implementation objectives, a focus on fleet and community capacity 
building, and rapid feedback to vessel operators to improve 
performance.
    To ensure success of this cooperative effort and EM advancement on 
a national scale, long-term funding, open collaboration, and 
Congressionally mandated commitment to EM integration are a necessity. 
We ask that Congress assist in furthering EM in Alaska and nation-wide 
by strengthening two MSA sections and creating a catch monitoring 
section:

  (1)  Section 313 of the Magnuson-Stevens Act authorizes the North 
        Pacific Council, in consultation with the Secretary of 
        Commerce, to establish a fee system to fund Alaska's observer 
        program. The fee may be used to ``. . . station observers or 
        electronic monitoring systems on board fishing vessels . . .'' 
        \8\ At present, the full revenue stream from the industry is 
        dedicated to deploying observers on boats in Alaska and NMFS 
        has determined that fees cannot be used to develop EM 
        alternatives without further regulatory action. That needs to 
        change. Observer fees paid by the industry must be available 
        for EM development and deployment. A portion of the observer 
        tax revenue generated by the sablefish/halibut fleet should be 
        dedicated to EM deployment as an alternative to observers. Only 
        then EM will have a sustained, industry-funded revenue source.
---------------------------------------------------------------------------
    \8\ http://www.nmfs.noaa.gov/sfa/magact/

  (2)  Section 303(b)(8) Discretionary provisions, amend to read: 
        Require electronic monitoring, as a first consideration, or 
        observers be carried on board a vessel of the United States 
        engaged in fishing for species that are subject to the plan, 
        for the purpose of collecting data necessary for the 
        conservation and management of the fishery; except that such a 
        vessel shall not be required to carry an observer on board if 
        the facilities of the vessel for the quartering of an observer, 
        or for carrying out observer functions, are so inadequate or 
        unsafe that the health or safety of the observer or the safe 
---------------------------------------------------------------------------
        operation of the vessel would be jeopardized; (change in bold)

  (3)  ALFA requests the following directives be included in a new 
        catch monitoring/EM section:

    <bullet> Direct NMFS to identify fishery specific monitoring 
            objectives for all fisheries with at-sea monitoring 
            requirements, and to include all stakeholders in the 
            planning process from the beginning to identify the right 
            combination of cost effective and fleet compatible 
            monitoring tools;

    <bullet> Direct NMFS to provide EM to small fixed gear boats now, 
            as an alternative to observers, where at-sea monitoring is 
            required.
Summary
    In sum, ALFA's membership recognizes that the MSA created a 
successful management structure for our Nation's fisheries and we have 
benefited from that success in the North Pacific. The heightened 
emphasis on resource rebuilding that was central to the last 
reauthorization is still essential to long-term resource health and we 
ask that Congress recommit to resource goals. Healthy fisheries need 
fish and productive ecosystems.
    We ask that the Committee also recognize the unintended 
consequences of fleet consolidation and the growing trend toward too 
few fishermen. These trends are creating significant challenges for the 
Nation's small fishing businesses and fishery dependent communities. 
Independent small boat fishermen need affordable access to a diverse 
array of fisheries and a flexible regulatory system scaled to meet 
their needs. Coastal fishing communities need relatively large, diverse 
fleets that provide jobs, revenue and long-term viability. We ask that 
the Committee build on existing National Standards and guidelines to 
identify durable strategies that strengthen small fishing businesses 
and secure sustained community participation in local fisheries. 
Finally, we urge the Committee to consider amendments to support 
integration of EM with existing and proposed catch monitoring systems 
to collect high quality data that is cost effective and fleet 
compatible.
    Thank you for the opportunity to testify.

    Senator Begich. Thank you very much.
    Next, I have Mr. Gease.
    Ricky? You're next. Thanks.

         STATEMENT OF RICKY GEASE, EXECUTIVE DIRECTOR, 
              KENAI RIVER SPORTFISHING ASSOCIATION

    Mr. Gease. Yes.
    Thank you, Mr. Chairman, members of the Committee.
    My name is Ricky Gease. I am the Executive Director of 
Kenai River Sportfishing Association and I recently served on 
the Morris-Deal Commission that looks for a vision of 
recreational fisheries management nationally, and also 
integration into the Magnuson-Stevens Act.
    I want to first say that I think the Magnuson-Stevens Act 
is very successful and I support its reauthorization.
    I want to take a moment to describe how you make a gem. 
There are three stages to gem making: first is you make a rough 
cut, you get the basic shape and characteristics; the second 
stage is you make the finishing cuts where you get all the 
facets in place; and the third stage is you polish the gem so 
it sparkles and shines.
    I think in the reauthorization process, we can hear from 
the commercial fisheries that we're in the polishing stage 
where we try and make these fisheries sparkle and shine. For 
conservation, I think we're in the second stage where we're 
trying to figure out all the different facets of the 
conservation that was based in the 2006 reauthorization 
process. For example, are the 10-year timelines correct for 
species that are long-lived, or maybe very low abundance, or 
incidentally caught, or we don't have enough data on it for 
scientific research?
    I think for the recreational fisheries in this country, 
we're asking to be in stage one in this reauthorization process 
where we get the basic definitions, characteristics, and tools 
in the toolbox for regulators and managers to realize the full 
economic and social values of these very important recreational 
fisheries. I think on board are people on the regional councils 
and advisory panels that represent the recreational community. 
I think NOAA is on board. They're having recreational summits, 
the second one this year in 2014. They had the first one in 
2011. I think MFAC, to the Secretary of Commerce, is on board 
with this, and I just talked about the Morris-Deal Commission 
that has a set of recommendations out for national recreational 
fisheries.
    Fundamentally, recreational fisheries are different in 
management than commercial fisheries and they differ in four 
important manners. First one is: Recreational fisheries have a 
currency based in angler days, not in poundage harvested by the 
metric ton as in the commercial fisheries.
    The second one has to do with maximum sustained production: 
Getting the most number of fish in an ecosystem, so anglers 
have a--more fish means more angler days, basically. That's in 
contrast with our commercial fisheries where you're looking for 
maximum sustain yields, where the harvest is maximized so, you 
know, through processors and harvesters and it goes through 
into the retail markets on to the consumer.
    Fourth way--or the third way then is: In recreational 
fisheries we want stable seasons and we want stable bag limits. 
So there's not a lot of in-season tweaking to what's happening 
in a recreational fishery. In our commercial fisheries, we have 
very intense data management-driven systems so that you can 
fish at MSY without overfishing.
    I think in the fourth way they differ is just in the 
economics themselves. Commercial fisheries generate small 
values per fish multiplied over large volumes of fish 
harvested. In the recreational fisheries there are large values 
generated but from the smaller numbers of fish. And those 
values percolate into the tourism industry, the retail industry 
through gear, boats, fishing rods and reels, and also into the 
transportation industry, and then also into the real estate 
industry, where people, to pursue their passion for fishing, 
buy second homes and cabins and whatnot.
    I think, in Alaska, there are some important issues that we 
talk about in terms of economics. The king salmon issue has 
been brought up, I think, in the Cook Inlet recent declaration 
for king salmon. We've had some uncertainty whether or not the 
recreational losses that happen in Cook Inlet, whether they 
really factored into the overall allocation, or how they 
factored into the overall allocation for those losses that we 
experience in 2012.
    I think in terms of the catch sharing plan for halibut, 
there were a couple of issues. One with catch shares, and with 
the allocation process. With catch shares, it's a great tool 
for the commercial fishing industry, but I think a better 
approach in the recreational industry is not individualized 
shares but a collective share, either based on a local level or 
on a regional level, where there are agencies that can have 
quota for the recreational sector. And we're unclear as to 
whether or not those tools exist in the toolbox currently in 
MSA.
    And then, finally, for allocations, in the allocation 
issues on that. The decision between the halibut catch share 
plan was based on historical harvests of fish and not 
necessarily on social economic data. And I think that's an 
adjustment that we can look forward to to try and get more of 
our allocation decisions based on socioeconomic data instead of 
just historical harvest data.
    Thank you for the opportunity.
    [The prepared statement of Mr. Gease follows:]

        Prepared Statement of Ricky Gease, Executive Director, 
                  Kenai River Sportfishing Association
    Thank you Mr. Chairman, members of the Committee, for the 
opportunity to testify on the reauthorization of the Magnuson-Stevens 
Fishery Conservation and Management Act (Magnuson-Stevens Act or MSA).
    First, MSA has been successful and I support reauthorization. 
Second, recreational fisheries values need to be given due 
consideration in the reauthorization.
    The metrics that define success, and therefore the management 
strategies, between recreational and commercial fisheries are 
fundamentally different. While the purposes of the Act would be 
beneficial to both commercial and recreational fisheries conservation, 
the application of the Acts regulatory mechanisms and Stakeholder 
involvement largely focuses on commercial fisheries to the exclusion of 
recreational fisheries interests. In the current reauthorization 
process for MSA, a principal focus needs to be a clear recognition and 
understanding of the essential nature of recreational fisheries 
management, and then delivery of the necessary and proper tools to both 
regulators and managers so that recreational fisheries can be managed 
to realize their full economic and social values.
    Successful management of recreational fisheries differs from 
commercial fisheries in fundamental ways:

 1.  Angler days (daily bag limits) vs. poundage (metric tons): whereas 
        commercial fisheries maximize value by the metric ton, as 
        measured by pounds of fish harvested and processed, 
        recreational fisheries maximize economic and social values by 
        optimizing the overall number of angler days sustained in a 
        manner that provides for a reasonable expectation of harvesting 
        fish throughout the season.

 2.  Maximum sustained production (MSP) vs. maximum sustained yield 
        (MSY): while economic value is optimized in commercial 
        fisheries when managing for maximum sustained yield, economic 
        and social values are optimized in recreational fisheries when 
        managing for maximum sustainable production. More fish 
        available in the overall ecosystem means more opportunity for 
        the angler to catch a fish--more fish means more angler days.

 3.  Predictable seasonal management vs. flexible inseason management: 
        whereas management for MSY in commercial fisheries requires 
        that intense, timely and flexible inseason management systems 
        be in place, management for MSP in recreational fisheries, 
        through a conservative approach in daily and or annual bag 
        limits, allows for seasonal reporting predicated on minimizing 
        the need for inseason adjustments to methods and means or bag 
        limits.

 4.  Value-added economics vs. value economics: while the economics of 
        commercial fisheries are based upon profit generated by the 
        metric ton, with smaller margins per fish generated from large 
        numbers of harvested fish, the economics of recreational 
        fisheries is the inverse, where profit is generated from angler 
        opportunity that produces larger margins per fish on fewer 
        numbers of harvestable fish. Whereas profits from commercial 
        fisheries are typically realized within the seafood industry 
        (harvesters, processors, wholesalers, retailers), profits from 
        recreational fisheries are typically more widespread to include 
        the tourism, retail, and real estate industries (charters, 
        lodging, restaurants; fishing equipment such as boats, rods, 
        reels, tackle; and secondary residences for fishing, 
        respectively.)

    The value and benefits of recreational fisheries are largely 
ignored in the current authorization of MSA and the current MSA 
reauthorization process is the time to finally address this shortcoming 
with respect to recreational fisheries management. To illustrate this 
pressing need, let's look at our experiences with management of 
recreational fisheries in Alaska.
The Alaskan Experience in Recreational Fisheries Management
    Fisheries are big business in Alaska. Commercial fisheries in 
Alaska generate roughly one half of the landings of the U.S. commercial 
fishing industry.\1\ Recreational fisheries in Alaska are among the top 
five states in generating non-resident fishing expenditures.\2\ 
Together these fisheries generate approximately $6 billion \3\ in 
economic impacts and contributions to the Alaskan economy, with 
recreational values about $1.4 billion \4\ of the overall total, and 
split evenly between resident and non-resident angler activity.
---------------------------------------------------------------------------
    \1\ NOAA Fisheries, Fisheries of the United States, 2012 (2013), 
www.noaa.gov/commercial-fisheries/fus/fus12/
    \2\ American Sportfishing Association, Sportfishing in America: An 
Economic Force for Conservation (2013), asafishing.org/uploads/
Sportfishing_in_America_January_2013.pdf
    \3\ Marine Conservation Alliance, The Seafood Industry in Alaska's 
Economy (2011), www.marineconservationalliance.org/wp-content/uploads/
2011/02/SIAE_Feb2011a.pdf
    \4\ Alaska Department of Fish and Game, Economic Impacts and 
Contributions of Sportfishing in Alaska, 2007 Report (2008), 
www.adfg.alaska.gov/static/home/library/pdfs/sportfish/2007
economic_impacts_

  <bullet> In Alaska, commercial and recreational fisheries generate 
        comparable tax revenues to state and local governments, both 
        typically in the $100 million plus range.\5\
---------------------------------------------------------------------------
    \5\ Alaska Resource Development Council, RDC Annual Report (2013), 
www.akrdc.org/membership/annualreport/annualreport2013.pdf

  <bullet> About 80 percent of all angler activity in Alaska is focused 
        on salmon and halibut, both species that are influenced by the 
        regulatory authority of the MSA. Recreational fisheries utilize 
        less than five percent of the overall salmon harvests and less 
        than 10 percent of the overall halibut harvests in Alaska.\6\
---------------------------------------------------------------------------
    \6\ Kenai River Sportfishing Association, Economic Values of Sport, 
Personal Use, and Commercial Salmon Fishing in Upper Cook Inlet (2008), 
www.krsa.com/documents/KRSA%20
Economic%20Values%20Report.pdf

  <bullet> The Cook Inlet basin in Southcentral Alaska is home to the 
        state's largest population center with some 400,000 residents, 
        nearly two thirds of the overall population. Half of all 
        tourism trips occur in the Cook Inlet region--while one in five 
        visitors buy a non-resident sport fish license, these sport 
        anglers generate 40 percent of the tourism revenues in 
        Alaska.\7\
---------------------------------------------------------------------------
    \7\ McDowell Group, Inc., Alaska Visitor Statistics Program VI: 
Summer 2011 (2012), www.mcdowellgroup.net/pdf/publications/2011AVSP-
FullReport.pdf

  <bullet> In Cook Inlet, nearly 200,000 resident and non-resident 
        anglers generate 60 percent of all recreational fishing 
        activity in Alaska. The Kenai River watershed supports the 
        largest and most intensively used recreational fisheries in the 
        state.\8\
---------------------------------------------------------------------------
    \8\ Kenai River Sportfishing Association, Economic Values of Sport, 
Personal Use, and Commercial Salmon Fishing in Upper Cook Inlet (2008), 
www.krsa.com/documents/KRSA%20Eco
nomic%20Values%20Report.pdf

  <bullet> Fisheries in Cook Inlet are a $1 billion industry, with 
        recreational fisheries generating some $800 million \9\ and 
        commercial fisheries generating some $200 million \10\ in 
        economic value. Commercial fisheries harvest more than 80 
        percent of the salmon and halibut caught in Cook Inlet, while 
        recreational fisheries harvest less than 20 percent of these 
        fish.\11\
---------------------------------------------------------------------------
    \9\ Alaska Department of Fish and Game, Economic Impacts and 
Contributions of Sportfishing in Alaska, 2007 Report (2008), 
www.adfg.alaska.gov/static/home/library/pdfs/sportfish/2007
economic_impacts_
    \10\ Alaska Salmon Alliance, Cook Inlet Drift and Set Net Salmon 
Fisheries (2013), www.aksalmonalliance.org/wp-content/uploads/2013/06/
AlaskaSalmonAllianceReport060713
.pdf
    \11\ Kenai River Sportfishing Association, Economic Values of 
Sport, Personal Use, and Commercial Salmon Fishing in Upper Cook Inlet 
(2008), www.krsa.com/documents/KRSA%20Econo
mic%20Values%20Report.pdf

  <bullet> In terms of generating food security for Alaskans, 
        especially lower income families, ample access to locally 
        harvested seafood by residents in the recreational fisheries of 
        Cook Inlet affords people who live on the Kenai Peninsula to 
        eat three times the national average of seafood per year. On 
        the Kenai, 90 percent of seafood eaten by residents originates 
        in the non-commercial fisheries; 50 percent of households eat 
        fish two or more times a week, while 40 percent eat fish once a 
        week.\12\
---------------------------------------------------------------------------
    \12\ Loring, Phillip, Gerlach, Craig, Harrison, Hannah, Food 
Security on the Kenai Peninsula, Alaska: A Report on Local Seafood Use, 
Consumer Preferences, and Community Needs (2013), http://ine.uaf.edu/
werc/wp-content/uploads/2013/02/Loring-et-al-2012-Kenai-Peninsula-Food-
Security-Report-vfinal.pdf

    In Cook Inlet, the economic and social values of recreational 
fisheries greatly surpass those of the commercial fisheries by every 
available measure. Recreational fisheries are a classic value-added 
industry, and Cook Inlet is a prime example of this. State and Federal 
fisheries management systems--designed primarily to accommodate 
commercial fisheries--continue to grapple with the profound and ongoing 
challenges of integrating two fundamentally different visions of 
fisheries management in Cook Inlet, Alaska and elsewhere in the Nation.
    Regionally, the most recent example of the ongoing and 
institutionalized bias against recreational fisheries comes in the form 
of the 2012 Federal emergency economic disaster declaration by the 
Secretary of Commerce for king salmon in Alaska, which includes the 
Yukon, Kuskokwim and Cook Inlet regions in Alaska.\13\
---------------------------------------------------------------------------
    \13\ Acting Secretary of Commerce Rebecca Blank, Department of 
Commerce Determination for Alaska (2012), www.nmfs.noaa.gov/stories/
2012/09/09_13_12disaster_determinations.html
#see below
---------------------------------------------------------------------------
    In Cook Inlet, 2012 estimates of lost revenues from low numbers of 
returning king salmon were $33 million, with $17 million in the 
recreational fisheries and $16 million in the commercial fisheries. 
Problematic issues in Cook Inlet with the Federal declaration include:

  <bullet> While significant losses have occurred in the Cook Inlet 
        recreational fisheries since 2011 due to conservation issues 
        with king salmon, only the commercial losses in 2012 have so 
        far triggered an economic disaster declaration in Cook Inlet 
        salmon fisheries.

  <bullet> Debate is now ongoing at the state and Federal level as to 
        whether or not economic losses in the Cook Inlet recreational 
        fisheries in 2012 can be counted towards the overall lost 
        fishing revenues to the region, or do only the commercial 
        fishery losses count, based on competing interpretations of 
        current MSA language.

  <bullet> There is no discussion of the continuing economic losses 
        being realized in the Cook Inlet recreational fisheries, 
        whereas continuing economic losses in the commercial fisheries 
        along the Yukon due to king salmon conservation issues are 
        being tracked and accounted for in ongoing economic disaster 
        declarations.

  <bullet> In 2002 the Kenai king salmon fishery was voted as the 
        number one sport fishery in the United States by Field and 
        Stream; in the past few years the inseason restrictions and 
        closures of the Kenai king sport fishery has made front page 
        news of the Wall Street Journal, yet questions remain if such 
        economic losses are applicable.

    Regarding halibut in Cook Inlet and Alaska, for more than two 
decades there has been a contentious and ongoing dialogue on how to 
best conserve and allocate halibut between the recreational and 
commercial sectors. Catch shares and allocation have been front and 
center in the debate.
    Commercial catch shares for halibut in Alaska have been used 
successfully but their application to recreational fisheries remains 
controversial:

  <bullet> While catch shares in Alaska through commercial halibut IFQs 
        have proven to be a beneficial tool for commercial fisheries 
        management (reduced excess capitalization, increased prices, 
        improved safety and fish quality), their implementation in 
        recreational fisheries has been strongly resisted as being the 
        wrong tool and impracticable.

  <bullet> There have been repeated failed attempts to introduce catch 
        shares into the recreational community on an individualized 
        basis through charter captains, whereas industry primarily 
        supports a collective approach where the halibut allocation is 
        provided to the charter sector as a whole then distributed 
        through the traditional sport fishing management tools of 
        methods and means, time and area, such as daily and or seasonal 
        bag limits.

  <bullet> Despite this, regulatory efforts still continue to force use 
        of individualized catch shares in recreational fisheries 
        through the Guided Angler Fish in the new Halibut Catch Share 
        Plan. The recreational sector in Alaska is clear in its 
        opposition to an individualize approach to catch shares in 
        halibut management.

  <bullet> The recreational fishing sector continues to be supportive 
        of a market based solution whereby a fiscal mechanism exists to 
        compensate reallocations of halibut in either direction between 
        the recreational sector as a whole and commercial IFQ holders. 
        Currently there is no such sector based approach for the 
        recreational fishing industry as a whole to acquire, hold and 
        trade halibut quota.

    Allocation between the recreational and commercial sectors in the 
recent Halibut Catch Share Plan was based primarily on historical 
harvest data, not socio-economic data that would have based the primacy 
of allocation on an overall optimization of economic values of these 
fish.

  <bullet> Federal regulators, managers and researchers basically 
        punted when it came time to generate useful socio-economic data 
        on the recreational sector that could be used when deciding how 
        best to allocate the halibut resource between competing 
        sectors.

  <bullet> A variety of reasons were given in setting aside useful 
        discussion of economic performance in the recreational sector--
        too difficult to generate data, too expensive to generate data, 
        lack of familiarity with how socio-economic values are 
        generated in recreational fisheries, not sure how to compare 
        economic values between recreational and commercial fisheries.

  <bullet> Nationally, NOAA does not generate economic values for 
        recreational fishing in its annual report Fisheries of the 
        United States. However, many state, industry, university, and 
        non-governmental agencies can and do generate economic 
        performance data and reports for recreational fisheries in the 
        United States.
Summary
    Currently we lack standardized and operational methodologies to 
first account for economic values generated in recreational fisheries 
and then to provide economic analysis that puts all participants on 
equal footing in evaluating economic impacts and contributions of 
allocation decisions on national, regional and local economies. One 
cannot really imagine the landscape of our national or global financial 
markets if economic data on the performance of either stocks or bonds 
was unavailable in a timely manner, yet we continue to do so in the 
development and allocation of our national fisheries resources.
    In Alaska and elsewhere in the United States, the recreational 
fishing community has long endured the adverse impacts that stem from 
the lack of recognition and corresponding lack of appropriate 
regulatory and management tools for recreational fisheries in MSA.
    In the development of a gem stone, there are three stages: the 
first step is the initial rough cut; the second part involves refining 
and finishing cuts; and the third phase centers on multiple turns of 
polishing with increased refinement until a sparkle and shine.
    Relative to this current MSA reauthorization process, I think it 
would be fair to characterize the following:

  <bullet> For commercial fisheries, we are in the polishing stage as 
        many of the facets have already been cut and refined in the 
        initial and subsequent versions of the MSA;

  <bullet> Regarding conservation issues, with the rough cuts made in 
        the 2006 MSA reauthorization that aimed to end overfishing in 
        10 years, we are most likely in the second stage, with further 
        refinements necessary in the 10 year timelines relative to 
        long-lived species, to those species where scant research data 
        is available, and or those species that are sporadic or sparse 
        in abundance.

  <bullet> For recreational fisheries, we find ourselves still awaiting 
        action for the initial rough cut, where the characteristics and 
        nature of the Nation's recreational fisheries are functionally 
        recognized in MSA.

  <bullet> It is reasonable that recreational fishery management 
        objectives be stated in terms of angler-days of opportunity 
        alongside guideline harvest quotas for shared fisheries.

    The national recreational fishing community has been proactive in 
developing a conceptual framework for how recreational fisheries can 
and should be incorporated into the MSA. More so now than ever before, 
one can hear the recreational fishing voices from local, regional and 
national perspectives:

  <bullet> recreational fishing advocates on the regional fishery 
        councils and advisory panels;

  <bullet> those on the Marine Fishery Advisory Committee to the 
        Secretary of Commerce;

  <bullet> those who participated in the Morris-Deal Commission on 
        Recreational Fishing;

  <bullet> those attending the upcoming 2014 NOAA Fisheries Saltwater 
        Recreational Fishing Summit; and

  <bullet> the millions of anglers who want to know that their voices 
        are heard, concerns are met, and ultimately that conservation 
        of our national marine fisheries and management of recreational 
        fishing is secure.

    Thank you for the opportunity to provide a perspective from a 
member of the Alaskan recreational fishing community. MSA has been 
successful and I support its reauthorization. Recreational fisheries 
values need to be given due consideration during the reauthorization 
process. MSA needs to recognize the unique ability of the recreational 
fishing community to generate very large economic values and important 
jobs, so that the full capacity of this value added industry is fully 
realized. Our hope is that this process will produce a more productive 
dialog that furthers the cause of marine conservation while providing 
recreational anglers with access and meaningful opportunity to our 
national fishery resources.

    Senator Begich. Thank you very much.
    Michael LeVine.

                 STATEMENT OF MICHAEL LeVINE, 
                 PACIFIC SENIOR COUNSEL, OCEANA

    Mr. LeVine. Good morning, Mr. Chairman and Senator 
Cantwell.
    My name is Michael LeVine. I'm Pacific Senior Counsel for 
Oceana. Oceana is an international non-profit organization 
dedicated to using science, law, and public engagement to 
protect and restore the world's oceans. Our Pacific work is 
headquartered in Juneau, Alaska. And I, along with eight 
colleagues, live and work there.
    As you know well, Mr. Chairman, Alaskans have a special 
connection to the oceans. We are fortunate that for the most 
part, Alaska's oceans are healthy, vibrant and productive. And 
we depend on those healthy ocean ecosystems for economic 
opportunity, food security, recreation, cultural continuity, 
and many other aspects of our daily lives.
    Our challenge now, in Alaska and around the country, is to 
make sustainable choices. In the face of changing conditions, 
including ocean acidification and growing population, how do we 
best meet our needs today without sacrificing the ability of 
future generations to meet theirs? Fortunately, the principle 
law governing management of fisheries provides tools and 
incentives to meet that challenge by moving toward ecosystem-
based management.
    The Magnuson-Stevens Act reflects a commitment to 
sustainable management and conservation of ocean resources in 
Alaskan waters and in the rest of the country. And it has been 
remarkably successful in meeting that goal. The success of the 
Magnuson-Stevens Act is reflected in the large invaluable 
commercial fisheries in the Gulf of Alaska, Bering Sea and 
Aleutian Islands. These fisheries generate vast revenue, food 
and employment and they are generally recognized as some of the 
best managed in the world.
    Healthy fisheries like these depend on healthy ocean 
ecosystems. They also affect those ocean ecosystems by removing 
large quantities of fish every year and reducing populations by 
60 percent or more from their historic averages. If not 
properly managed, the substantial removals of biomass and other 
important impacts of large commercial fisheries, like bycatch 
and habitat destruction, can significantly alter the marine 
environment. We must, therefore, make choices about fisheries 
that ensure protection of the marine ecosystem on which they 
depend.
    Ecosystem-based management approaches are the most 
effective way to guide those choices. For fisheries, ecosystem-
based management requires moving away from decisions focused 
narrowly on one species or stock. It is not sufficient simply 
to maintain populations of individual species at levels that 
will sustain commercial fisheries. Rather, managers must seek 
to maintain the ecosystem in a healthy, productive and 
resilient condition so that it can provide the services like 
fisheries that humans need and want.
    The North Pacific Fishery Management Council in Alaska 
region of the National Marine Fisheries Service have been 
leaders in the effort to implement these approaches. At its 
most recent meeting, the North Pacific Fishery Management 
Council voted unanimously to adopt an ecosystem approach and 
vision statement. The Council's action builds on its leadership 
to further a conversation about the ecosystem and to consider 
ecosystem impacts and its decisions about fisheries.
    Congress can enhance these efforts by taking action, as it 
has in past reauthorizations, to strengthen the conservation 
mandate in the Magnuson-Stevens Act by providing additional 
tools and direction for ecosystem-based management. Congress 
can formalize some of the strategies from the North Pacific, 
requiring development and implementation of fishery ecosystem 
plans, for example, and formally requiring protection of forage 
species. It can also resist calls to undermine conservation 
measures under the guise of needed flexibility. Annual catch 
limits and specific rebuilding targets are important tools that 
have worked well in Alaska. They should not be changed to allow 
for decisions that prioritize short-term benefit over long-term 
sustainability. Nor should Congress undermine the National 
Environmental Policy Act. For all of their strengths, neither 
the substantive provisions in, nor the public process required 
by the Magnuson-Stevens Act substitute for NEPAs directives to 
consider a full range of alternatives and potential impacts to 
the environment.
    More generally, good government choices are based on open, 
inclusive, and fair processes. The oceans are a public resource 
managed by public agencies and information collected pursuant 
to that management should be available to the public. 
Additional restrictions, either currently in place or purposed, 
are neither desirable nor necessary. Good management also 
requires diverse participation and broader representation on 
councils, including tribes and conservation organizations, will 
help achieve that goal.
    Ultimately, good decisions will maximize benefits and 
efficiencies. It is certainly true that some of the economic 
benefit from commercial fisheries returns to the states, United 
States, and their residents. But it may be time to think 
carefully about whether we Alaskans and Americans are getting 
fair value. We also must think carefully about where we are 
investing our limited resources. There is a very clear need for 
science to guide management. We can and must find ways to 
increase funding for science that will help us better manage 
individual stocks and better understand the ocean ecosystem and 
the impacts of fisheries on it.
    We all want healthy ocean ecosystems that support 
sustainable fisheries and vibrant communities. Though there is 
more to do, the Magnuson-Stevens Act has been overwhelming 
successful in helping move toward that goal. The very best 
thing we can do for the future of our oceans, and all of us, is 
to continue that momentum toward ecosystem-based management.
    [The prepared statement of Mr. LeVine follows:]

  Prepared Statement of Michael LeVine, Pacific Senior Counsel, Oceana
    Good morning, Mr. Chairman and Members of the Committee. Thank you 
for the invitation to participate in today's hearing. My name is 
Michael LeVine, and I am Pacific Senior Counsel for Oceana. Oceana is 
an international nonprofit conservation organization dedicated to using 
science, law, and public engagement to maintain and restore the world's 
oceans. Our headquarters are in Washington, DC, and we have offices in 
five states as well as Belgium, Belize, Spain, Denmark, and Chile. 
Oceana has more than 600,000 members and supporters from all 50 states 
and from 250 countries around the globe. Our Pacific work is 
headquartered in Juneau, Alaska, and, together, our Pacific staff has 
more than 180 years of experience working and living in Alaska.
    Oceana seeks to further the movement toward ecosystem-based 
management for healthy ocean ecosystems that include sustainable 
fisheries and vibrant communities. Our work in Alaska is central to 
that mission. The ocean waters off Alaska are vibrant and diverse--from 
relatively temperate areas in Southeast Alaska to the cold water coral 
gardens in the Aleutian Islands to the remote Chukchi and Beaufort 
seas. All of these productive waters provide important habitat for a 
diverse array of fish, seabirds, and mammals. This biological abundance 
helps support communities, recreation, and some of the most important 
commercial fisheries in the world.
    Ecosystem-based management approaches are key to maintaining the 
healthy and resilient marine ecosystems that are the foundation of 
sustainable fisheries over the long-term. Changing climate and ocean 
conditions, habitat destruction, and declines in predator populations 
highlight the need to implement ecosystem-based management approaches, 
and the North Pacific Fishery Management Council (NPFMC) and National 
Marine Fisheries Service (NMFS) have taken important steps to move in 
this direction. The standards and process established by the Magnuson-
Stevens Fishery Management and Conservation Act (MSA) are integral to 
those efforts, and we believe that--for the most part--the system is 
working well. In past reauthorizations, Congress has advanced the 
conservation mandate of the MSA by strengthening or adding provisions 
designed to further precautionary decisions and ecosystem-based 
management, and we encourage you to do so again. Fundamental changes 
are not necessary, and, certainly, Congress should resist efforts to 
move backwards toward a regime that we know leads to unsustainable 
fisheries and poor management of ocean resources.
    My testimony today will focus on the importance of the ocean waters 
off Alaska and the manner in which the NPFMC and NMFS have implemented 
the MSA there. I will discuss the successes in moving toward ecosystem-
based management and the opportunities to improve science, 
transparency, and representation.
I. The North Pacific and Arctic Oceans
    Oceans and seas are our largest public domain. They cover more than 
70 percent of the world's surface, and good stewardship of our ocean 
resources is vital to our lives and livelihoods. As the U.S. Commission 
on Ocean Policy recognized, ``the importance of our oceans, coasts, and 
Great Lakes cannot be overstated; they are critical to the very 
existence and well-being of the Nation and its people.'' Similarly, 
President Obama wrote that ``America's stewardship of the ocean, our 
coasts, and the Great Lakes is intrinsically linked to environmental 
sustainability, human health and well-being, national prosperity, 
adaptation to climate and other environmental changes, social justice, 
international diplomacy, and national and homeland security.''
    Oceans provide economic opportunity, sustenance, recreation, 
cultural connection, and a variety of other services. Together, 
recreational and commercial fisheries provide over 1.5 million jobs in 
the United States. Coastal tourism provides another 28.3 million jobs 
and generates $54 billion in goods and services annually. In addition, 
oceans provide essential protein to nearly half the world's population. 
More than one billion people worldwide depend on fish as a key source 
of protein, and wild-caught ocean fish currently provide about as much 
animal protein to humans as eggs do. For these reasons and others, our 
priority for future decisions must be ensuring the long-term viability 
of our ocean resources through sustainable management based on science 
and precaution.
    Nowhere are these statements and their implications for management 
more important than in Alaska. Our ocean waters--the Gulf of Alaska, 
Bering Sea, Aleutian Islands, and Chukchi and Beaufort seas--support 
rich and diverse marine life and important fisheries.
A. The Gulf of Alaska, Bering Sea, and Aleutian Islands
    The Exclusive Economic Zone in the Gulf of Alaska, Bering Sea, and 
Aleutian Islands is larger than the combined Federal waters off the 
east and west coasts of the United States. It is home to thirty-eight 
species of seabirds, twenty-six species of marine mammals (including 
seals, Steller sea lions, walrus, sea otters, polar bears, whales, 
dolphins, and porpoises), and thousands of species of fish and 
invertebrates. As in all ecosystems, this richness and diversity are 
part of a complex, interconnected food web. Fish play vital roles in 
this food web, which supports other species, including humans.
    The Aleutian Islands ecosystem, in particular, is one of the most 
vibrant, dynamic, productive and rare ocean environments on the planet. 
At more than 1,000 miles, the Aleutian Islands form the longest 
archipelago in the world, and the area draws millions of seabirds and 
hundreds of thousands of marine mammals each year. The Aleutian Islands 
support more than 450 species of fish and shellfish, 260 species of 
migratory birds, and 25 species of marine mammals. Whales--humpback, 
blue, minke, and orca--as well as sea lions, seals, and other marine 
mammals frequent these waters. More than 38 million seabirds--including 
a wide variety of, gulls, petrels, puffins, murres, auklets, and 
terns--flock to the islands to nest. The ocean waters support salmon, 
halibut, rockfish, cod, and crab, among other fish and shellfish.
    The Aleutian Islands ecosystem also harbors some of the most 
diverse and dense aggregations of cold water corals in the world. The 
density and diversity of these Alaskan corals rival tropical coral 
reefs, and there are deep-sea coral gardens that are unique to the 
Aleutian Islands. This living seafloor forms habitat that provides 
nurseries, places to feed, shelter from currents and predators, and 
spawning areas for many marine species.
    This biological richness supports extensive and lucrative 
fisheries. Each year, Federal waters in the North Pacific are host to 
the biggest fisheries in the United States, which are some of the 
largest in the world. Together, the groundfish fisheries off the coast 
of Alaska account for 46 percent of all domestic fish landings. The 
pollock fishery in the Bering Sea and Aleutian Islands is the largest 
by weight in the U.S. and the second biggest in the world. Other 
important targeted species include sablefish, rockfish, and Atka 
mackerel. Combined, this catch is worth approximately $2.3 billion 
annually. In addition, the State of Alaska manages important fisheries 
in state waters. The Alaska salmon fisheries, for example, are one of 
Alaska's most important industries, with a harvest value statewide in 
excess of $650 million in 2013.
    In addition to supporting a very important industry, fish also are 
crucial to other aspects of life in Alaska. In many places in the 
state, fish are central to subsistence culture. They also support 
recreation, tourism, and personal use. Healthy fish populations, of 
course are also an important component of the functioning ocean 
ecosystems on which Alaskans depend.
    The success and continued viability of Alaska's fisheries are a 
testament to healthy oceans, science-based management, and suitable 
regulatory guidance. It is equally true, however, that not all of the 
effects from these fisheries are well understood and that conditions in 
our oceans are changing. If not properly managed, fisheries can have 
substantial negative effects on long-term ocean health and can become 
unsustainable.
    By design, commercial fisheries in the North Pacific cause fish 
populations to decline to levels well below the historical norm. For 
most species, managers seek to maintain populations at 40 percent of 
their ``unfished'' state--meaning that 60 percent of the fish that were 
once in the ocean have been removed. Even this target, however, is not 
always met, and many stocks have been depleted well below the 40 
percent threshold. As of 2009, fishery stocks in the North Pacific were 
projected at the following percentages of their unfished levels: 
Aleutian Island Atka mackerel (41 percent), Aleutian Island pollock (30 
percent), Gulf of Alaska pollock (33 percent), Bering Sea pollock (27 
percent), Bering Sea/Aleutian Islands Pacific cod (36 percent), and 
Gulf of Alaska Pacific cod (51 percent). In other words, today there 
exist nearly 70 percent fewer pollock, and nearly 50 percent fewer cod, 
in the Gulf of Alaska than were historically present.
    While none of these species are considered overfished under the 
law, removing substantial amounts of biomass can have significant 
effects on the marine ecosystem beyond the immediate reduction in the 
population of that species. Large reductions in biomass of one species 
can affect predator-prey dynamics and create other disturbances in the 
food web. In addition, many of these fisheries are allowed to discard 
millions of tons of unwanted bycatch and, particularly through bottom 
trawling, destroy important habitat. As explained below, important 
progress is being made to address these potential problems, and we can 
best build on that progress by continuing the momentum toward 
ecosystem-based management.
B. The Arctic Ocean
    The North Pacific region also includes the United States' portion 
of the Arctic Ocean, which encompasses the U.S. parts of the Chukchi 
and Beaufort seas. The majority of the coastal residents in the Arctic 
region of the United States are Alaska Natives and, for many, their 
culture is tied to subsistence harvesting; sharing of food; teaching 
youth how to fish, hunt, and gather resources; and celebrating 
successful harvests. The Arctic seas are a foundation of this 
subsistence way of life in coastal communities.
    In addition to vibrant communities, Arctic waters also support some 
of the world's most iconic wildlife species, such as beluga whales, 
polar bears, walrus, and ice seals. The endangered bowhead, as well as 
beluga and gray whales spend time in these waters. In addition, 
millions of birds, including more than 100 species, migrate from nearly 
every corner of the world to feed and nest in the Arctic each summer. 
More than 100 fish species live in the U.S. Arctic Ocean, including all 
five species of Pacific salmon, capelin, herring, and various species 
of cod and sculpin.
    Currently, there are no commercial fisheries in the U.S. Beaufort 
or Chukchi seas. As the region changes, however, commercial fisheries 
may become viable, and forethought is necessary to ensure that any 
fisheries that do develop do not compromise the health of ocean 
ecosystems or opportunities for the subsistence way of life. Basic 
scientific information would be needed to guide management. Large areas 
of the U.S. Arctic Ocean have never been surveyed for fish, and roughly 
half of the handful of surveys that were conducted in the U.S. Arctic 
Ocean occurred more than 20 years ago. In addition, sampling has not 
been conducted frequently enough to provide a good understanding of 
year-to-year variability in fish distributions and abundance. The 
Arctic Fishery Management Plan provides the needed guidance now by 
precluding commercial fisheries until and unless sufficient science is 
in place to ensure good management decisions.
II. Conservation Successes
    The Magnuson-Stevens Act is one of our country's important success 
stories and, one, of course, with special significance in Alaska. As 
Senator Begich noted in 2011:

        This landmark legislation was originally sponsored by several 
        great friends of Alaska--Senator Magnuson, our own Senator Ted 
        Stevens, and Senator Inouye--and co-sponsored by several 
        Republican and Democratic members of the Committee. It 
        represented a truly bipartisan effort to carefully manage one 
        of America's greatest assets, our fisheries.

    In the nearly 40 years since it was passed by Congress in 1976, the 
law has helped prevent overexploitation by foreign fleets while 
providing managers with the legal tools to sustainably manage our 
Nation's ocean fisheries. Its subsequent amendments have strengthened 
the conservation mandate in the statute with significant bipartisan 
support. The amendments have encouraged movement toward ecosystem-based 
management, and that movement has been led by managers in the North 
Pacific.
A. Implementing Ecosystem-Based Management Will Best Meet the MSA's 
        Goals
    According to the 2005 Scientific Consensus Statement on Marine 
Ecosystem-Based Management,

        [e]cosystem-based management is an integrated approach to 
        management that considers the entire ecosystem, including 
        humans. The goal of ecosystem-based management is to maintain 
        an ecosystem in a healthy, productive and resilient condition 
        so that it can provide the services humans want and need. 
        Ecosystem-based management differs from current approaches that 
        usually focus on a single species, sector, activity or concern; 
        it considers the cumulative impacts of different sectors. 
        Specifically, ecosystem-based management:

    <bullet> emphasizes the protection of ecosystem structure, 
            functioning, and key processes;

    <bullet> is place-based in focusing on a specific ecosystem and the 
            range of activities affecting it;

    <bullet> explicitly accounts for the interconnectedness within 
            systems, recognizing the importance of interactions between 
            many target species or key services and other non-target 
            species;

    <bullet> acknowledges interconnectedness among systems, such as 
            between air, land and sea; and

    <bullet> integrates ecological, social, economic, and institutional 
            perspectives, recognizing their strong interdependences.\1\
---------------------------------------------------------------------------
    \1\ McLeod, K. L., et al., Scientific Consensus Statement on Marine 
Ecosystem-Based Management (2005), available at http://
compassonline.org/?q=EBM.

    In the context of fisheries management, implementing ecosystem-
based management approaches requires moving away from decisions focused 
narrowly on one species or stock. It is not sufficient simply to 
maintain populations of individual fish species at levels that will 
sustain commercial fisheries. Rather, managers must establish catch 
levels, allocate among gear types, and make other choices about where, 
when, and under what conditions fisheries may be prosecuted with an 
understanding of the implications of those choices on the rest of the 
marine ecosystem.
    While managers need information about the manner in which 
environmental conditions affect fish productivity, consideration must 
be given to the effects that removing large quantities of biomass is 
having on the marine environment as a whole. Precautionary choices that 
are designed to protect the health and resiliency of the entire ocean 
ecosystem will help to ensure sustainable fisheries into the future. 
The MSA specifically encourages this approach and provides tools that 
allow for its implementation.
B. The MSA is Intended to Further Conservation of Ocean Resources
    The MSA is the primary Federal law governing fisheries management. 
Congress enacted it in 1976 to ``provide for the protection, 
conservation, and enhancement of the fisheries resources of the United 
States.'' \2\ It requires stewardship of the Nation's marine resources, 
which Congress deemed a ``valuable national heritage.'' \3\ In 
supporting the 1996 amendments to the MSA that he authored, Senator 
Stevens himself stated that the ``whole purpose'' of the Act is to 
``protect our fisheries and have a conservation ethic to be the major 
goal.'' \4\
---------------------------------------------------------------------------
    \2\ S. Rep. No. 94-711, at 37 (1976) (Conf. Rep.), reprinted in 
1976 U.S.C.C.A.N. 660, 660-61.
    \3\ S. Rep. No. 104-276, at 2 (1996), reprinted in 1996 
U.S.C.C.A.N. 4,073, 4,074.
    \4\ 142 Cong. Rec. S10,794, at 10,810-11 (1996); see also id. at 
10,811 (Sen. Stevens lauding the amendments as ``the hallmark of 
conservation of fisheries throughout the world'').
---------------------------------------------------------------------------
    The statute requires development of fisheries management plans 
(FMPs) which must include measures for the ``conservation and 
management'' of fisheries resources. ``Conservation and management'' is 
defined broadly to include considerations of food supply, recreational 
benefits, long-term adverse effects to the marine environment, and 
preserving options for the future. The MSA focuses on these broad 
conservation objectives, and FMPs must include measures designed to 
achieve them.
    Since it passed the MSA, Congress has recognized areas in which 
improvement was necessary and amended the law to strengthen its 
conservation direction.\5\ In 1996, for example, Congress--led by the 
Alaska delegation--took action designed to halt the ``shameful waste'' 
occurring in the Nation's fisheries.\6\ Senator Stevens noted the 
particularly dire circumstances in the North Pacific: ``[I]n 1995, 60 
factory trawlers discarded nearly as much fish in the Bering Sea as was 
kept in the New England lobster fishery, the Atlantic mackerel fishery, 
the Gulf of Mexico shrimp fishery, the Pacific sablefish fishery, and 
the North Pacific halibut fishery combined.'' \7\ He went on to say 
that ``[t]he waste in that area was as great as the total catch of all 
the major fisheries off our shores. These 60 factory trawlers threw 
overboard--dead and unused--about one out of every four fish they 
caught'' and that, in enacting the bill, Congress ``had a singular 
purpose,'' which was to put a stop to ``this inexcusable amount of 
waste.'' \8\
---------------------------------------------------------------------------
    \5\ See, e.g., 142 Cong. Rec. S10,811 (statement of Sen. Kerry) 
(recognizing that the 1996 amendments would be critical to putting 
fisheries ``back onto a sustainable path and literally avert an 
environmental catastrophe on a national level''); id. at S10,813 
(statement of Sen. Gorton) (the passage of the amendments reflected ``a 
statement by Congress that conservation of the resource must be a 
priority.'').
    \6\ See id. at S10,820 (statement of Sen. Murkowski); 142 Cong. 
Rec. H11,418 (daily ed. Sept. 27, 1996) (statement of Rep. Young).
    \7\ 142 Cong. Rec. S10,810.
    \8\ Id.
---------------------------------------------------------------------------
    Similarly, when it reauthorized and amended the MSA in 2006, 
Congress took action to require Annual Catch Limits and accountability 
measures designed to help prevent overfishing. It also refined the 
description and duties of Councils' Science and Statistical committees 
and provided explicitly for mechanisms to protect deep sea corals.
C. Substantial Progress Has Been Made in Alaska Toward Ecosystem-Based 
        Management
    In amending the MSA in 2006, Congress recognized that ``[a] number 
of the Fishery Management Councils have demonstrated significant 
progress in integrating ecosystem considerations in fisheries 
management using the existing authorities provided under this Act.'' 
The North Pacific region was at the forefront of that progress and has 
continued its leadership since 2006.
    The most apparent evidence of management success, of course, has 
been the sustained health of Alaska's ocean ecosystems and the 
continued viability of commercial fisheries in the Gulf of Alaska and 
Bering Sea. Moreover, the management structure in the North Pacific--
including the manner in which it uses its Science and Statistical 
Committee--and the manner in which catch levels are established have 
been used as models for improvement in other areas.
    In addition, the NPFMC and NMFS have taken a series of concrete 
steps to promote sustainability and move toward ecosystem-based 
management:

  <bullet> At its February 2014 meeting, the NPFMC voted unanimously to 
        adopt an ecosystem approach and vision statement. The policy 
        includes value and vision statements and an implementation 
        plan, and it is the Council's intent ``to affirm the importance 
        of healthy ecosystems for maintaining sustainable fisheries, 
        and synthesize the Council's policy on ecosystem-based 
        management.'' The NPFMC has an Ecosystem Committee, and the 
        ongoing dialogue at the Council about ecosystem-level 
        considerations is an important mechanism through which to 
        ensure that future decisions account for changing ocean 
        conditions and continue to provide for sustainability.

  <bullet> The NPFMC created the Aleutian Islands Fishery Ecosystem 
        Plan (AIFEP) in 2007 and has committed to moving forward with 
        an FEP for the Bering Sea. The AIFEP is designed to ``provide 
        enhanced scientific information and measurable indicators to 
        evaluate and promote ecosystem health, sustainable fisheries, 
        and vibrant communities in the Aleutian Islands region.'' More 
        generally, it provides a holistic look at the Aleutian Islands 
        ecosystem, the available scientific information, and the 
        potential implications of management choices. It is, therefore, 
        an important tool through which ecosystem considerations can be 
        integrated with specific fishery management choices. The Bering 
        Sea FEP will be the second prepared in the North Pacific. It is 
        likely to begin with a series of stakeholder meetings and 
        hopefully will provide useful guidance for choices in that 
        region in the future, including protecting representative 
        habitats such as deep sea canyons.

  <bullet> In 2009, the NPFMC unanimously approved, and NMFS 
        implemented, the Arctic FMP. In recognition of the changing 
        conditions in the Arctic and the fact that ``unregulated, or 
        inadequately regulated, commercial fisheries in the Arctic EEZ 
        off Alaska could have adverse effects on the sensitive 
        ecosystem and marine resources of this area,'' the Arctic FMP 
        closes the U.S. Chukchi and Beaufort seas to commercial fishing 
        until any proposed fishing can be conducted without harming the 
        ecosystem or opportunities for subsistence. As the NPFMC noted, 
        its ``management policy for the U.S. Arctic EEZ is an 
        ecosystem-based management policy that proactively applies 
        judicious and responsible fisheries management practices, based 
        on sound scientific research and analysis, to ensure the 
        sustainability of fishery resources, to prevent unregulated or 
        poorly regulated commercial fishing, and to protect associated 
        ecosystems for the benefit of current users and future 
        generations.''

  <bullet> Since 2006, the NPFMC and NMFS have taken important steps to 
        identify and protect Essential Fish Habitat. In recognition of 
        the importance of coral and sponge habitat as EFH, the Council 
        and NMFS closed large areas of identified EFH to bottom 
        trawling . Currently, almost 700,000 square miles of important 
        habitat are protected from bottom trawling in the Gulf of 
        Alaska, Bering Sea, and Aleutian Islands. In addition, through 
        this process, the NPFMC and NMFS created the Northern Bering 
        Sea Research Area, which is off limits to trawling pending 
        development of a scientific research plan to guide management 
        in the region.

  <bullet> Over the past several years, important steps have been taken 
        to cap and reduce bycatch. The NPFMC and NMFS have implemented 
        caps on Chinook salmon bycatch in the groundfish fisheries in 
        the Bering Sea/Aleutian Islands and Gulf of Alaska. The Council 
        also has voted to reduce halibut bycatch in the Gulf of Alaska 
        groundfish fisheries and is considering options to cap chum 
        salmon bycatch. While these are important first steps, the caps 
        are set at relatively high levels, and there is more work to be 
        done to reduce bycatch and improve these measures.

  <bullet> The NPFMC and NMFS have retained the overall harvest caps in 
        the Bering Sea/Aleutian Islands and Gulf of Alaska management 
        areas. The overall cap of two million metric tons in the Bering 
        Sea/Aleutian Islands has been in place since 1984. It is an 
        important conservation measure that helps ensure that catch 
        levels are sustainable and that fish are available as prey in 
        the ecosystem.

    Steps like these will help ensure there are healthy ocean 
ecosystems for future generations, allow us to better meet the 
challenges of changing ocean conditions, and improve resiliency. The 
MSA requires conservation and encourages this sort of innovation.
III. Opportunities Moving Forward
    The NPFMC and NMFS have used tools available in the MSA to move 
toward ecosystem-based management. Managers have been in the fortunate 
position to do so because we have healthy oceans that include many 
healthy fish populations. In order to continue moving toward ecosystem-
based management in the North Pacific and to encourage similar progress 
in other places, we must: (1) maintain and restore fish populations to 
levels capable of supporting sustainable fisheries and healthy 
ecosystems; and (2) encourage holistic management based on ecosystem 
considerations, precaution, and inclusive, public decision-making.
    It is important to note that, despite progress, management in the 
North Pacific is far from perfect. The lengthy, contentious history and 
current controversy surrounding protections for the endangered Western 
population of Steller sea lions is a good example of the problems that 
could be avoided by precautionary management. Beginning in the 1960s, 
the Western population declined precipitously, and it reached a low 
point in 2000, when it was estimated at 42,500 individuals--a decline 
of more than 80 percent from historic levels. That decline led to 
protection under the Endangered Species Act (ESA), a lengthy debate 
about how best to address it, and eventually contentious litigation 
that lasted from 1998 to 2003.
    New protections were implemented in 2001 to limit the competition 
between the Atka mackerel, pollock, and Pacific cod fisheries and 
Steller sea lions, which depend on those species as prey. The new 
measures appear to have had some beneficial effect, as the population 
stabilized overall. Declines continued, however, in the western 
Aleutian Islands, and the population was not meeting criteria 
established in the Revised Recovery Plan that NMFS completed in 1998.
    A new ESA consultation process was started in 2006 and completed in 
2010. It concluded--as have all agency analyses of the issue--that 
fisheries may compete with predators, like Steller sea lions for prey 
and found that the groundfish fisheries, as then managed, still did not 
comply with the ESA mandates to prevent jeopardy to Steller sea lions 
and to prevent adverse modification of their critical habitat. As a 
reasonable and prudent alternative, NMFS implemented new protections 
for the species in the areas in which the population was still 
declining sharply--the Western Aleutian Islands. Those new protections 
touched off a new round of litigation--this time brought by the State 
of Alaska and fishing industry. The Federal district court in Alaska 
and Ninth Circuit Court of Appeals upheld the agency's analysis and the 
new protections.
    Nonetheless, the agency is now completing an Environmental Impact 
Statement and new ESA consultation process in which it is evaluating 
alternatives that would roll back the protections deemed necessary in 
2010. Despite more than $100 million having been spent, largely in an 
effort to prove otherwise, the best evidence still suggests that 
competition with fisheries--which have been allowed to deplete 
important prey species by 50-70 percent--may cause jeopardy to the 
Western population. Thus, while there may be other factors contributing 
to the ongoing decline and failure to recover, competition with 
fisheries for food is one that we have the ability--and obligation--to 
mitigate directly. The best way to achieve this goal, while allowing 
for sustainable fisheries and supporting communities, is to implement 
an ecosystem-based approach in which fisheries management decisions 
ensure that there is sufficient prey for sea lions. If less time and 
energy had been spent fighting to take more fish from the ocean, we 
would be much further toward that goal.
    Ecosystem-based management approaches will help to rebuild depleted 
stocks to levels at which they can support healthy ocean ecosystems and 
to ensure that currently healthy stocks do not become depleted. Thus, 
as Congress considers mechanisms through which it can improve standards 
and decision-making, it also must reject ideas that will move the 
country backwards toward a regime that results in overfishing and poor 
management. Weakening requirements for rebuilding depleted stocks or 
annual catch limits would prioritize short-term gain ahead of long-term 
sustainability. Though there are few examples in Alaska, we have seen 
fisheries collapse in other parts of the country, and there is no 
reason to step backwards from current rules designed to prevent that 
from happening again. According to NMFS, rebuilding all U.S. fish 
populations would lead to a $31 billion increase in annual sales and 
support for half a million new U.S. jobs. We should continue moving in 
that direction and resist pressure to sacrifice future generations' 
livelihoods to increase current profit.
    From that foundation, Congress can make small changes in the MSA 
that will continue the movement forward toward ecosystem-based 
management. Formalizing some of the strategies and tools from the North 
Pacific would be a place to start; for example Congress could advance 
conservation and ecosystem-based management by requiring development 
and implementation of fishery ecosystem plans and formally requiring 
protection of forage species. In addition, small changes could be made 
to strengthen requirements for counting and reducing bycatch and for 
protecting essential fish habitat.
    Further, Congress could foster open and transparent decision-making 
by ensuring disclosure of important catch and bycatch data. The oceans 
are a public resource managed by public agencies, and information 
collected pursuant to that management should be publicly available. As 
one of his first acts upon taking office, President Obama committed to 
create ``an unprecedented level of openness in Government,'' and ``a 
system of transparency, public participation, and collaboration.'' \9\ 
The administration has taken steps to implement this commitment to open 
government, and Congress can do the same.
---------------------------------------------------------------------------
    \9\ Memorandum for the Heads of Executive Departments and Agencies, 
Transparency and Open Government (Jan 21, 2009), available at http://
www.whitehouse.gov/the_press_office/TransparencyandOpenGovernment/.
---------------------------------------------------------------------------
    Federal law sets a general standard for public access to 
information through the Freedom of Information Act (FOIA) while 
protecting private personal information, genuine trade secrets, and 
other valid confidentiality interests through FOIA and the Privacy Act. 
By layering additional unnecessary barriers to transparency on top of 
FOIA and the Privacy Act, fisheries law and regulations have hindered 
public participation and hindered the transition to sustainable 
fisheries. Unnecessary disclosure restrictions also hinder management 
choices. According to NMFS, the Bering Sea/Aleutian Islands and Gulf of 
Alaska groundfish fisheries ``produce high levels of catch, ex-vessel 
revenue, processed product revenue, exports, employment, and other 
measures of economic activity while maintaining ecological 
sustainability of the fish stocks. However, the data required to 
estimate the success of these policies with respect to net benefits to 
either the participants in these fisheries or the Nation, such as cost 
or quota value (where applicable) data, are not available.'' \10\ 
Removing barriers to disclosure will improve management and allow for 
full and fair public participation in the decision-making process.
---------------------------------------------------------------------------
    \10\ Fissel, B., et al., Stock Assessment and Fishery Evaluation 
Report for the Groundfish Fisheries of the Gulf of Alaska and Bering 
Sea/Aleutian Islands Area: Economic Status of the Groundfish Fisheries 
Off Alaska 1-2 (2012).
---------------------------------------------------------------------------
    In addition to public access to information, good management 
requires broad participation and consideration of diverse viewpoints. 
In that vein, we support broader representation on Councils, including 
tribes and conservation organizations. A more diverse set of voices at 
the decision-making table will help ensure that all information is 
given full consideration and that decisions are in the best interests 
of all stakeholders.
    Further, it is absolutely vital to ensure compliance with other 
important environmental protections. Neither the substantive provisions 
nor the public process undertaken pursuant to the MSA are a substitute 
for the consideration of alternatives and important evaluation of 
potential impacts to the environment required by the National 
Environmental Policy Act (NEPA). Congress addressed this issue in 2006 
when it required NMFS ``in consultation with the Councils and the 
Council on Environmental Quality, [to] revise and update agency 
procedures for compliance with [NEPA].'' There is no reason to do more 
at this time. Similarly, the Endangered Species Act provides an 
ultimate backstop for managers--proactive and precautionary decisions 
should be made far in advance of causing jeopardy to an endangered 
species or adverse modification of critical habitat. Managing simply to 
avoid ESA restrictions is not conducive to recovering protected species 
or ensuring sustainable fisheries. As the Steller sea lion example 
above demonstrates, Councils, NMFS, and industry should strive for 
precautionary, science-based management to sustain fisheries and the 
predators they support.
    Ultimately, good decisions will maximize benefits. Under the MSA, 
fisheries are managed to achieve ``optimum yield,'' which is defined as 
``the amount of fish which--(A) will provide the greatest overall 
benefit to the Nation, particularly with respect to food production and 
recreational opportunities, and taking into account the protection of 
marine ecosystems; (B) is prescribed on the basis of the maximum 
sustainable yield from the fishery, as reduced by any relevant social, 
economic, or ecological factor; and (C) in the case of an overfished 
fishery, provides for rebuilding to a level consistent with producing 
the maximum sustainable yield in such fishery.'' The large commercial 
fisheries in Alaska reap substantial economic benefit. This benefit 
derives from a public resource--fish--managed by publicly funded 
entities--the NPFMC and NMFS. It is certainly true that some of the 
economic benefit returns to the States, the United States, and 
residents in the form of food, employment, taxes, the Community 
Development Quota program, and other associated opportunities. 
Similarly, there has been movement to implement the cost recovery 
provisions in the MSA.
    In light of the current state and Federal fiscal climates, however, 
it may be time to think carefully about how we craft this balance. We 
can and should think about the financial value of the public resource 
we allow private companies to extract and whether we are getting fair 
value for it. Similarly, there is a very clear need to invest in 
science to guide management--we can and must find ways to increase 
funding for science that will help us better manage individual stocks, 
understand the ocean ecosystem, and the impacts of fisheries in the 
ocean. It may likewise be possible to find new efficiencies in the 
Council process.
IV. Conclusion
    Alaska's oceans are vibrant places that support our cultures, 
livelihoods, and recreation. We are making progress toward ecosystem-
based management that ensures sustainable fisheries into the future and 
allows us to meet today's needs without compromising the long-term food 
security of our Nation. The best path forward is to continue that 
progress and to rely on science and precaution to guide management 
choices. Just as America uses and treasures its national forests for 
more than timber production, so too do we now realize that Americans 
treasure our ocean habitat and marine life for more than maximizing 
commercial fisheries. We can best address the coming changes and 
challenges by providing for resiliency and holistic management to help 
maintain healthy ocean ecosystems that include sustainable fisheries 
and vibrant communities.

    Senator Begich. Thank you very much.
    Our last speaker, Julianne Curry, thank you very much.
    Good to see you, Julianne.

    STATEMENT OF JULIANNE CURRY, EXECUTIVE DIRECTOR, UNITED 
                      FISHERMEN OF ALASKA

    Ms. Curry. Hello, Mr. Chair, Senator Cantwell. My name is 
Julianne----
    Senator Begich. Is your--microphone. There we go.
    Ms. Curry. I am--red button means go?
    Senator Begich. Yes.
    Ms. Curry. Mr. Chairman, Senator Cantwell, my name----
    Senator Begich. Oh, it's still not on.
    Ms. Curry. May I borrow a different one?
    Mr. LeVine. Of course.
    Senator Begich. There we go.
    Ms. Curry. Third time is the charm.
    Senator Begich. There we go.
    Ms. Curry. Thank you, Mr. Chairman.
    My name is Julianne Curry; I'm the Executive Director of 
United Fishermen of Alaska. I'm also an active commercial 
fishermen and I'm an active participant in the Council process 
as a past member of the Advisory Panel.
    UFA is the largest fishing industry trade association in 
Alaska, representing 36 member organizations and over 450 
individual and business members from around the state. Our 
membership is very diverse in terms of the gear types we use, 
the species we target, and the areas in Alaska that we fish. 
But we are united in our commitment to sustainable fisheries 
and protecting fishing-dependent coastal communities. Based on 
that commitment, we are honored to provide you with comments on 
Magnuson-Stevens Act Reauthorization.
    By working with colleagues from around the Nation to 
sponsor regionally focused hearings and listening sessions, 
this deliberative approach reflects the fact that, while 
fishermen and fishing communities from across the nation are 
impacted by MSA, they're all impacted differently. 
Understanding those regional and fleet-specific differences is 
crucial in moving forward and we thank you for this approach.
    Alaska has long been a leader in promoting sustainable 
fisheries. You can say that our state was founded on this 
premise. Sustainable fisheries management was mandated back in 
1959 when it was written into our state constitution. Alaska's 
leadership continued in the 1970s when Senator Stevens and 
Magnuson led the charge to extend U.S. jurisdiction out to 200 
miles and created the Regional Fishery Management Councils that 
manage our Federal fisheries today. At that time, foreign 
fleets fishing in what is now the exclusive economic zone were 
enjoying a free-for-all at the expense of U.S. citizens. With 
the passage of MSA in 1976, this changed.
    Taking a cue from Alaska, the U.S. entered a new phase of 
fisheries management and developed a domestic fleet to harvest 
our resources for the benefit of all Americans. Subsequent 
reauthorizations of the Act have further refined our 
understanding of how to best manage fisheries resources in 
Federal waters. These reauthorizations reflect much of what we 
in the North Pacific have been doing for years; scientifically 
informed catch limits that never exceed the recommendations of 
the scientific and statistical committee; protecting habitats 
important to manage species; full accountability for removals; 
industry funded observers; frequent stock assessments; 
precautionary approach in the face of uncertainty; considering 
impacts on fishing dependent communities; an open and 
transparent process, including robust public involvement; and 
promoting safety of life at sea.
    We feel that this approach has contributed greatly to the 
fact that Alaska has no finfish stocks listed as overfished, we 
have no stocks subject to overfishing, and there are no stocks 
approaching an overfished condition. Changing environmental 
conditions are the limiting factor for the stock of crab that 
is currently listed as overfished. However, there are still 
significant protection measures in place and that stock is not 
subject to overfishing.
    The success of our approach is evident in the fact that 
Alaska accounted for 56 percent of total U.S. commercial 
fishery harvest and 36 percent of total ex-vessel value in 
2011. The combined value of Alaska's seafood exports and retail 
sales in the U.S. is estimated at $6.4 billion. The Alaskan 
seafood industry directly employed 94,000 workers who earn $2.8 
billion in wages. Including indirect employment, the jobs total 
is over 165,000 accounting for $15.7 billion in economic 
output. In short, the seafood industry is by far the largest 
private sector employer in Alaska and in many remote 
communities it is the backbone of the local and regional 
economy.
    Over the past several years, this committee has heard many 
ideas for how to improve MSA. One of the key components of MSA 
has always been to empower the councils to manage fisheries 
within their region. We firmly support the Council systems in 
general and the North Pacific Council in particular.
    Many regions of the country have called for increasing 
flexibility. While we feel that this is a good idea and 
concept, the end goal must be to generate optimum yield for 
fisheries that are in good shape and to rebuild those stocks 
that are depleted. Limiting the management tools available to 
the regional councils is contrary to providing flexibility and 
should be avoided.
    We also support increased options for the use of electronic 
monitoring. We support the current composition of the North 
Pacific Council and do not support the concept of specific 
user-group seat designations. We strongly support maintaining 
adequate funding for stock assessments. We support funding for 
ocean acidification research so that we are better able to 
understand how those changes might impact fisheries. We support 
the increased use of cooperative research. And we support 
streamlining the regulatory process so that decisions made by 
the councils can be more quickly implemented by the executive 
branch agencies.
    In general, the MSA is working well in the North Pacific 
and we don't want to see a radical overhaul of the Act. If you 
ultimately choose to make substantive changes, please do so 
cautiously so that the success we've had in the North Pacific 
is not jeopardized.
    In conclusion, thank you again for the opportunity to 
testify and I'm happy to answer any questions.
    [The prepared statement of Ms. Curry follows:]

       Prepared Statement of Julianne Curry, Executive Director, 
                       United Fishermen of Alaska
    Good morning Mr. Chairman and Members of the Committee. Thank you 
for the opportunity to testify today. My name is Julianne Curry and I 
am the Executive Director of the United Fishermen of Alaska. UFA is the 
largest fishing industry trade association in Alaska, representing 36 
Member organizations and over 450 individual members and seafood 
industry support businesses from around the State. Our membership is 
very diverse in terms of the gear types we use, the species we target, 
and the areas in Alaska that we fish. But we are united in our 
commitment to sustainable fisheries and protecting fishing-dependent 
coastal communities. Based on that commitment, we are honored to 
provide you with comments on Magnuson-Stevens Act (MSA) 
reauthorization.
    We appreciate the deliberative approach you have taken in moving 
forward with this important reauthorization. As a national Act, we feel 
it is appropriate to seek input from stakeholders across the Nation and 
to gather adequate facts before taking action that could have 
repercussions for years to come.
    By working with colleagues from the around the Nation to sponsor 
regionally-focused hearings and listening sessions, this approach 
reflects the fact that while fishermen and fishing communities across 
the Nation are all impacted by MSA, they are all impacted differently. 
Understanding those regional and fleet-specific differences is crucial 
in moving forward and we thank you once again for this approach.
    Alaska has long been a leader in promoting sustainable fisheries. 
You could say our state was founded on this premise. Sustainable 
fisheries management was mandated back in 1959 when it was written into 
our State Constitution. Alaska's leadership continued into the 1970s 
when Senator Stevens and Senator Magnuson of Washington led the charge 
to extend U.S. jurisdiction out to 200 miles and created the Regional 
Fishery Management Councils that manage our Federal fisheries to this 
day. At that time foreign fleets, fishing in what is now the Exclusive 
Economic Zone, were enjoying a free-for-all at the expense of U.S. 
citizens. With the passage of MSA in 1976 this changed. Taking a cue 
from Alaska, the U.S. entered a new phase of fisheries management and 
began developing a domestic fleet to harvest our resources for the 
benefit of all Americans.
    Subsequent reauthorizations of the Act have further refined our 
understanding of how best to manage fisheries resources in Federal 
waters. These reauthorizations reflect much of what we in the North 
Pacific have been doing for years:

  <bullet> Scientifically-informed catch limits that never exceed the 
        recommendations of the Scientific & Statistical Committee

  <bullet> Protecting habitats important to managed species

  <bullet> Full accountability for all removals

  <bullet> Industry-funded observers

  <bullet> Frequent stock assessments

  <bullet> Precautionary approach in the face of uncertainty

  <bullet> Considering impacts on fishing dependent communities

  <bullet> Open and transparent process including robust public 
        involvement

  <bullet> Promoting safety of life at sea

    We feel that this approach has contributed greatly to the fact that 
Alaska has no finfish stocks listed as overfished. We have no stocks 
subject to overfishing. And there are no stocks approaching an 
overfished condition. Changing environmental conditions are the 
limiting factor for the two stocks of crab that are currently listed as 
overfished. However there are still significant protection measures in 
place and neither stock is subject to overfishing.
    The success of our approach is evident in the fact that Alaska 
accounted for 56 percent of total U.S. commercial fishery harvest and 
36 percent of total ex-vessel value in 2011. The combined value of 
Alaska seafood exports and retail sales in the U.S. is estimated at 
$6.4 billion. The Alaskan seafood industry directly employed 94,000 
workers who earned $2.8 billion in wages. If you include indirect 
employment, the jobs total is closer to 165,800, accounting for $15.7 
billion in economic output stemming from Alaska's seafood industry. In 
short, the seafood industry is by far the largest private-sector 
employer in Alaska and in many remote communities it is the backbone of 
the local and regional economy.
    Over the past several years this Committee has heard many ideas for 
how to improve MSA. One of the key components of MSA has always been to 
empower the Regional Fishery Management Councils to manage fisheries 
within their region. We want to see this continue. We firmly support 
the Council system in general and the North Pacific Fishery Management 
Council in particular.
    Many regions of the country have called for increasing flexibility. 
While we feel this is a good idea in concept, the end goal must still 
be to generate optimum yield for fisheries that are in good shape and 
to rebuild those stocks that are depleted. Limiting the management 
tools available to the Regional Councils is contrary to providing 
flexibility and should be avoided.
    We support increased options for the use of electronic monitoring.
    We support the current composition of the North Pacific Fishery 
Management Council and do not support the concept of specific user-
group seat designations.
    We want to voice our strong support for maintaining adequate 
funding for stock assessments.
    We support funding for ocean acidification research so that we are 
better able to understand changes in seawater chemistry and how those 
changes might impact fisheries.
    We support maintaining the confidentiality of proprietary data 
provided by fishermen and seafood processors for management purposes.
    We support the increased use of cooperative research.
    And we support streamlining the regulatory process so that 
decisions made by the Regional Councils can be more quickly implemented 
by Executive Branch agencies.
    In general, MSA is working well in the North Pacific. While we 
understand this may not be the same feeling in some parts of the 
country, we don't want to see a radical overhaul of the Act. If you 
ultimately choose to make substantive changes, please do so cautiously 
so that the success we've had in the North Pacific is not jeopardized.
    In conclusion, thank you again for the opportunity to testify 
today. I request that my written testimony be included in the record 
and I would be happy to answer any questions.

    Senator Begich. Thank you very much.
    I'm going to ask Senator Cantwell to start the questioning 
and then I'll be secondary to that.
    Senator Cantwell. Thank you, Mr. Chairman.
    And you know these panelists remind me, obviously some are 
from the Pacific Northwest, but I just want to mention again 
how many people are here from the Pacific Northwest? The United 
Catcher Boats are here, Fishermen's Finest, Commercial 
Fishermen for Bristol Bay, the Groundfish Forum, American 
Seafoods, At Sea Processor's Association, Alaska Bering Sea 
Crabbers. Yes, that's in Seattle. And the Pacific Seafood 
Processors Association.
    I might add, Mr. Chairman, you and I were down at 
Fishermen's Terminal. We were on one of the boats and took a 
picture and someone in Seattle said, ``Well, when did you get 
back from Alaska?''
    [Laughter.]
    Senator Cantwell. So the fact that----
    Senator Begich. We're all connected.
    Senator Cantwell.--you know, our fisheries are so 
connected.
    But anyway, I wanted to thank all of those people from the 
Northwest for being here and we know how important the 
reauthorization of Magnuson-Stevens is for you.
    And I will just say, Ms. Curry, adequate resources for 
stock assessment. What I'm trying to propose here today, is 
robust funding for stock assessment. I don't think adequate 
gets it done. And so, I hope that we can work with NOAA and 
come up with something that meets the needs of this part of our 
economy because I think we're going to be challenged.
    And Mr. LeVine, I didn't hear you say the word climate 
change or impacts. And so, maybe we can get to that but I got 
to get to Ms. Swanson first. So you can think about that.
    Senator Begich. If I can just add: We don't mind you 
talking about climate change here. OK? We don't have our heads 
in the sand here. So----
    Senator Cantwell. Well, we definitely want to make sure we 
are understanding the risks to our fisheries. And ocean 
acidification, I think, is huge on that. No matter what you 
want to say is what your global thinking on it is, we have some 
real-life situations that our occurring.
    But, Ms. Swanson, I wanted to ask you about stock 
assessments and what's working and what isn't on that. And 
then, I also wanted to ask you about vessel replacement 
because, you know, part of this is making sure we continue to 
modernize. I think good fisheries management is about having 
the modernization of equipment, as well.
    And, how old are some of these vessels that you're talking 
about on the Groundfish Forum and what they need to do to be 
replaced? And my sense says here that somehow fishing and 
banking, fishing and financing, is an understanding, something 
as, you know, particular as this industry, and what you're 
trying to do to upgrade the equipment.
    So, if you could answer those questions, I'd appreciate it.
    Ms. Swanson. Thank you, Mr. Chairman. Thank you, Senator.
    Senator Begich. Your microphone.
    Ms. Swanson. Thank you, Mr. Chairman, Senator Cantwell.
    Regarding stock assessments, I think the key for the North 
Pacific is frequent stock assessments. If the assessments are 
less frequent, the fish stocks will still be fine. The 
management is very conservative, but will happen is the less 
certainty we have in the stocks, the lower the quotas will be 
and they'll be disproportionately lower. So I think the loss is 
to the Nation in terms of the resource if we lose surveys. 
Also, I think it's very, very important, as you pointed out, 
the jobs and the livelihoods that are dependent on--the North 
Pacific depend on frequent surveys.
    Regarding vessel replacement, with the rationalization of 
our sector, we're now in the position where we can start 
replacing vessels. Our vessels. I believe the newest vessel in 
our fleet was built in 1986, the oldest going back at least 
into the 1960s. They're still safe and productive vessels but 
they're not modern vessels. A newer vessel will certainly be 
more efficient; they'll be able to do much more extensive 
processing than the vessels that we have now. They'll be much 
more environmentally friendly as well.
    Since we've gotten past the obstacle of stability in terms 
of economic stability of the fishery, I think now the question 
is actually getting the contracts out. We have one vessel that 
is in the process of being built right now and several that are 
close, I think, to starting as well. There's a lot of interest 
in some sort of assistance with vessel financing. In terms of 
supporting loans to begin construction, I think, that that's a 
good investment in a sector that is really poised to become 
world class.
    Thank you.
    Senator Cantwell. And why isn't vessel financing just 
happening on its own? What has been missing there in the 
private sector that people don't understand about this 
business?
    Ms. Swanson. Chairman Begich, Senator Cantwell, I'm not 
sure I'm really qualified to answer that question. I think 
that, in general, there's some caution when the value of a 
particular entity is in the permit that it holds. And I believe 
that there may also be some legal constraints on the use of 
Federal support as well, but I'm afraid I'm not qualified to 
answer beyond that.
    Senator Cantwell. OK. Thank you.
    I see my time is up, Mr. Chairman.
    Senator Begich. No, go ahead.
    Senator Cantwell. Well, I'll just go back to Mr. LeVine and 
that question about, you know, you were talking about 
ecosystems, and isn't one of the biggest threat to the 
ecosystem acidification?
    Mr. LeVine. Thank you, Senator Cantwell, Mr. Chairman.
    And, yes, that is absolutely true. And also, it shouldn't 
be just me talking about acidification or climate change. It is 
something that concerns all the people at this table and all 
the people in this room. And it is something that the North 
Pacific Fishery Management Council is considering and working 
to address. This ecosystem vision and the movement to our 
Bering Sea Fishery Ecosystem Plan, in part, will enable us to 
consider ecosystem impacts not just from fisheries but from 
potentially acidifying water, changing ocean conditions from 
climate change and other affects, and make a robust and 
resilient plan for how to ensure that these fisheries make it 
through whatever changes are coming.
    And so absolutely. We appreciate your support for funding 
for research, your concern for ocean acidification and climate 
change, both you and Senator Begich, and certainly think that 
this is a place where we have opportunity to get in front of 
it, to understand what changes might be coming and to prepare 
for them. And the best way to do that is to understand what's 
happening in the ocean and how the choices we're making about 
fisheries, and other industrial impacts, are affecting it.
    Senator Cantwell. Thank you.
    Senator Begich. I want to quickly follow up.
    I'm assuming you've done some work on this and, if not, 
maybe you could check with your peers and others, but as we 
work on budgetary issues as well as reauthorization, you know, 
the fact that there is no, really, mention in the current 
Magnuson-Stevens Act issue of acidification, warming waters, 
climate change, is because at the time it was done, no one 
really talked about it; except a lot of people were raising 
their hand in the corner but no one was paying attention, to be 
frank. And here we are now at a time when it's common 
conversation, at least in Alaska and the Northwest region. 
There's no question that we talk about this issue.
    Do you think there's some information that you can share 
with us? At a later time obviously. But, of what are those kind 
of issues that we should make--what kind of research should we 
be making investments in, in order to help kind of look the 
long-term for this so that, the North Pacific Fisheries Council 
as an example, has data that they can start using in order to 
think long term of the impacts of acidification, or warming of 
waters, or generally climate change, to the conditions of our 
fisheries. Is there, you know, I know it's a very new area in 
Alaska State legislature and I want to, you know, thank those 
guys. They put $3 million toward it in Alaska because it wasn't 
happening in the Federal level. And so, is there somebody you 
can reach out to and maybe report back to us on some ideas that 
we could consider within our reauthorization, or what kind of 
language and ideas we should be incorporating so there's more 
of a recognition and understanding in the research models?
    Mr. LeVine. Mr. Chairman, absolutely. That's something we'd 
be very happy to do.
    I would say that at first, though, thank you for the 
question and for your comment earlier that we're not afraid to 
talk about it. It reflects enormous progress in the 10 years, 
or 8 years, since the last reauthorization.
    Senator Begich. In the last year, too.
    [Laughter.]
    Senator Begich. To be frank with you.
    Mr. LeVine. Fair enough. And we appreciate that.
    And, yes, I would be happy to talk to my colleagues who 
have more expertise and specific scientific research and get 
back to you with the note that we know that the waters in the 
Pacific Northwest, the colder waters, the more fresh water 
inputs, we're particularly susceptible to these common changes. 
And so, not only is it important to consider it in the 
reauthorization, generally it is something of particular 
importance to you, to Senator Cantwell, and to all of us here. 
And so we appreciate your leadership on all this.
    Senator Begich. Thank you. And just to underline this, this 
is not a commercial fishing issue. This is a commercial, rec 
and subsistence fishing issue. It has direct impact all the way 
around.
    Mr. LeVine. Absolutely.
    Senator Begich. Joe, if I can ask you a question. It came 
up in Alaska and it came up a little bit here in this issue of 
overfishing versus depletion as an example. And you know, an 
example was this fish stock in Alaska that's considered 
overfished, but it has never been fished. And it's our 
definitions in this legislation.
    Can you give me any general comment on that? Then I want to 
take off on an issue that Senator Cantwell talked about and 
actually we had a listening session in her state regarding kind 
of ship construction and this gap we keep hearing about and 
where we need to target, but maybe first, on this issue, 
because it's somewhat surprising. It's a definition issue, 
right?
    Mr. Plesha. It is a definition issue, Senator. And the 
stock is the Pribilof Island blue crab.
    Senator Begich. Right.
    Mr. Plesha. And it hasn't been fished on for decades.
    Senator Begich. Right. So it's overfished according to----
    Mr. Plesha. It's defined under the Act as overfished. And 
it should be considered to be depleted or some other term of 
ours.
    Senator Begich. Which helps it understand how we rebuild, 
too.
    Mr. Plesha. Right. That's exactly correct.
    Senator Begich. Right. OK.
    Mr. Plesha. And, there are very strict limits on the 
rebuilding schedule, so there had to be controls on bycatch of 
other's fisheries even though they had very rare occurrences of 
catching any of these crab. And add that the analysis show they 
have no impact at all on its rebuilding but it was required to 
be done anyway.
    Senator Begich. Very good.
    I do want to thank you for your commentary on the harvest/
processor cooperative issue. It's an interest and I'll probably 
do further conversation with you and others in regards to this 
but I thank you for that.
    If I can ask you a question, Julianne, and this is one that 
kind of goes both on--it's a two-part investment issue. One is, 
I think, what Senator Cantwell brought up and that is for 
fishermen to be able to get into the business of fishing, is 
the first piece. How do you incentivize that? What's the 
capital requirement? Where do we figure out financing 
mechanisms?
    But, on the other side is, these ships that need to be 
rebuilt or people need new ships totally because they're too 
old or they're larger ships. How do we--give me a sense of 
what, you know, because I'm not a commercial fisherman so I 
don't know what it's like to go to a bank and say, ``Hey, I 
got, you know, this permit. See this piece of paper? And I want 
to be able to catch all this fish, or halibut, or crab, or 
whatever it might be, and jeez, I need a loan for a very 
expensive boat.'' How can we grab at this issue?
    We have had this discussion. I think every time we've had 
one of these hearings, this has come up and we don't 
necessarily feel like there's an answer yet. Maybe I'm wrong 
but it seems like there are pieces. And the financial industry 
is kind of here, then you got the fishing industry over here, 
and then you have the ship builders kind of here. And each one 
has kind of a different story of what the problem is.
    Give me your thoughts on----
    Ms. Curry. Thank you, Mr. Chair.
    It's a really good question and it has a really complex 
answer, actually.
    There was a long period of time where, kind of in America, 
shipbuilding wasn't really a viable industry and we lost a lot 
of our really good shipyards across the country. And when our 
fisheries got to the point where they were building back up and 
people had the capital to be able to either buy new vessels or 
build new vessels there was less availability. So, supply and 
demand is definitely one of the limiting factors in being able 
to replace our fleets.
    So some of the other limiting factors are the fact that 
building a commercial fishing vessel these days isn't as cheap 
as it used to be; that the cost of the materials, whether it's 
the electrical systems or whether it's the metal to build your 
boat or whether it's finding a good fiberglasser, is an extreme 
challenge, not just in Alaska, but countrywide. Materials are 
extremely expensive.
    And when it comes to financing there are lots of banks out 
there, especially we're very fortunate in Alaska and I think 
Washington as well, I'm not so sure about the other places in 
the country, we're very fortunate to have bankers that are 
willing to work with the Alaska fishing industry and other 
industries to help obtain the capital that we need to be able 
to build vessels, but we all need to recognize that we built 
our business plans on a fluctuating biomass. We built our 
business plan on the fact that we are willing to sacrifice our 
bottom line in order to ensure the sustainability and the 
health of the resource for future generations. So it can be a 
little bit awkward for banks to say, ``Hey, I would love to 
give you this chunk of money and not really be sure if you're 
going to make it back.''
    So thank you, Mr. Chair, for the question. It's a good one. 
I can talk for a very long time about some of the barriers of 
building a new vessel. I can talk for a long time about the 
barriers of entering a fishery just for an individual, as well.
    Senator Begich. Let me ask you, I got two quick--one quick 
one and then one other issue on this. The first one: is there a 
problem with the production lines of the ships? Meaning that, 
let's say a fairly large ship says, you know, ``I got to get a 
new ship,'' and contracting with whoever it might be and then 
making sure that actually happens; or they have the capacity to 
do it. Maybe they say they can do it, but then the capacity to 
really do it--because we've heard kind of mixed stories on this 
that the production lines are not as robust because there's not 
a frequency or a consistency they can depend on, therefore, 
it's hard to make sure that a ship can be done.
    Give me your thoughts. I'm trying to be nice about how I'm 
saying this.
    [Laughter.]
    Ms. Curry. Fair enough. Fair enough, Mr. Chair.
    And I may have to defer to some of my colleagues to my 
right about a few of the answers, but I think your concern is 
definitely valid.
    Senator Begich. Question to you and then maybe someone else 
might answer that question additionally.
    We know at the end of--the impact on a regulation is going 
to come into effect which is incidental vessel discharge by 
EPA. Can you give me a sense from your members--which I think 
this starts in December if I remember right. And as you know, 
we're working on legislation to solve this problem. But can you 
tell me what the impacts might be?
    Ms. Curry. Thank you, Mr. Chair.
    We appreciate you meeting with my board last week via 
teleconference and as a result of that there will be a letter 
coming your way. As soon as it's finalized we'll be able to 
send it to your office, but----
    Senator Begich. Excellent.
    Ms. Curry.--the vessel discharge regulations are extremely 
impactful, not just to Alaska but to commercial fishing vessels 
across the country and recreational vessels can sometimes be 
included in that legislation as well. Those impacts are, I 
don't want to use the word devastating because I don't want to 
be overdramatic, but they're so draconian that they're almost 
absurd to be able to follow. Their requirement to be able to 
collect and datalog rainwater that is washing off the deck of 
your vessel is, quite frankly, silly.
    Senator Begich. Perfect.
    That's the kind of testimony I like. It's just you don't 
mince words. So thank you.
    Ms. Curry. I have never been accused of not being direct.
    Senator Begich. That is true.
    Thank you very much with that. Let me, and I know we're 
over a little time here, but I got a couple quick ones.
    Linda, you gave some great testimony in regards to 
electronic monitoring, but your comment I thought was 
interesting. Should we, and this probably is a very simple one 
but I want to hear from you that, do you think within the 
Magnuson-Stevens Reauthorization we should have some sort of 
time schedule or some sort of, and I'll use the word carefully 
here, mandate for them to, NOAA, NMFS, to get on the stick here 
and do it? Because I think we've been talking about this since 
the day I came into office. And it always is an answer why it's 
hard. I know today we've heard some testimony that they're kind 
of moving, but Canada is doing it.
    I mean is that what you were kind of referring to? That we 
put some hard structure that says, ``Look, it's great to keep 
studying it but actually let's implement it and that's probably 
the best study that we could do?''
    Ms. Behnken. Yes.
    Mr. Chairman, I would certainly agree with that. The term 
is maybe ``integrating'' electronic monitoring. We all 
recognize there's a need for dockside monitoring. There's a 
need for observers. There's a need for electronic monitoring, 
but there's particularly a need for electronic monitoring on 
small boats that just can't accommodate a human being; an 
additional person.
    I think the other piece of that, with a mandate to get this 
in the water, is to recognize there needs to be sustained 
funding. That you can't fund electronic monitoring for 1 year 
and be able to go through the iterative process that it takes 
to test the technology, to develop the contacts, the 
socialization, the education, the fleet, the capacity building, 
to support successful implementation in achieving the 
monitoring objectives.
    So in Alaska, as you know, we have an industry-funded 
observer program. And what we have supported is that a portion 
of the funds that are collected from the industry be dedicated 
to funding electronic monitoring deployment in fleets where EM 
is integrated. That's authorized under Section 313, but right 
now our understanding in the North Pacific is it's not 
reachable.
    So clarification of that piece as well as mandated action 
to move, to fund, and to get EM integrated into the system.
    Senator Begich. Great.
    I have two quick ones. One for you and one for Ricky, then 
I'm going to turn it back to Senator Cantwell if she has some 
additional questions.
    You heard me ask the question on the discharge issue and 
the EPA. Can you give me your thoughts on that, too? And again, 
how it affects your folks or could affect or not affect your 
folks as discharge, the EPA regulation on discharge that will 
occur in December.
    Ms. Curry. Mr. Chairman, I think Julianne gave you a good, 
direct answer on that.
    I would add that not only is it impossible for the boats to 
capture the water, the technology doesn't exist to carry on 
these boats to do what the EPA is saying we have to do. It's 
simply not out there. So it is impossible on a number of 
levels.
    I think the other aspect to the discharge permits--it's a 
real problem for the industry--are new requirements that the 
shore-based processors may be facing in areas that are 
currently remote but maybe re-designated as non-remote, such as 
Sitka which is on an island; feels pretty remote to us. But the 
need to discharge fish ground up to no larger than one 
millimeter; again, there isn't the technology. We don't see the 
issue and it could be really crippling to the processors as 
well as to the commercial boats that are being asked to comply.
    Senator Begich. Very good. Thank you.
    Ricky, I just have--actually, on that last question, I 
don't know if you want to respond from a recreational user 
standpoint on that and then I have a specific question about 
Magnuson-Stevens.
    Mr. Gease. I think specifically on the recreational user 
mandates from the EPA are concerning to the recreational 
industry. I think some of the E15, the motor issues, are very 
concerning to the industry.
    Senator Begich. Let me ask you, just in general, I 
appreciate you being here in regards to kind of the 
recreational users and how they fit in: Do you think the 
Magnuson-Stevens Act, as it's written today, and I think I know 
your answer based on your testimony but I want to just hear it, 
the valuation analysis or how you're viewed in comparison to 
commercial or even subsistence but really commercial, is at the 
very least not as clear as it could be? I mean, I think that's 
what I was hearing from your testimony. I want to make sure--I 
was starting to be a gemologist, so I was following you very 
easily on this so I knew exactly where you were going. So what 
it sounded like is you had a rough, from a recreational 
standpoint.
    Mr. Gease. Right.
    Senator Begich. And so, I've been there in the lapidary 
shops, so I know exactly what you're talking about.
    [Laughter.]
    Mr. Gease. Well----
    Senator Begich. What are your thoughts on that so I 
understand?
    Mr. Gease.--our experiences with MSA is that whether it's 
NOAA, NMFS or the councils, the tools may be there but the 
ability to fully understand the socioeconomic values that are 
generated in the industry, whether it's due to a lack of 
application of data, or a lack of data, a lack of standards to 
collect data so we can have some apples-to-apples comparisons 
between recreational data and commercial data. All that, I 
believe, is lacking. And what it leaves you with is making 
allocation decisions based on historical harvests. Now 
typically in Alaska, let's say for the halibut issue, when 
catch shares were implemented in the halibut fishery, that 
tends to, when you announce that you're going to do a catch 
share, leads to an enlargement of harvest because everybody 
wants to get history in there and have a stake in the catch 
share program.
    On the recreational side, through institution of kind of 
bag limits, anglers aren't just going to jump in there. So ours 
is more of a conservative approach in terms of it doesn't have 
typical changes in balances there.
    Let me put it in financial terms. Let's say we were sitting 
here trying to maximize our performance on stock and bond 
portfolios. If you didn't know what the stock performance was 
or a bond performance and you're just saying, ``Hey, we're just 
going to invest in bonds because historically we've invested 30 
percent in bonds and 70 percent in stock,'' well, if you didn't 
know what the economic performance was over time, you could 
never rebalance that portfolio. That's kind of where we're at 
within the allocation process of the Council levels where we're 
kind of stuck in historical harvest levels as our allocation 
set points. We don't really fully understand or evaluate the 
economic performance of the different industries.
    Senator Begich. Very good. Thank you very much. Senator 
Cantwell.
    Senator Cantwell. Thank you, Mr. Chairman.
    Again, we have such a distinguished panel here. I wanted to 
make sure we covered a couple of things I didn't hear too much 
about in the testimony.
    And, Mr. Plesha, maybe you could help us on this. One is 
about safety. You know, as we look at Magnuson-Stevens 
Reauthorization, where do you think we are with vessel safety 
and what else we need to be doing, if anything, there? And 
second, if you could address this issue, too, is just this 
issue of fish labeling. I feel like we have such a great 
product here in the Northwest. You know, you go to the store 
and you don't know what you're eating. It'd be nice to have 
some labeling to know this is where this fish is caught and 
this is the product.
    So where are we on that issue and how important do you 
think it is?
    Mr. Plesha. I think that on the labeling issue is very 
important and there's also a lot of fraud that occurs in 
seafood sales because often people will under weigh their 
amount of seafood that they'll sell or they'll, you know, put 
too much ice in the packaging. So there's an opportunity for 
FDA to be much more active in enforcing existing laws with 
regard to labeling of seafood. But the laws are in the books.
    With regard to safety at sea: it's one of the 
considerations the Council must take into consideration in the 
developing fishery management plans and they've done a very 
good job in doing that. One of the best tools that they have is 
to rationalize fisheries. And what we found is once the 
fisheries rationalize it becomes dramatically safer. The crab 
fleet is the best example. My recollection is that there were 
an average of five or six lives lost per year crabbing in the 
Bering Sea. And since it has been rationalized, I think there 
has only been one individual who passed away from a heart 
attack. So it has been dramatically safer post-rationalization 
as are most fisheries.
    Senator Cantwell. Thank you for that.
    And on the labeling question, do you think the FDA has the 
ability now to then label for, what my colleague has termed, 
``Frankenfish'' so that we can be clear to consumers when 
they're going to consume fish in the future?
    Mr. Plesha. No, they did not.
    Genetically engineered fish is a completely different 
issue. And add the question there is, what do you define as 
genetically engineered? There are some people who believe that 
hatchery production is genetically-engineered salmon. So you 
got to be careful about how you define that. But certainly the 
``Frankenfish'' species, which is really a mix of two different 
species of animals, should be labeled as that so that the 
consumer is aware of what they're purchasing.
    Senator Cantwell. I agree. Thank you.
    Senator Begich. Thank you very much.
    You know, I would say that if they have the capacity to do 
labeling on our wild stock, they should spend time on that then 
rather than ``Frankenfish,'' but we're trying to prevail on 
that.
    Let me close by saying first to this witness panel, as well 
as the other, fantastic information. It's helpful. This helps 
build the record on many different issues and we appreciate 
your testimony.
    The other thing I'd like to point out, and I know Senator 
Cantwell feels the same way I do, you know, we just passed a 
massive farm bill for this country. And we do it every few 
years, and, you know, the only difference between farming and 
what you all are doing, and both ends of it, is we harvest from 
the sea; the farm bill harvests from the land. Can you imagine 
if we had a complementary type of legislation that had all 
those great things that the farmers get that we could get? I 
mean, Land and Water Conservation Fund, can you imagine that 
for our seas and all this research they get?
    Senator Cantwell. Market access.
    Senator Begich.--market access, just a variety of things 
but, and in a lot of ways part of what we're hoping to do here, 
and I thank Senator Cantwell because she's been on the 
bandwagon longer than I have on this issue, and that is to make 
sure that at the end of the day, as we move on Magnuson-Stevens 
and other fisheries issue, we had a great sustainable fisheries 
issue here not long ago, to really point out, we get, we don't 
disrespect the farmers in the Midwest and everywhere, but 
fishing is an important part of our industry in this country in 
the sense of industry and what we can do; from subsistence to 
recreational to commercial. And we're just trying to get equity 
in a lot of these things.
    So thank you for helping us build the case additionally 
that fisheries is important. And people always think, and from 
Alaska's perspective, that oil and gas is the biggest employer 
when they look from outside in but the reality is, as it's laid 
out, it is the fishing industry that's the largest employer and 
has a multiplier effect that is significant for people who live 
and work in the state.
    So thank you for your testimony. We are going to keep that 
record open for 2 weeks for additional questions. I do have 
something I'll submit to each panel. And, I really appreciate 
you all attending today.
    Thank you very much.
    The meeting is adjourned.
    [Whereupon, at 12:26 p.m., the hearing was adjourned.]
                            A P P E N D I X

                                   The Tatitlek Corporation
                                      Anchorage, AK, March 12, 2014
Hon. Mark Begich, Chairman,
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard,
Commerce, Science, and Transportation Committee,
United States Senate,
Washington, DC.

RE: Statement for the Record on Hearing ``North Pacific Perspectives on 
            Magnuson-Stevens Act Reauthorization''

Dear Mr. Chairman:

    Please include the following statement in the Subcommittee's record 
for the February 27, 2014 hearing entitled ``North Pacific Perspectives 
on Magnuson-Stevens Act Reauthorization.'' This statement offered by 
the Tatitlek Corporation, an Alaska Native Village Corporation 
(``ANC''), on behalf of its subsidiary, GeoNorth, seeks to aid the 
Committee in addressing the serious, persistent problem of Illegal, 
Unreported, and Unregulated (``IUU'') Fishing through the utilization 
of groundbreaking satellite monitoring technology.
    IUU fishing activities have a direct impact on the Alaskan economy 
and affect the more than 80,000 citizens directly or indirectly, yet 
the logistical problems of operating in the North Pacific have 
inhibited government agencies from being able to properly monitor and 
enforce the restrictions. These operational and strategic challenges 
are exacerbated by the combined effect of constrained budgets, 
compliance mandates and reduced manpower. It is imperative the Federal 
Government identify new ways of doing business to maximize the limited 
monetary and human capital resources available to them while aligning 
their goals of their agency's mission and strategic direction.
    The Tatitlek Corporation has recently invested in the first 
commercial Multi-Satellite Direct Receiving Station (DRS) in the world, 
based at the University of Alaska Satellite Research Facility in 
Fairbanks. This station has the capability of linking with polar 
orbiting satellites to download very high-resolution optical and radar 
satellite imagery each time a satellite passes over the stations. The 
applications for NOAA, Coast Guard, and other naval agencies are, to be 
blunt, obvious. The technology used by the Federal agencies with 
fisheries management and with marine transportation safety is critical 
cost effective program management.
    Therefore, we propose instituting a monitoring program which would 
take advantage of these recent technological advancements to provide 
information and intelligence gathering through satellite tracking of 
suspicious activity. The patterns and hotspots discovered by polar 
orbiting satellites can be used to predict illegal behavior, and 
subsequently, provide near real time alerts to assist authorities in 
intercepting suspicious vessels. As such, polar-orbiting satellite 
imagery can offer profound access to expansive and otherwise difficult 
to monitor waters in the North Pacific.
    Further information on both the problems faced by these Federal 
agencies in monitoring and enforcing IUU Fishing, and our proposed 
program to help ameliorate these issues is provided in detail within 
our Statement for the Record. We urge the Committee to explicitly 
encourage utilization of this technology in the upcoming 
Reauthorization.
            Sincerely,
                                              The Tatitlek Corporation,
                                              Roy Totemoff,
                                                 President and CEO.
    The Magnuson-Stevens Fishery Conservation and Management 
Reauthorization Act of 2006 (MSRA), in amending the High Seas Driftnet 
Fishing Moratorium Protection Act (Moratorium Protection Act), called 
attention to the need for international cooperation to address fishing 
activities that have a deleterious effect on sustainable fisheries 
worldwide. Congress directed the Executive Branch to strengthen its 
leadership in improving international fisheries management and 
enforcement, particularly with regard to illegal, unreported, and 
unregulated (IUU) fishing, and to fishing practices such as bycatch 
that may undermine the sustainability of living marine resources. The 
Shark Conservation Act of 2010 (SCA) amended the Moratorium Protection 
Act to add a third focus: directed and incidental catch of sharks, 
especially the practice of finning, in areas beyond national 
jurisdiction. The Moratorium Protection Act requires the Secretary of 
Commerce to identify nations whose fishing vessels were engaged in 
these activities, and to consult with those nations on improving their 
fisheries management and enforcement practices.
Background
    Alaska is the only state to have coastlines on three different 
seas: Arctic Ocean, Pacific Ocean and Bering Sea. Over half of the 
Nation's commercially harvested fish come from Alaska, nearly four 
times more than the next largest seafood producing state. Eight of 
Alaska's ports consistently rate in the top thirty U.S. ports in terms 
of volume or value of seafood delivered.
    The vast fishery resources of Alaska are of tremendous importance 
to the economies of the state and the Nation. These resources are self-
renewing if properly managed. It is the mission of both state and 
Federal fishery management agencies to sustainably manage and maximize 
the economic benefits from these resources for generations to come.
Facts & Economic Impact \1\
---------------------------------------------------------------------------
    \1\ Alaska Seafood Marketing Institute report titled ``Economic 
Value of the Alaska Seafood Industry'' released in 2013

  <bullet> Alaska seafood directly accounts for 94,000 workers who, in 
        total, earned $2.8 billion in 2011. This figure consists of 
        American workers who caught, processed, managed, sold, cooked, 
        or served Alaska seafood. On an average monthly basis, Alaska 
---------------------------------------------------------------------------
        seafood directly created 61,200 U.S. jobs in 2011.

  <bullet> Estimates of direct economic effects do not include 
        multiplier effects, i.e., jobs and income created as a result 
        of business and personal spending connected to the Alaska 
        seafood industry. Including multiplier effects, the Alaska 
        seafood industry is the basis for over 120,000 U.S. jobs, 
        employing over 165,000 people, and $6.4 billion in labor 
        income.

  <bullet> Total direct and secondary economic output in the U.S. 
        stemming from the Alaska seafood industry was estimated to be 
        $15.7 billion in 2011.

  <bullet> It is estimated the industry directly accounted for 7 
        percent of all private sector resident earnings in 2011. 
        Amongst basic sectors, the seafood industry ranks second to the 
        oil/gas industry in terms of resident earnings.

  <bullet> The Alaska seafood industry creates more labor income and 
        employs more workers in Alaska than the visitor industry and 
        mining industry combined.

  <bullet> The seafood industry is Alaska's second largest basic sector 
        industry, in terms of employment created, labor income, and 
        production (including secondary impacts). It is the biggest 
        industry in terms of exports. Seafood is also a renewable 
        resource, which can provide economic benefits in Alaska for 
        centuries if properly managed.

  <bullet> Alaska's seafood industry generates $6.4 billion in direct 
        economic output. This does not include indirect or induced 
        impacts, rather it represents the value of Alaska seafood sold 
        in the U.S. as well as the value of Alaska seafood exported 
        abroad.
The Problem: Illegal, Unreported, and Unregulated (IUU) Fishing
    The international community uses the term ``IUU fishing'' to 
describe activity that does not comply with national, regional, or 
global fisheries conservation and management obligations, wherever such 
fishing occurs. Unregulated or unreported fishing may also occur in 
international waters where no management authority or regulation is in 
place. IUU fishing activity affects fisheries of all types--from small 
scale to industrial. Shipment, processing, landing, sale, and 
distribution of IUU fish and fish products perpetuate the financial 
reward from illegal harvests. IUU fishing thwarts attempts by nations 
and international organizations to manage fisheries in a responsible 
manner. It also affects the ability of governments to support 
sustainable livelihoods of fishermen and, more broadly, to achieve food 
security.
    Illegal maritime fishing activities have a direct impact on the 
Alaskan economy and affect more than 80,000 citizens directly or 
indirectly impacted by these activities. ``Since 1990, illegal and 
unlawful fishing is estimated to be a half a billion dollar problem to 
Alaska's economy--and we can regain control over our fisheries by 
better policing and enforcement at the ports where the fishing boats 
dock and unload their illegal haul,'' said Senator Lisa Murkowski (R-
AK).
    In order to combat any threat, the first priority is to gather as 
much information as possible and develop strong situation awareness. 
Situation awareness (SA) involves being aware of what is happening in 
the vicinity, in order to understand how information, events, and one's 
own actions will impact goals and objectives, both immediate and the 
near future.
    Governmental agencies are faced with operational and strategic 
challenges caused by the combined effect of constrained budgets, 
compliance mandates, and reduced manpower that creates operational 
difficulties to continue to be able to manage and monitor coastal 
waters and waterways against illegal fishing activities. In order to 
address these issues, it is imperative that the Federal Government 
identify new ways of doing business to maximize the limited monetary 
and human capital resources available to them while aligning their 
goals of their agency's mission and strategic direction. However, many 
Federal agencies often are faced with pushback from within their own 
organization along with the lack of funding. This highlights the need 
for greater communication of shared service benefits of utilizing 
technological solutions that can help governmental agencies address 
expanded responsibilities.
Remote Sensed Technology
    Technology is currently available that provides enhanced 
situational awareness for maritime monitoring by complementing optical 
and SAR imagery analysis with additional AIS (Automatic Identification 
System) matching.
    This supports:

  <bullet> Identification of AIS non-cooperative ships

  <bullet> AIS information reliability estimation based on ship 
        parameter correlation

  <bullet> AIS ship tracking on the basis of correlated AIS information 
        in times between satellite data takes

  <bullet> Ship identification based on (reliability proven) AIS and 
        ship register information.

  <bullet> Identification of typical behavior, patterns, etc. of 
        illegal activities based on statistical analysis: starting 
        points, destinations, routes, hot spots

  <bullet> Baseline information for effective setup of:

    <ctr-circle> Traffic Monitoring & Early-Warning

    <ctr-circle> Interception Mission Support

  <bullet> Urgent tasking: short-term priority satellite programming

  <bullet> Near-real-time information delivery
Monitoring Technology
    Currently most maritime monitoring efforts are centered on near 
shore activities because terrestrial sensor systems, such as radar or 
Automatic Identification System (AIS) have an effective range of 20 
nautical miles (nm) off the coast. In Alaska, these terrestrial based 
systems provide little to no visibility into activity on going in the 
Alaskan fisheries. Air and seaborne sensor systems can provide 
information beyond this 20nm limit. However, these typically are 
expensive to operate and only cover a relatively small geographic area 
each day. As a result, these two types of monitoring technologies alone 
make it difficult to accurately document the full extent of ongoing 
activity with the fisheries.
    In the last 10 years, satellite capabilities have improved to a 
point where they can provide regular monitoring of vessel traffic over 
large areas of the ocean. Maritime satellite monitoring capabilities 
come in two main types, satellites equipped with AIS receivers and 
imaging satellites. Satellite's capable of AIS reception provide access 
to AIS information beyond the 20nm range of the terrestrial AIS 
systems. Both satellite technologies offer global access making them 
ideal for monitoring fisheries worldwide.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Understanding the utility of this technology to both Alaska and the 
United States, in 2013 Tatitlek Native Corporation through its GeoNorth 
subsidiary invested in the first commercial Multi-Satellite Direct 
Receiving Station (DRS) in the world with a unique offering of both 
high-resolution and very high-resolution optical and radar satellite 
imagery capabilities. The DRS is located at the University of Alaska 
Satellite Research Facility in Fairbanks. Alaska will be part of an 
extensive global DRS network which means that imagery can now be a 
downlink instantly each time a satellite passes over the stations, 
providing rapid delivery of fresh imagery in near-real time. Imaging 
satellites, like those accessible through the GeoNorth direct receiving 
station (DRS), provide imagery which can be used to locate, identify, 
and monitor vessel activity.
    While extremely useful for vessel tracking both terrestrial and 
satellite AIS has one major downfall, it relies on a vessel to transmit 
the AIS information. Vessel's engaged in illicit activity often disable 
the AIS in an effort to evade authorities or conceal their activity. 
Satellite imagery on the other hand can identify every vessel 
regardless of whether the vessel's AIS is enabled or not. Satellite 
imagery provides an accurate picture of all vessel traffic. However 
when the two satellite information sources are combined, the suspicious 
vessel will stand out because they can be seen on the image having no 
corresponding AIS information. From the imagery information, such as 
vessel type, size, speed and direction can be extracted for these 
suspicious vessels. This information can then be used to determine the 
extent and nature of the illegal fishing, as well as other illegal 
activity.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Proposed Monitoring Program
    Successful monitoring programs involve a multi-phased operational 
approach. In the case of monitoring illegal fishing, a three phased 
approach would be appropriate.

  <bullet> Phase 1--Information Gathering: A board area is monitored 
        for a defined period of time. The purpose of this phase is to 
        quantify the volume of suspicious activity and identify areas 
        with a high concentration of activity.

  <bullet> Phase 2--Intelligence Gathering: The small high activity 
        area identified in phase 1 is regularly monitoring. The purpose 
        is to identify any potential activities patterns and activity 
        hotspots, which could be exploited in Phase 3.

  <bullet> Phase 3--Interdiction Support: During this phase, 
        information is provided in near real time (NRT) to authorities 
        assisting in intercepting suspicious vessels.

    While each of the three phases relies on satellite imagery and AIS 
information, each phase requires a different operational processing. 
Below is a description of the operational process which is required for 
each phase.
Phase 1--Information Gathering
    The information gathering phase generally sets the back drop of the 
whole monitoring program because it provides a synoptic picture of the 
area being monitored and provides information of the volume of ongoing 
activity, both legal and illegal in a given area. Information gathered 
during this phase is used to assist in the phases 2 & 3. As well 
information gathered, can be used to evaluate the effectiveness of any 
efforts introduced to reduce illegal activity.
    During Phase 1 the goal is to collect as much information as 
possible over as large an area as possible. To support Phase 1, the 
GeoNorth DRS has the ability to access up to 7 different imaging 
satellites providing the ability to monitor more than 200,000km2 of 
ocean each day. The collected images are analyzed daily and information 
about all the vessels found within the images is extracted. This 
information is provided daily to authorities allowing them to remain 
updated with maritime activity. Over time, this daily monitoring 
information can be used to identify areas where there are higher 
concentrations of activity.
Phase 2--Intelligence Gathering
    Once higher activity areas are identified during Phase 1, it is 
time to refine the collection strategy from a synoptic coverage to a 
targeted one. The purpose of the targeted coverage is providing daily 
monitoring so any activity patterns can be identified. These activity 
patterns are used to assist in determining the nature of any suspicious 
vessel and help build knowledge which can be used during any possible 
interdiction efforts.
    During Phase 2, the objective is to collect information over a 
targeted area with high frequency. Fortunately, Alaska's high latitude 
location makes multiple daily collections because the 7 satellites 
GeoNorth's accesses are polar orbiting. On most days, the targeted area 
can be imaged at least 3 times per day providing a clearer picture of 
ongoing daily activity. As in phase 1, each image collected is analyzed 
and vessel information is extracted. This information is then shared 
with authorities and used to identify activity patterns.
Phase 3--Interdiction Support
    If it is determined by the authorities that there is a need to 
engage suspicious vessels, or place themselves in locations to disrupt 
the ongoing activity, then we move to Phase 3. The purpose of phase 3 
is to provide authorities with actionable near real time information on 
the location of a suspicious vessel. This information is then used to 
assist authorities to effectively position themselves to intercept 
suspicious vessels or disrupt suspicious activity.
    Phase 3 requires rapid collection, analysis, and distribution of 
information in order to provide the maximum value to the enforcement 
authorities. This type of rapid support can only be accomplished using 
a direct receiving station, where vessel information can be provided in 
as little as 45 minutes from data collection. As in phase 2, images can 
be collected multiple times per day providing authorities with updated 
information.
Conclusion/Summary
    Fisheries are in a serious state of decline across the world. As 
population demands increase and global fishing stocks become depleted, 
the Alaskan economy and Untied States will have more demands placed 
upon their resources to monitor, protect, and maintain this vital 
natural resource. Throughout human history, ocean waters have been a 
critical food source. Once it was thought that our fisheries resources 
were limitless, but it has now become clear that their resources are 
not limitless and are in jeopardy. It is imperative that these critical 
resources be protected. The only way this can be accomplished is 
through prudent management and enforcement.
    As incursions increase with foreign fishing vessels in the 
Exclusive Economic Zone and without proper management, Alaska and the 
United States will face serious economic consequences from illegal 
fishing activities. Protecting and managing these natural resources has 
become an issue of National Security.
    Proven technology is now in place that will allow Alaska and the 
United States to better maintain and manage these resources. Synthetic 
Aperture Radar (SAR) and optical imagery for surveillance of commercial 
fishing grounds can aid in the detection of illegal fishing activities 
and provide more efficient and cost effective use of limited aircraft 
or patrol craft resources. Alaska's convergent economic enterprise 
zones cannot effectively be monitored for illegal fishing activities 
with the currently available patrol resources.
    With the utilization of SAR and optical satellite imagery, Alaskan 
coastal waters can now be monitored on a regular schedule. Assisting 
patrol vessel and locating suspicious ships for further observance and 
identification.
    Tatitlek's DRS presents an unprecedented tool for the State of 
Alaska to assist in combating illegal fishing which by some reports has 
cost the Alaskan economy half a billion dollars. The capability is here 
and operational. Now all that needs to be done is to implement the 
capabilities and begin battling Illegal, Unreported, and Unregulated 
Fishing in Alaskan waters.

                                 [all]
</pre></body></html>
